<html>
<title> - THE STATE OF AVIATION SECURITY: IS OUR CURRENT SYSTEM CAPABLE OF MEETING THE THREAT?</title>
<body><pre>[Senate Hearing 111-598]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-598
 
                    THE STATE OF AVIATION SECURITY:
                     IS OUR CURRENT SYSTEM CAPABLE
                         OF MEETING THE THREAT?

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 20, 2010

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
56-411                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
                  Nick Rossi, Republican Chief Counsel
             Brian M. Hendricks, Republican General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 20, 2010.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     5
    Prepared statement...........................................     6
Statement of Senator Dorgan......................................     8
Statement of Senator DeMint......................................     9
Statement of Senator Lautenberg..................................    11
Statement of Senator Thune.......................................    12
    Prepared statement...........................................    13
Statement of Senator Begich......................................    35
Statement of Senator Snowe.......................................    43
    Prepared statement...........................................    47
Statement of Senator Klobuchar...................................    48
Statement of Senator LeMieux.....................................    51
Statement of Senator Ensign......................................    53
Statement of Senator Cantwell....................................    55

                               Witnesses

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security.......................................................    14
    Prepared statement...........................................    16
Hon. Michael E. Leiter, Director, National Counterterrorism 
  Center.........................................................    21
    Prepared statement...........................................    24
Hon. Lee Hamilton, Co-Chair, National Security Preparedness 
  Group, Bipartisan Policy Center, and former Vice Chairman, 
  National Commission on Terrorist Attacks upon the United States 
  (9/11 Commission)..............................................    25
    Prepared statement...........................................    27
Hon. Tom Kean, Co-Chair, National Security Preparedness Group, 
  Bipartisan Policy Center, and former Chairman, National 
  Commission on Terrorist Attacks upon the United States (9/11 
  Commission)....................................................    31
    Prepared statement...........................................    27

                                Appendix

American Civil Liberties Union (Michael W. Macleod-Ball, Acting 
  Director, Washington Legislative Office and Christopher 
  Calabrese, Legislative Counsel), prepared statement............    67
Response to written questions submitted to Hon. Michael E. Leiter 
  by:
    Hon. Mark Warner.............................................    73
    Hon. Mark Begich.............................................    73
    Hon. Kay Bailey Hutchison....................................    74
    Hon. Olympia J. Snowe........................................    75
Response to written questions submitted to Hon. Janet Napolitano 
  by:
    Hon. John D. Rockefeller IV..................................    76
    Hon. Bill Nelson.............................................    77
    Hon. Frank R. Lautenberg.....................................    77
    Hon. Mark Warner.............................................    78
    Hon. Mark Begich.............................................    80
    Hon. Kay Bailey Hutchison....................................    81
    Hon. Olympia J. Snowe........................................    83
    Hon. Johnny Isakson..........................................    85
    Hon. David Vitter............................................    86
Response to written questions submitted to Hon. Lee Hamilton and 
  Hon. Tom Kean by:
    Hon. Frank R. Lautenberg.....................................    90
    Hon. Mark Warner.............................................    90
    Hon. Mark Begich.............................................    90
    Hon. John Ensign.............................................    91


                    THE STATE OF AVIATION SECURITY:


          IS OUR CURRENT SYSTEM CAPABLE OF MEETING THE THREAT?

                              ----------                              


                      WEDNESDAY, JANUARY 20, 2010

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to the notice, at 2:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order.
    I want to thank our witnesses for coming today. There are 
other hearings on this matter, and I'm really glad of it. Some 
of you are going to have to do a lot of traveling to a lot of 
committees, but I'm really glad of that, too. People need to 
hear from you. And, in fact, you look a long way off.
    Secretary Napolitano, I welcome you back to the Committee. 
I think that you have one of the hardest jobs in America; maybe 
second or third hardest. The President wins on that. You and 
Mike can fight out who's second and who's third. I think you 
are doing a terrific job that--I think your--you personally are 
underappreciated. I think your department is underfunded. And I 
think this instant may help us solve that underfunding problem. 
Your problem doesn't have to be solved. As I told you before, 
as the hearing, just a few moments ago, started, as far as I'm 
concerned, you wear four stars on each shoulder.
    Director Leiter, this is the first time circumstances have 
combined to have you testifying before the Commerce Committee. 
You're a very lucky man. As Chairman of the Intelligence 
Committee, I had the pleasure of working with you on matters 
relating to intelligence reform. And, as you know, I expressed 
my feelings then, how impressed I was at the job that you were 
doing then and you are doing now.
    We've had a very serious problem. There's the question of 
accountability; that's a hard thing to solve. It's also 
sometimes not a wise thing to solve in the first few minutes in 
public. Sometimes it's good to know what you're talking about 
before you get into that.
    And I know my colleagues will recognize your tremendous, 
profound expertise in understanding what it takes to meet our 
responsibilities. So, I am very grateful that you are here 
before our committee, and that you serve as you do.
    I know that you've been working around the clock. I've been 
a Governor, but I don't think even that comes even close to the 
pressure that both of you--a Cabinet Secretary, NCTC, et 
cetera--that what--what that amounts to in the way of pressure, 
sleeplessness, trying to find out how we can do better. That's 
the purpose of this hearing.
    We're going to stay on this subject most of this year. 
We're going to get it right. This is a very serious thing that 
happened. The fact that nobody was killed and nobody was 
particularly injured, except perhaps the perpetrator and one or 
two others in a minor way, belies the fact that, had things 
gone according to the way they were meant to, 289 people would 
have died 20 minutes outside of Detroit. I tend to think of it 
in terms of what I just said, as opposed to the fact that 
nothing happened, and I think that's the way you look at it, 
too.
    Lee Hamilton and Tom Kean, you are welcome anywhere, 
anytime, and you're an asset to the Nation, both of you. Maybe 
you're just one person; I don't know.
    [Laughter.]
    The Chairman. But, you have brought more wisdom and 
challenged us in more ways. I asked each of you to be tough on 
us in your questioning--answer to questions, or matters that 
you want to raise, because this is the time for us to hear 
clearly from those who have watched wisely from the outside, 
but really on the inside. Thank you, again, for coming.
    OK. So, the Christmas terror attack told us that we need to 
further harden our defenses and evaluate if we're doing 
everything we can to meet an evolving al-Qaeda terrorist threat 
or perhaps non-al-Qaeda terrorist threats. Domestic problems, 
discontent, all of the instability that rules throughout our 
country, fear--throughout the world--the fear, the 
hopelessness, all of this combines to produce exactly the wrong 
kind of people doing exactly the wrong kinds of things, but 
they think it's for the right reason. And if they seek 
martyrdom, it's pretty hard to argue and win them over.
    The threat to America is real and we have to get it 
absolutely right. And our problem, of course, is that we have 
to get it right 100 percent of the time. Their problem is, they 
have to get it right once. And it's not fair. But, that's the 
world we live in, and that's what we need to deal with on this 
committee, as well as other committees.
    A man with a bomb was able to board a plane headed for 
America. So, it's obvious and clear that our system failed. 
Cannot be disputed. I know that, every day, countless unsung 
American heroes are working in your agencies, working 17-hour 
days, 7 days-a-week, and going through every scrap of 
information. People have no idea--it's actually--it's 
classified--people have no idea of the amount of information 
that comes in each day to the various intelligence agencies. 
And you get the brunt of it, Director Leiter.
    And so, the question is, how do you pick one thing from 
another? And the answer is that it seems to be impossible, and 
that can't be the answer; the answer is: We've got to get it 
right.
    How come this guy had--got a visa? How did he get a visa? 
How come it was his--what he said--what his father told to the 
American Embassy was not considered a clarion call? Potential 
answer: All those things come in all the time. Other potential 
answer is: We should have hearkened to that and responded to 
that and made sure that he never got on an airplane.
    So, I tremendously value--I'm still on the Intelligence 
Committee, and I still do--the people that work so hard to try 
to get it right. Seven men and women of the CIA recently killed 
in Afghanistan. They don't make it home.
    So, while we have a responsibility to be frank about where 
we've fallen short, we must also honor their service. I want 
that to be very, very clear. We can do that by building on the 
progress that we've made since the 9/11 attacks, with an eye 
toward making smart and specific improvements that keep us 
safe. Easy to say, hard to do.
    Nine years ago, our intelligence agencies did not even 
share information, largely because they could not, by law. 
First bill that we passed, ``Yes, CIA and FBI, you can talk to 
each other.'' Stunning. Less than a decade ago. And their 
information systems weren't interoperable. Part of that's true 
still today. And because they would not, agencies too often 
preferred to stovepipe information rather than share it. That 
was the past. How much is that of the present? We will talk.
    Since then, as Mr. Leiter will testify, we have made 
enormous strides. Today, our systems and practices are far 
superior to those that were--allowed 19 men to execute the 
global plan to commit the horrific acts of 9/11. But, we're not 
fail-safe; we haven't gotten there yet.
    And yet, just weeks ago, our system still allowed a 
terrorist to board flight 5--253 with sophisticated explosives. 
This was a grave and multilayered failure. The intelligence 
community did not piece together clues about this man's 
connections to terrorism; clues that were available, including 
from his father. It's my general impression it's--it doesn't 
fall within the habit of Islamic behavior, for a father to go 
in and, in a sense, give up his son, or even more, for us then 
to ignore it, that being such a unique and stunning thing for a 
father to do.
    The State Department and the Department of Homeland 
Security allowed this man to board the airplane with a valid 
U.S. visa. The Brits hadn't given him one a couple years 
before. We gave him one that lasts for 2 years. And the 
international airport screening that we depend on did not 
detect this man was carrying a potentially devastating 
explosive device.
    One of my questions, Madam Secretary, is going to be about 
the meeting that you take off for tomorrow, the 21st and the 
22nd, with Europeans. How do we--in this tiny, tiny, little 
world, how can somebody just pass through Amsterdam without any 
American eyes alighting upon him or her or what their situation 
might be?
    So, we have a responsibility to be brutally honest about 
where we have fallen short. We have to do better. And the basic 
fact that will drive much of this committee's work in the year 
ahead is trying to make it all better. I promise you that. I 
promise my colleagues that. We have to do better protecting our 
families, safeguarding our communities, and securing our 
Nation.
    Nobody was injured, nobody was killed. Not in my head. 
Malfunctioned, 252 would have died. So, this is at the top of 
our agenda for this year, bringing the attention, the 
resources, and the leadership needed to provide an improvement 
in our citizens' safety and security. This committee intends to 
continue asking the tough questions to shape the policies that 
guide transportation security in all of its modes. And by that 
I mean our port security, our chemical security, our 
cybersecurity. And the list goes on. We have oversight of that 
here. Have we exercised it sufficiently? Perhaps not.
    Today's hearing on aviation security represents an 
opportunity to bring to the table key issues that demand all of 
our attention. And I want to invite my colleagues to bring 
their new ideas as we work together to develop concrete 
solutions that advance our security efforts and make us safer.
    Let me end with five suggestions, some key solutions I 
believe we can and must seriously consider:
    Requiring U.S.-bound aircraft and international airports to 
meet more rigorous security requirements and not letting our 
cumbersome international negotiating, as a process, slow us 
down. Is that possible? According to international protocol, it 
is not. It has to be possible. We cannot talk this thing to 
death. We are a tiny little globe, interlocked.
    Two, engaging a major new effort to develop and deploy 
advanced imaging technologies, which means more money, more 
accuracy, and getting serious about stopping any programs that 
do not work. So, then we have the question of civil liberties 
versus national security. Forever a problem; forever, rightly, 
a problem. But, we cannot tread lightly on what we do on 
national security.
    Three, improving and, in some cases, mandating better 
information-sharing among TSA intelligence agencies and even 
commercial airlines. I invited an airline to be at this hearing 
today. They declined. They declined. I was not happy. And I 
don't know what that tells us, but it tells us that we're all 
in this together, and everybody has to do their part, and 
nobody has a safe haven. We need to do more to establish the 
partnership between government and the private sector when it 
comes to security.
    Four, making the watch list more accurate on the one hand, 
and more dynamic on the other. Expanding the universe of people 
who receive secondary screening. I'm a believer in that. 
Reevaluating our screening criteria. And then doing something 
called ``educating the public'' in advance about what may 
become more stringent scrutiny at airports. Our public 
understands this very well. They've been through the beginning 
of TSA. They've been through shoe bomber and taking off the 
shoes. Have they liked it? No. Have they complied with it? Yes. 
Because they understand what the stakes are. So, we need 
partnership with the flying public also.
    And finally, number five, requiring coordination between 
the valuable resources we have at our embassies, especially our 
regional security offices, and the TSA to identify threats 
emanating from overseas airports. Believe it or not, this is 
not always happening today. And it did not happen in this case.
    This is not an exhaustive list, but it's something to start 
with.
    All of this obviously is going to require raising new 
revenues. That's always a problem in the U.S. Senate. But, 
doing nothing is not an option. I don't know how you improve 
security. I don't know how you put in better machinery. I don't 
know how you get to the WBIs--not just 40, but the 900 you want 
by 2014--without more money, more training for our security 
people.
    So, the need is clear and transparent. The way is hard and 
difficult. But, it is our obligation.
    I look forward to our witnesses' testimony as we work 
together and make our transportation system as safe as 
possible.
    Just--Madam Vice Chair, if I can just say that I'm sure 
that our colleagues all know that Erroll Southers withdrew his 
name for head of TSA today. And our national security system 
has lost a skilled law enforcement officer who had needed 
expertise and leadership qualities, because of--I would call it 
``political games,'' but, I'm not going to--I'll just scratch 
that from the record. Anyway, it's a real shame. It's a real 
shame. So, now we've got to go out and find another one, and 
vet them in the way that Americans can, which takes a long 
time. We don't have a long time. I'm confident that the 
President will very quickly nominate a new candidate to run 
TSA, and I'm committed to seeing that that person gets through 
the process.
    I thank you, and I thank my colleagues for their patience.
    And I turn now to Senator Hutchison, for her opening 
statement.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Mr. Chairman, I would just say that I believe there were 
legitimate concerns about Mr. Southers, and I think those 
concerns deserved to be investigated. So, I hope that we can 
move forward with a new nominee, because we certainly need an 
experienced person in that position. But, it also needs to be a 
person who would assure the respect of the people in the agency 
to have the authority to assure that the agency is doing its 
job.
    I do think that every one of the witnesses have done a lot 
to try to put America in a place where we can be more secure. I 
think the members of the 9/11 Commission certainly have given 
many volunteer hours to give advice, early on, after 9/11. And 
I think the members of our administration, as well, are working 
very hard. No one disputes that you are doing everything that 
you know to do. But, I think now we need to look at what has 
happened and learn from that. We need to go forward in a 
constructive way.
    The plot that unfolded on Christmas Day just shows that the 
defense of our homeland from terrorists is dependent on 
information collection and sharing, intelligence analysis, and 
the vigilance of our security personnel, and that none of these 
can be effective without the others. And if there is anything 
that we have learned from the experience that happened in my 
home state at Fort Hood, and then this one, on its heels, it's 
that we're not sharing enough. And what the Chairman said 
about, after 9/11, saying, ``Oh, yes, our intelligence agencies 
can actually talk to each other,'' that is a very small first 
step. And we need to perfect that, and quickly.
    The President's own initial review has concluded that, if 
our intelligence analysts had pieced together the information 
at their disposal about the attempted bomber, there would have 
been sufficient grounds to place him on the terrorist watch 
list, perhaps averting what happened.
    Going forward, I think that we need to look at several 
things:
    We need to look at expanding the number of known or 
suspected terrorists and their associates who are placed on 
screening lists even though, in the short term, this may result 
in more mistaken matches.
    Number two, I think we need to expedite the adoption of 
programs that will aid the process, such as the complete 
implementation of the Secure Flight Program, which will take 
the ultimate screening responsibility away from air carriers 
and place it completely within the TSA, which has more access 
to intelligence than private airlines, making our screening 
efforts more effective. Progress on that program has been 
positive of late, but we need to move faster, if we can.
    And number three, I think it is very important that we 
better synthesize intelligence data, especially in relation to 
associates of known terrorists or those who may be connected to 
potential terrorist threats.
    Since 9/11, we have been in a new era of conflict. However, 
recently we have seen a series of disturbing changes in our 
fundamental mission of how we deal with terrorists and 
terrorist threats--most starkly, in the decision to bring the 
perpetrators of the 9/11 attacks to New York for civil trials 
in our courts and the closing of Guantanamo Bay.
    Mr. Chairman, this country and its leaders need to remember 
that we are at war with terrorists and extremists who mean us 
harm. This is not a war of traditional means, and should not be 
dealt with through the civil process. We should have an 
approach that is committed to more vigilance and flexibility 
and enables our intelligence and security personnel to utilize 
all the tools at their disposal for the purposes of eliminating 
the threat to this Nation.
    So, this is not a blame game, but it is, I hope, an 
opportunity for us to talk to you, for you to talk to us, and 
for all of us to come to the conclusion that we must be more 
vigilant in pursuing the people who wish to do us harm. And 
even in today's newspaper, they are talking about recruiting 
more Americans for these terrorist activities in Yemen, and 
they are focusing on blond hair and blue eyes so that it is not 
someone who would raise flags.
    So, we've got a problem that we need to confront together, 
and I hope that we can learn from our hearing, from the hearing 
you had this morning, and that we can have the confidence that 
we're all going on the same track.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Mr. Chairman, thank you for calling this hearing. The Christmas Day 
terrorism incident is a bleak reminder of the ever-evolving nature of 
terrorist threats against the United States.
    The plot highlights the fact that the defense of our homeland from 
terrorists is highly dependent on information collection and sharing, 
intelligence analysis, and the vigilance of our security personnel, and 
that none of these can be fully effective without the others. The 
Transportation Security Administration (TSA), Department of Homeland 
Security (DHS) and other critical Federal Agencies have very difficult 
tasks, but they must do a better job of gathering, identifying and 
properly utilizing all intelligence information.
    The President's own initial review has concluded that, if our 
intelligence analysts had pieced together the information at their 
disposal about the attempted bomber, there would have been sufficient 
grounds to place him on the terrorist watchlist--perhaps averting his 
attack.
    As it stands, we owe a large debt of gratitude to the brave and 
conscientious passengers and crew members of Flight 253, who subdued 
the would-be bomber.
    But, we should not need to rely on the heroism of airline 
passengers to keep us safe. We have a complex and multi-layered 
aviation security system and many of the threats against our 
transportation system can best be addressed through effective security 
policies and the use of advanced technology. However, it is just a 
basic fact that no technology is a silver bullet and all technologies 
have their limitations. They are simply one of many obstacles a would-
be terrorist must account for.
    Moving forward, the TSA needs to bolster existing layers of 
security, and that means fostering effective and innovative 
technologies and deploying them rapidly. It will also likely mean 
expanding the number of known or suspected terrorists and their 
associates who are placed on screening lists, even though--in the short 
term--this may result in more mistaken matches.
    We need to expedite the adoption of programs that will aid the 
process, such as the complete implementation of the Secure Flight 
program, which will take the ultimate screening responsibility away 
from air carriers and place it with the TSA, which has access to more 
intelligence than private airlines, making our screening efforts more 
effective. Progress on that program has been very positive as of late, 
but if we can move faster, we should.
    In addition, the Administration needs to be more assertive on an 
international level with foreign nations that serve as gateways to our 
country. We need to tighten aviation security rules and procedures 
without unnecessarily impeding air travel domestically and 
internationally.
    Finally, and most importantly, we need to better synthesize 
intelligence data, especially in relation to `associates' of known 
terrorists or those who may be connected to potential terrorist 
threats.
    I think we all appreciate the difficult job our intelligence 
community has deciphering meaningful information from the proverbial 
`noise,' but I believe we can and should do better. All our security 
tools and watchlists are only as good as our intelligence collection 
and our analysis of that intelligence as a whole.
    Since 9/11, we have been in a new era of conflict. However, 
recently, we have seen a series of disturbing changes in our 
fundamental mission of how we deal with terrorists and terrorist 
threats--most starkly in the decision to bring the perpetrators of the 
9/11 attacks to New York for civil trial.
    Mr. Chairman, this country and its leaders need to remember we are 
at war with terrorists and extremists who mean us harm. We need to be 
acting like it and responding accordingly through our policies. This is 
not a war of traditional means and should not be dealt with through 
civil process and understanding. This war calls for a novel approach 
that allows us to be more vigilant, flexible, and enables our 
intelligence and security personnel to utilize all the tools at their 
disposal for the purposes of eliminating the threat posed to this 
Nation.
    Thank you, I look forward to the testimony.

    The Chairman. Thank you, Madam Vice Chairman.
    And I'd just say to our members that I want the following 
Senators, who I've spoken to, to make statements, each 5 
minutes or less. And I hope that others will understand. These 
are the people who are chairmen and ranking on the relevant 
subcommittees.
    So, I want to start with Senator Dorgan, and then I want 
Senator DeMint, then I want Senator Lautenberg, and then I want 
Senator Thune to make statements.
    So, we'll start with Senator Dorgan. And I hope others will 
understand.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you. I'll try to be 
very brief.
    You know, this is one of those very important issues in 
which failure is not an option. And we had, on Christmas Day, 
something that was near-tragic for a lot of passengers on that 
airline. And fortunately, the terrorist attack that day failed 
to achieve the objective.
    But, what I want to understand is a couple things. Number 
one, I think there was a screening failure. The question is, 
what do we do to--what do we need to do to better screen 
passengers, balancing it with privacy and so on? And the second 
is the intelligence failures. What has caused the intelligence 
failures, especially inasmuch as we put together a DNI to end 
stovepiping and so on, and clearly that didn't happen here.
    Harry Truman, famously, had the sign, ``The buck stops 
here.'' The question with all of this, for me, is, where does 
the buck stop with respect to these failures?
    And I want to just hypothecate. If we were thinking forward 
here, and it's today, and we have some information about a 
couple of weeks from now, and it's a father of a young Nigerian 
that comes to our intelligence community overseas, and says, 
``Look, my son is engaged with some bad people. I'm worried 
about what he might or might not do.'' He is then put on a 
watch list, but not on a No Fly List. Nobody checks to see that 
he has an open visa and cancels the visa. So, here's someone 
whose father thinks, apparently, he's a potential terrorist or 
something of that nature, and he's put on a watch list, but, 
again, not on a No Fly List, and continues an open visa, and 
there are three intercepts in the next few weeks or so. Two of 
the--one of them is that a man with the first two names of this 
person has volunteered for some coming operation; that was an 
intelligence intercept, I understand. Another intercept would 
be a Nigerian man being groomed for an operation. And the first 
intercept actually used the first two names of this young man. 
The third intercept, in December, mentioned some type of 
operation on December 25. And then a young man shows up and 
pays cash for an airline ticket to go from Ghana to--as I 
understand it--to Amsterdam, to Detroit, and then shows up and 
boards the plane with no luggage.
    So, this isn't looking for a needle in a haystack; this is 
looking for a big old needle right in the middle of our hand. 
And the question is, would we see it next time? Because we 
didn't see it this time. And that is, in my judgment, an 
unbelievable failure. So, the question is, Where does the buck 
stop? Who's accountable for that? Because that--it is one thing 
to say the system failed. But, we're not talking just about 
systems; we're talking about people who manage and operate the 
systems, and who have to be accountable for making sure the 
systems work. Because failure is not an option. And we have 
constantly, as all of us know, dealt with the last issue--the 
last issue of the box-cutter, the last issue of the shoe bomb, 
the last issue of liquid containers, the last issue of sewing 
plastic explosives in the underwear. It is constantly the last 
issue. But, much more important than that, in this case, is the 
question of, How did we miss so many circumstances, where you 
actually have a name, and a father describing a son, and a 
circumstance with three intercepts that talk about a day and 
the name, and No Fly Lists that aren't coordinated with watch 
lists, and visa--open visas that aren't coordinated with a 
watch list? You know, something just doesn't add up at all. So, 
and I think--my hope is that through this hearing we can 
understand, What doesn't add up, why doesn't it add up, and 
where does the buck stop? That's what's important.
    So, two issues: How do we better screen? What kind of 
screening is necessary? What does it cost? How intrusive is it? 
All of those issues are things we have to talk about. And then, 
second, what about this unbelievable--to me--issue of 
intelligence?
    I say all of that without denigrating you all. This is a 
tough job. But, still, I think you and us need to understand 
what failed and who failed and who's accountable.
    The Chairman. Thank you, Senator Dorgan.
    Senator DeMint.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Mr. Chairman.
    I want to thank Chairman Dorgan for his work in airline 
safety. You've been a real proponent for many months, long 
before Christmas, to improve airline safety, and your expertise 
will be missed.
    I want to make a couple of points. I appreciate all the 
witnesses being here today.
    First, I'd like to talk about the Transportation Security 
Administration. And anytime we implement any change in Homeland 
Security, TSA, anything related to that, the first question 
needs to be, how will it improve security? And I've been very 
concerned, as the Secretary knows, that the Administration has 
a priority of subjecting our TSA security officers to a 
collective bargaining regime. No one has yet to give any 
security reason why collective bargaining should be adopted. 
Employees are not mistreated. We will not add any flexibility 
or any benefit. It's clearly a political agenda. And frankly, 
for me, even though I appreciate what the President has lately 
been saying, and what has come out of Homeland Security--those 
things have been encouraging--it's hard for me to take 
commitments to security seriously as long as forcing TSA into 
collective bargaining is a priority, because it makes no sense.
    Last month, I asked the Secretary how collective bargaining 
at TSA will improve security. Her answer was that the two 
weren't mutually exclusive. Her answer was not that it would 
improve security. And I think anytime when the Secretary of 
Homeland Security can't tell us how a change in homeland 
security is going to improve security, it should stop us all in 
our tracks.
    Our security agents now are free to join a union, and the 
union can advocate on their behalf. But, we all know that 
collective bargaining is very different; it creates a third-
party structure to which our security system has to answer to. 
Collective bargaining will impose a 19th-century industrial 
personnel management model to a 21st-century information age 
threat.
    The threat we see in the aviation sector is a creative and 
nimble threat. These are words the President has used. Our 
response needs to be nimble and creative. We need to 
continually improve what we do at TSA. The men and women who 
protect the aviation sector need to be able to respond quickly 
to change--to change in the counterterrorism tactics so that we 
can thwart the tactics of our adversaries and protect 
passengers. And they need to be able to do it without having to 
get signoff from the labor unions. The Secret Service, Coast 
Guard, the military, the FBI--they realized this long ago, and 
they prohibit collective bargaining.
    Let's not be fooled by some of the arguments that we hear, 
that collective bargaining works in other areas of homeland 
security. The most immediate past director of Customs and 
Border Protection is on record saying that collective 
bargaining made it much more difficult for him to do his job. 
He had to negotiate staffing policy with labor unions and had 
to discuss security policy with the unions that was better kept 
internal.
    Quite simply, our security policy needs to be focused on 
improving security. It can't be subjected to a union middleman. 
The only concern career professionals at TSA should have when 
responding to a terrorist threat is, ``What best meets the 
threat?'' Not ``What best meets the needs of a labor union.''
    Let me shift focus just a minute to talk about a couple of 
other things:
    One is behavioral targeting. In addition to not going 
backward with this idea of collective bargaining for TSA, where 
it has been prohibited, we need a more modern approach to 
screening. The behavioral screening approach used by the 
Israelis provides a good model, and it's something that we 
should take a closer look at. TSA continues to focus on keeping 
bad things off of airplanes. The Israelis, for example, focus 
on keeping bad people off of airplanes. Terrorists will always 
find a weapon, whether it be in a bottle of alcohol purchased 
at a duty-free store or two strategically placed laptop 
batteries. If we focus on things instead of terrorists, we're 
going to lose this war.
    To be clear, I'm referring to assessing an individual's 
behavior, to separate the terrorist from the traveler. 
Additional random screening will never be as successful as 
targeting the bad guys. Behavioral profiling is a vital and 
common sense tool to increase security that we could use more 
effectively. And I hope we can talk a little bit about that 
today.
    Just one other point, Mr. Chairman, on visas. The Christmas 
bomber highlighted the need for across-the-board reform of the 
visa process. We need to make it faster and easier to revoke 
visas. Traveling to the United States is a privilege; it's not 
a right. Currently, unless the applicant comes from a country 
designated as a sponsor of terrorism, the information threshold 
required for denying a visa may be too high. This issue needs 
to be addressed quickly for both immigrant and nonimmigrant 
visas. America can be a safe and welcoming nation at the same 
time. We do not have to sacrifice security for expediency.
    I am also concerned that when security advisory opinions 
have been requested, some types of visas have actually been 
issued before all of the relevant intelligence agencies have 
had a opportunity to respond. Security has to be a priority, 
and policies that discourage information-sharing and weaken 
security must be changed. If we want to enhance security, we 
have to collect, analyze, and quickly act on that information. 
The American people deserve to know why this terrorist was not 
added to the No Fly List and what we intend to do to keep 
terrorists not only from getting visas, but from gaining access 
to our country altogether.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    If I might just take a moment to say that we have an 
outstanding group of witnesses at our--at the table, but I am 
particularly pleased to see former Governor Kean, from New 
Jersey, and Lee Hamilton, who co-chaired the 9/11 Commission 
Report. And it was a major piece of work in response to the 
worst attack ever on our country. We're glad to see them here.
    During--the incident over Detroit wasn't the only urgent 
wake-up call about a major lapse in our national aviation 
security network that has been recently revealed. During what 
was supposedly a period of heightened aviation security at an 
airport--Newark Liberty Airport--that lies within the 2-mile 
stretch deemed to be the most the most at-risk place for 
terrorism--that's by the FBI--a man was able to break through 
security by walking unchallenged into Terminal C of Newark 
Airport. This breach of security was intentional and shockingly 
easy. The inexcusable breach occurred when a TSA guard turned 
his back for a moment and a watching individual took the 
opportunity to dash under a security tape, into the airport, 
completely unchecked and unscreened. Without a vigilant 
traveler's alert to the TSA, we would never have known that the 
breach occurred.
    And even after TSA was alerted, it took 2 hours for them to 
alert law enforcement people--the police there--to verify the 
breach on videotape and to take action. Two hours. When a 
potential terrorist could have been conspiring, with a plan or 
a weapon, to bring down an airplane. Two hours. When a 
potential terrorist could have been bird-dogging for a bigger 
plot.
    And while the motives of the man behind the Newark breach 
may seem benign, this incident was not just as it was 
portrayed, a playful reunion. The result was a major security 
breach that shut down an entire terminal of a major airport for 
more than 6 hours and delaying more than 16,000 people from 
getting to their families, friends, or final destination. It 
caused over 100 flight delays and 27 flight cancellations.
    And since 2002, DHS has spent $1 billion on technology to 
screen passengers coming into an airport terminal. But, all of 
that screening technology is useless if someone can just walk 
in through an exit without being noticed. This exit at Newark 
Airport had security cameras operated by TSA. But, the 
principal camera had been broken for almost a week. TSA knew 
about the broken camera and failed to report it.
    The cameras weren't the only things that broke down; there 
was a complete communications breakdown between TSA and its 
partners on the ground, the Port Authority and Continental 
Airlines. Fortunately, the Continental Airlines camera nearby 
was effectively recording during this time. TSA still failed to 
notify the Port Authority police of this breach.
    And we can be sure that terrorists are--observe actively 
the kind--this kind of a free passage for plans that they may 
have.
    A security breach of this nature is a matter of national 
security and needs to be treated that way. And that's why I'm 
taking action today to introduce legislation to close the 
dangerously--the dangerous security gaps exposed by the breach 
at Newark Airport.
    My legislation mandates that all airport terminal 
checkpoints and exits have working security cameras. It will 
require sufficient personnel at secure area exits. If someone 
purposely breaches airport security, under my bill they will 
face serious consequence; not, as is suggested, a $500 fine, 
which is nothing more than a tap on the wrist that makes a joke 
out of the security structure. I'm going to be working with DOJ 
and DHS to make sure the Federal Government gets involved in 
enforcing the law and handling major aviation security breaches 
instead of ceding this responsibility to State or local 
authorities.
    The incidents at Newark and Detroit exposed fundamental 
weaknesses in our aviation security system. And if we learn 
from these events and treat them with the seriousness they 
deserve, I'm confident that we can say to all Americans who 
want to fly, ``You're safe as safe can be made.''
    And with that, I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lautenberg.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you Mr. Chairman. I want to thank you 
and Senator Hutchison for holding this very important hearing.
    And I also thank our panelists for being here today, and 
would echo what's been said about Congressman Hamilton and 
Governor Kean, and your good work, and we appreciate the many 
contributions that you have made in looking carefully at this 
in great detail, making recommendations about how to do a 
better job.
    I do have to say that I think the initial reaction to this, 
that the system worked, could not have been more wrong. And it 
seems, to me at least, that there were significant breakdowns 
and failures in the system, and those need to be corrected or 
this is going to happen again. And I think the people on Flight 
253, and the crew, can be very thankful that the explosive 
failed to detonate. But, that doesn't, for a minute, suggest 
that there aren't going to be other efforts made, by those who 
would want to kill Americans, to somehow get into our system 
and have access to Americans and airplanes and other forms of 
transportation that they can use to try and kill and disrupt 
and damage America and our interests.
    So, we need to get this fixed. One of the things that I 
appreciate both Congressman Hamilton and Governor Kean have had 
to say is that we do have to recognize that one of the greatest 
threats that we face in this country, when it comes to air 
travel, is public complacency, particularly following the 
stepped-up security protocols following 9/11. I appreciate that 
you recognize that in your testimony.
    I think we all have to figure out where the intelligence 
and other human errors occur that failed to stop Mr. 
Abdulmutallab from entering the United States. It's pretty 
clear that there was a failure when it comes to sharing 
intelligence, a failure when it comes to analyzing 
intelligence.
    I share the observation of the Senator from South Carolina, 
that the focus of this effort really needs to be on terrorists.
    I'm interested in hearing, Secretary Napolitano, from you, 
and from Mr. Leiter, about what's being done to adjust the 
process by which names are added to the No Fly and Selectee 
Lists, and what, if any, technological barriers exist when it 
comes to subjecting airline flights to the larger subset of the 
TIDE database, the 550,000 names, because clearly there has got 
to be a better job when it comes to screening and identifying 
people who are already on these lists, and making sure that 
they're not getting this kind of access.
    The other issue I'd be interested in hearing about is how 
often there have been suspended flights into the United States 
due to insufficient security standards that are employed by 
foreign countries. I know we have TSA people that are looking 
at those, but, it seems, to me at least, that is another area 
where there were serious breakdowns in the process this time 
around.
    So, I appreciate the hearing, Mr. Chairman. I'm anxious to 
hear from our witnesses.
    This is a critically important issue, and we need to do 
everything we can to double down our efforts to make sure that 
these types of incidents don't happen again in the future.
    Thank you.
    [The prepared statement of Senator Thune follows:]

 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Mr. Chairman and Ranking Member Hutchison, I appreciate you calling 
today's hearing and I appreciate the panel of witnesses that have 
joined us today to talk about a very serious matter.
    Without question, the 289 passengers and crew of Flight 253 have 
much to be thankful for as a result of the failed detonation of 
explosives on Christmas Day. However, the events that resulted in Mr. 
Abdulmutallab being permitted to fly into the U.S. have sparked a very 
serious discussion both here in the United States and across the globe 
when it comes to passenger safety and security.
    As I noted last fall when this committee held a hearing regarding 
the TSA, the greatest threat that we face as a country when it comes to 
air travel, is public complacency following the stepped up security 
protocols following 9/11, I was pleased to see that both Congressman 
Hamilton and Governor Kean noted such in their testimony.
    While it is clear that intelligence and other human errors failed 
to stop Mr. Abdulmutallab from entering the United States, I will keep 
my remarks brief in the interest of hearing from our witnesses and 
asking questions following their remarks. Thank you Mr. Chairman.

    The Chairman. Thank you, Senator Thune.
    I want to both explain and apologize to our witnesses. We 
do this--and there are a number of people, in addition to those 
who spoke here on the dais, who want to say things. We can't. 
What we would traditionally do is, we have the relevant 
Subcommittee Chair and Ranking Members say a word. You, in 
turn, have to listen to that. But, on the other hand, they made 
some pretty good points.
    So, I would now call on Secretary Napolitano. We welcome 
your statement.

        STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Well, thank you, Chairman 
Rockefeller, Senator Hutchison, members of the Committee, for 
the opportunity to testify on the terrorist attack aboard 
Northwest Flight 253 on Christmas.
    I am pleased to be here today with Director Leiter, with 
Governor Kean, and with Representative Hamilton.
    Now, as President Obama has made clear, this Administration 
is determined to find and to fix the vulnerabilities in our 
systems that allowed this attack to occur on Christmas Day.
    Our country's efforts against terrorism include the actions 
of the Department of Homeland Security and many other agencies, 
as well as those of our international allies. So, I'd like to 
focus my statement, Mr. Chairman, on the DHS role within these 
larger efforts.
    First, by and large, DHS is a consumer of the United States 
Government's Consolidated Terrorist Watch List which we use to 
help keep potential terrorists from boarding flights and to 
identify travelers who should undergo additional screening. 
Within the United States, DHS performs physical screening at 
airport checkpoints and provides further in-flight security 
measures. Outside of the United States, we must work with 
foreign governments and airlines to advise them on which 
passengers may prove a threat and require security measures for 
flights bound for the United States. As you know, TSA does not 
screen people or baggage at international airports.
    Now, regarding the Christmas Day attack, Umar Farouk 
Abdulmutallab should never have been able to board a U.S.-bound 
plane with explosives on his person. The interagency process to 
fix these vulnerabilities, highlighted by this attack, is well 
underway. And as a consumer of terrorist watch list 
information, DHS welcomes the opportunity offered by this 
process to contribute to improving our Federal Government's 
ability to connect and assimilate intelligence. And we are 
working with the NCTC, with the OD&I, and others to do that.
    We're also focused on improving aviation screening and 
expanding international partnerships to guard against a similar 
type of attack. I believe several of the members have made 
inquiry about that.
    So, I have submitted a longer written statement describing 
these various programs that work to keep terrorists from 
boarding planes, and ask that it be put in the record.
    In terms of the DHS role in this case, the bottom line is 
this: He was not on the No Fly List, which would have flagged 
him to be prevented from boarding; nor was he on the Selectee 
List, which would have flagged him for secondary screening in 
Amsterdam by the Dutch. Furthermore, the physical screening 
performed by foreign authorities at airports in Nigeria and in 
the Netherlands failed to detect the explosives on his body.
    Now, immediately after the attack, DHS responded quickly. 
And let me pause here a moment.
    Senator Thune, I think you have quoted my words back to me 
exactly, ``The situation worked,'' an unfortunate phrase that 
was inaccurate, and for which I apologize. But, I'd like for 
your understanding in context, because, while it was a failure 
that he was allowed to get on this plane, it was a failure that 
we did not know that he had these intentions. Once this 
incident occurred, the following operational activities took 
place, conducted through the leadership of the TSA:
    First, we directed the FAA to alert all 128 flights from 
Europe bound for the United States of the situation. We 
increased security measures at domestic airports. We 
implemented enhanced screening for all international flights 
coming to the United States. And we reached out to state and 
local law enforcement, air carriers, international partners, 
and relevant agencies, to provide them with the information 
they needed on the ground.
    Now, we have outlined, in our report to the President, five 
areas of action that correspond very well with what the members 
have commented on in their statements:
    First, as this incident underscores, aviation security is 
increasingly an international responsibility. That's why I 
dispatched Deputy Secretary Lute and other top DHS officials on 
a multicontinent tour, to meet with our international 
counterparts on these measures. Tonight, I will travel to Spain 
to meet with my European counterparts tomorrow to work on 
strengthening international security and standards for 
aviation, including information-sharing between countries, 
technology, and other issues.
    Second, DHS has created a partnership with the Department 
of Energy and its national labs to use their scientific 
expertise to improve screening technology at domestic airports. 
And it goes to a point you were making, Senator Dorgan.
    Third, DHS will move forward in deploying enhanced 
screening technologies, like advanced imaging technology and 
explosive trace detection machines, to improve our ability to 
detect the kind of explosives used in the Christmas Day attack. 
We currently have 40 of these machines deployed in the United 
States. We intend to deploy at least 450 more this year.
    Fourth, we will strengthen the capacity of aviation law 
enforcement, including the Federal Air Marshal Service. I would 
include here, as well, that we intend to increase other law 
enforcement techniques, as well, including behavior detection 
officers at our airports.
    And finally, DHS will work with our interagency partners to 
reevaluate and modify the way the terrorist watch list is 
created, including how names are added to the No Fly and 
Selectee Lists.
    I'm very glad to be working with my colleague Director 
Leiter, Admiral Blair, with whom I was with this morning, in 
addition to the members of this committee who have done so much 
to improve our national intelligence and commerce apparatus as 
we deal with these issues.
    And I'm also very grateful to the men and women of the 
Department of Homeland Security. They work hard every day, 
every week, to keep this country safe against terrorist 
attacks. And that is work that is ongoing and that, while I 
cannot ever guarantee--and I will not to this committee or any 
committee--that we will never have another attack by someone 
like an Umar Farouk Abdulmutallab, I can tell you this, that 
our department is working every day, in every way we can think 
of, to keep the American people safe.
    [The prepared statement of Secretary Napolitano follows:]

        Prepared Statement of Hon. Janet Napolitano, Secretary, 
                  U.S. Department of Homeland Security
    Chairman Rockefeller, Senator Hutchison, and members of the 
Committee: Thank you for this opportunity to testify on the attempted 
terrorist attack on Northwest Flight 253.
    The attempted attack on December 25 was a powerful illustration 
that terrorists will go to great lengths to defeat the security 
measures that have been put in place since September 11, 2001. This 
Administration is determined to thwart those plans and disrupt, 
dismantle and defeat terrorist networks by employing multiple layers of 
defense that work in concert with one another to secure our country. 
This is an effort that involves not just DHS, but many other Federal 
agencies and the international community as well.
    As our part in this effort, DHS is a consumer of the U.S. 
Government's consolidated terrorist watchlist, which we use to help 
keep potential terrorists off flights within, over or bound for the 
United States and to identify travelers that require additional 
screening. We work with foreign governments, Interpol, and air carriers 
to strengthen global air travel security by advising them on security 
measures and on which passengers may prove a threat. We also work with 
air carriers and airport authorities to perform physical screening at 
TSA checkpoints and to provide security measures in flight.
    Immediately following the December 25 attack, DHS took swift action 
at airports across the country and around the world. These steps 
included enhancing screening for individuals flying to the United 
States; increasing the presence of law enforcement and explosives 
detection canine teams at air ports, and of air marshals in flight; and 
directing the FAA to notify the 128 flights already inbound from Europe 
about the situation. Nonetheless, Umar Farouk Abdulmutallab should 
never have been able to board a U.S.-bound plane with the explosive 
PETN on his person. As President Obama has made clear, this 
Administration is determined to find and fix the vulnerabilities in our 
systems that allowed this breach to occur.
    Agencies across the Federal Government have worked quickly to 
address what went wrong in the Abdulmutallab case. The effort to solve 
these problems is well underway, with cooperation among DHS, the 
Department of State, the Department of Justice, the Intelligence 
Community, and our international allies, among others. As a consumer of 
terrorist watchlist information, the Department of Homeland Security 
welcomes the opportunity to contribute to the dialogue on improving the 
Federal Government's ability to connect and assimilate intelligence. We 
are also focused on improving aviation screening and expanding our 
international partnerships to guard against a similar type of attack 
occurring again. To those ends, today I want to describe the role that 
DHS currently performs in aviation security, how DHS responded in the 
immediate aftermath of the attempted Christmas Day attack, and how we 
are moving forward to further bolster aviation security.
DHS' Role in Multiple Layers of Defense
    Since 9/11, the U.S. Government has employed multiple layers of 
defense across several departments to secure the aviation sector and 
ensure the safety of the traveling public. Different Federal agencies 
bear different responsibilities, while other countries and the private 
sector--especially the air carriers themselves--also have important 
roles to play.
    DHS oversees several programs to prevent individuals with terrorist 
ties from boarding flights that are headed to, within, or traveling 
over the United States or, in appropriate cases, to identify them for 
additional screening. Specifically, DHS uses information held in the 
Terrorist Screening Data base (TSDB), a resource managed by the 
Terrorist Screening Center (TSC), as well as other information provided 
through the Intelligence Community to screen individuals; operates the 
travel authorization program for people who are traveling to the United 
States under the Visa Waiver Program (VWP); \1\ and works with foreign 
governments, international and regional organizations, and airlines to 
design and implement improved security standards worldwide. This 
includes routine checks against Interpol databases on wanted persons 
and lost or stolen passports on all international travelers arriving in 
the United States. The Department also performs checkpoint screenings 
at airports in the United States.
---------------------------------------------------------------------------
    \1\ The 35 countries in the Visa Waiver Program are: Andorra, 
Australia, Austria, Belgium, Brunei, the Czech Republic, Denmark, 
Estonia, Finland, France, Germany, Hungary, Iceland, Ireland, Italy, 
Japan, Latvia, Liechtenstein, Lithuania, Luxembourg, Malta, Monaco, the 
Netherlands, New Zealand, Norway, Portugal, San Marino, Singapore, 
Slovakia, Slovenia, South Korea, Spain, Sweden, Switzerland, and the 
United Kingdom (for the U.K., only citizens with an unrestricted right 
of permanent abode in the U.K. are eligible for VWP travel 
authorizations).
---------------------------------------------------------------------------
    To provide a sense of the scale of our operations, every day, U.S. 
Customs and Border Protection (CBP) processes 1.2 million travelers 
seeking to enter the United States by land, air or sea; the 
Transportation Security Administration (TSA) screens 1.8 million 
travelers at domestic airports; and DHS receives advanced passenger 
information from carriers operating in 245 international airports that 
are the last point of departure for flights to the United States, 
accounting for about 1,600 to 1,800 flights per day. Ensuring that DHS 
employees and all relevant Federal officials are armed with 
intelligence and information is critical to the success of these 
efforts.
Safeguards for Visas and Travel
    One of the first layers of defense in securing air travel consists 
of safeguards to prevent dangerous people from obtaining visas, travel 
authorizations and boarding passes. To apply for entry to the United 
States prior to boarding flights bound for the U.S. or arriving at a 
U.S. port of entry, most foreign nationals need visas--issued by a U.S. 
embassy or consulate--or, if traveling under a Visa Waiver Program 
country, travel authorizations issued through the Electronic System for 
Travel Authorization (ESTA).\2\
---------------------------------------------------------------------------
    \2\ Exceptions would be citizens of countries under other visa 
waiver authority such as the Western Hemisphere Travel Initiative or 
the separate visa waiver program for Guam and the Commonwealth of the 
Northern Mariana Islands, or those granted individual waivers of the 
visa requirement under the immigration laws.
---------------------------------------------------------------------------
    Issuing visas is the responsibility of the Department of State. At 
embassies and consulates where it is operational, the Visa Security 
Program positions personnel of U.S. Immigration and Customs Enforcement 
(ICE) to assist State Department personnel in identifying visa 
applicants who may present a security threat. For individuals traveling 
under the VWP, DHS operates ESTA, a web-based system through which 
individuals must apply for travel authorization prior to traveling to 
the United States. These systems examine an individual's information to 
assess whether he or she could pose a risk to the United States or its 
citizens, including possible links to terrorism. Without presenting a 
valid authorization to travel to the United States at the airport of 
departure, a foreign national is not able to board a U.S.-bound flight.
    The Department also works with other Federal agencies and our 
foreign partners to try to prevent possible terrorists from obtaining 
boarding passes. These include the application of the No-Fly List and 
the implementation of Secure Flight program, which I explain below.
Pre-departure Screening
    As another layer of defense, DHS conducts pre-departure passenger 
screening in partnership with the airline industry and foreign 
governments in order to prevent known or suspected terrorists from 
boarding a plane bound for the United States or, as appropriate, to 
identify them for additional screening. DHS uses TSDB data, managed by 
the Terrorist Screening Center that is administered by the FBI, to 
determine who may board, who requires further screening and 
investigation, who should not be admitted, or who should be referred to 
appropriate law enforcement personnel.
    Specifically, to help make these determinations, DHS uses the No-
Fly List and the Selectee List, two important subsets within the TSDB. 
Individuals on the No-Fly List should not receive a boarding pass for a 
flight to, from, over, or within the United States. Individuals on the 
Selectee List must go through additional security measures, including a 
full-body pat-down and a full physical examination of personal effects.
    Through the Secure Flight Program, the Department is making an 
important change to the process of matching passenger identities 
against the No-Fly List and Selectee List, and fulfilling an important 
recommendation of the 9/11 Commission. Previously, responsibility for 
checking passenger manifests against these lists rested with the air 
carriers themselves. Under the Secure Flight program, DHS began to 
transfer this responsibility to TSA in 2009, and the transition is 
targeted for completion by the end of this year. In addition to 
creating a more consistent matching process for all domestic and 
international travel to the United States and strengthening the 
effectiveness of redress in preventing misidentifications, Secure 
Flight will flag potential watchlist matches and immediately trigger 
law enforcement notification and coordination.
    As an additional layer of security, DHS also uses the Passenger 
Name Record (PNR), the Advanced Passenger Information System (APIS), 
and the Immigration Advisory Program (IAP) to assess a passenger's 
level of risk and, when necessary, flag them for further inspection. 
PNR data, obtained from the airline reservations systems, contains 
various elements, which may include optional information on itinerary, 
co-travelers, changes to the reservation, and payment information. PNR 
data is evaluated against ``targeting rules'' that are based on law 
enforcement data, intelligence and past case experience. A PIS data, 
which carriers are required to provide to DHS at least 30 minutes 
before a flight, contains important identifying information that may 
not be included in PNR data, including verified identity and travel 
document information such as a traveler's date of birth, citizenship, 
and travel document number. DHS screens APIS information on 
international flights to or from the United States against the TSDB, as 
well as against criminal history information, records of lost or stolen 
passports, and prior immigration or customs violations. APIS is also 
connected to Interpol's lost and stolen passport database for routine 
queries on all inbound international travelers.
    Another layer in the screening process is the Immigration Advisory 
Program (IAP). The CBP officers stationed overseas under the IAP 
program at nine airports in seven countries receive referrals from CBP 
screening against the TSDB, of which the No Fly list is a subset. IAP 
officers can make ``no board'' recommendations to carriers and host 
governments regarding passengers bound for the United States who may 
constitute security risks, but do not have the authority to arrest, 
detain, or prevent passengers from boarding planes.
Checkpoint Screenings and In-flight Security
    The third layer of defense for air travel in which DHS plays a role 
is the screening of passengers and their baggage. TSA screens 
passengers and baggage at airports in the United States, but not in 
other countries. When a traveler at a foreign airport is physically 
screened, that screening is conducted by the foreign government, air 
carriers, or the respective airport authority.
    Domestically, TSA employs a layered approach to security, which 
includes measures both seen and unseen by travelers. The 48,000 
Transportation Security Officers at hundreds of airports across the 
country screen passengers and their baggage using advanced technology 
x-ray systems, walk-through metal detectors, explosive trace detection 
equipment, trained canines, vapor trace machines that detect liquid 
explosives, Advanced Imaging Technology, full-body pat-downs, 
explosives detection systems, Bomb Appraisal Officers, and Behavior 
Detection Officers--both at the checkpoint and throughout the airport. 
Through programs such as the Aviation Direct Access Screening Program, 
TSA also uses random and unpredictable measures to enhance security 
throughout the airport perimeter and in limited access areas of 
airports. The $1 billion in Recovery Act funds provided to TSA for 
checkpoint and checked baggage screening technology have enabled TSA to 
greatly accelerate deployment of these critical tools to keep 
passengers safe.
    In an effort to enhance international screening standards, TSA 
conducts security assessments in accordance with security standards 
established by the International Civil Aviation Organization (ICAO) at 
more than 300 foreign airports, which include foreign airports from 
which flights operate directly to the United States and all airports 
from which U.S. air carriers operate. If an airport does not meet these 
standards, TSA works with the host government to rectify the 
deficiencies and raise airport security to an acceptable level. 
Ultimately, it is the foreign government that must work to address 
these security issues. In long-term circumstances of non-compliance 
with international standards, TSA may recommend suspension of flight 
service from these airports to the United States. In addition, TSA 
inspects all U.S. and foreign air carriers that fly to the United 
States from each airport to ensure compliance with TSA standards and 
directives. Should air carrier security deficiencies exist, TSA works 
with the air carrier to raise compliance to an acceptable level. If an 
airport is located within one of the 35 VWP countries, DHS conducts 
additional audits and inspections as part of the statutorily mandated 
VWP designation and review process.
    In terms of in-flight security, Federal Air Marshals (FAM) are 
deployed on high-risk domestic and international flights where 
international partners allow FAMs to enter their country on U.S.-
flagged carriers. Thousands more volunteer pilots serve as armed, 
deputized Federal Flight Deck Officers. Additionally, armed law 
enforcement officers from Federal, state, local, and tribal law 
enforcement agencies that have a need to fly armed provide a force 
multiplier on many flights.
DHS Response to the Christmas Day Attack
    The facts of the Christmas Day attempted bombing are well 
established and were relayed in the report on the incident that the 
President released on January 7, 2010. On December 16, 2009, Umar 
Farouk Abdulmutallab, a Nigerian national, purchased a round-trip 
ticket from Lagos, Nigeria to Detroit. Abdulmutallab went through 
physical security screening conducted by foreign airport personnel at 
Murtala Muhammed International Airport in Lagos on December 24 prior to 
boarding a flight to Amsterdam Airport Schiphol. This physical 
screening included an x-ray of his carry-on luggage and his passing 
through a walk-through metal detector. Abdulmutallab went through 
additional physical screening, conducted by Dutch authorities, when 
transiting through Amsterdam to Northwest Flight 253 to Detroit, and 
presented a valid U.S. visa. Abdulmutallab was not on the No Fly or 
Selectee Lists. Accordingly, the carrier was not alerted to prevent him 
from boarding the flight or additional physical screening, nor did the 
IAP officer advise Dutch authorities of any concerns. As with all 
passengers traveling on that flight, and similar to all other 
international flights arriving in the United States, CBP evaluated 
Abdulmutallab's information while the flight was en route to conduct a 
preliminary assessment of his admissibility and to determine whether 
there were requirements for additional inspection. During this 
assessment, CBP noted that there was a record that had been received 
from the Department of State, which indicated possible extremist ties. 
It did not indicate that he had been found to be a threat, or that his 
visa had been revoked. CBP officers in Detroit were prepared to meet 
Abdulmutallab upon his arrival for further interview and inspection. 
The attack on board the flight failed in no small part due to the brave 
actions of the crew and passengers aboard the plane.
Immediate DHS Response
    Following the first reports of an attempted terrorist attack on 
Northwest Flight 253 on December 25, DHS immediately put in place 
additional security measures. TSA directed the Federal Aviation 
Administration to apprise 128 U.S.-bound international flights from 
Europe of the attempted attack and to ask them to maintain heightened 
vigilance on their flights. Increased security measures were put in 
place at domestic airports, including additional explosive detection 
canine teams, state and local law enforcement, expanded presence of 
Behavior Detection Officers, and enhanced screening. That evening, DHS 
issued a security directive for all international flights to the U.S., 
which mandated enhanced screening prior to departure and additional 
security measures during flight.
    From the first hours following the attempted attack, I worked 
closely with the President, Assistant to the President for Homeland 
Security and Counterterrorism John Brennan, senior Department 
leadership, and agencies across the Federal Government. I communicated 
with international partners, Members of Congress, state and local 
leadership and the aviation industry and met with national security 
experts on counterterrorism and aviation security. The results of these 
communications culminated in two reports to the President: one on New 
Year's Eve and the second on January 2, 2010.
    One of our most important conclusions was that it is now clearer 
than ever that air travel security is an international responsibility. 
Indeed, passengers from 17 countries were aboard Flight 253. 
Accordingly, DHS has embarked upon an aggressive international program 
designed to raise international standards for airports and air safety. 
On January 3, 2010, I dispatched Deputy Secretary Jane Holl Lute and 
Assistant Secretary for Policy David Heyman to Africa, Asia, Europe, 
the Middle East, Australia, and South America to meet with 
international leadership on aviation security. In these meetings, they 
reviewed security procedures and technology being used to screen 
passengers on U.S.-bound flights and worked on ways to bolster our 
collective tactics for defeating terrorists. This afternoon, I am 
traveling to Spain to meet with my European Union counterparts in the 
first of a series of global meetings intended to bring about broad 
consensus on new, stronger, and more consistent international aviation 
security standards and procedures.
    In addition to these efforts, the Department has been in close 
contact with Congress, our international partners, the aviation 
industry and state and local officials across the country since the 
afternoon of the attempted attack. On December 25, the Department 
issued a joint bulletin with the FBI to state and local law enforcement 
throughout the nation; conducted calls with major airlines and the Air 
Transport Association; distributed the FBI-DHS joint bulletin to all 
Homeland Security Advisors, regional fusion center directors and Major 
City Homeland Security Points of Contact in the country; and notified 
foreign air carriers with flights to and from the United States of the 
additional security requirements. DHS has maintained close contact with 
all of these partners since the attempted attack, and will continue to 
do so.
    On January 3, TSA issued a new Security Directive, effective on 
January 4, which includes long-term, sustainable security measures 
developed in consultation with law enforcement officials and our 
domestic and international partners. Because effective aviation 
security must begin beyond our borders, this Security Directive 
mandates that every individual flying into the U.S. from anywhere in 
the world traveling from or through nations that are state sponsors of 
terrorism \3\ or other countries of interest will be required to go 
through enhanced screening. The directive also increases the use of 
enhanced screening technologies and mandates threat-based and random 
additional screening for passengers on U.S. bound international 
flights. These measures are being implemented with extraordinary 
cooperation from our global aviation partners.
---------------------------------------------------------------------------
    \3\ The State Department currently lists Cuba, Iran, Sudan, and 
Syria as state sponsors of terrorism.
---------------------------------------------------------------------------
Steps Forward to Improve Aviation Security
    While these immediate steps helped strengthen our security posture 
to face current threats to our country, as President Obama has made 
clear, we need to take additional actions to address the systemic 
vulnerabilities highlighted by this failed attack. On January 7, I 
joined Assistant to the President for Counterterrorism and Homeland 
Security John Brennan to announce five recommendations DHS made to the 
President as a result of the security reviews ordered by President 
Obama. At the President's direction, DHS will pursue these five 
objectives to enhance the protection of air travel from acts of 
terrorism.
    First, DHS will work with our interagency partners to re-evaluate 
and modify the criteria and process used to create terrorist watchlist, 
including adjusting the process by which names are added to the No-Fly 
and Selectee Lists. The Department's ability to prevent terrorists from 
boarding flights to the United States depends upon these lists and the 
criteria used to create them. As an entity that is primarily a consumer 
of this intelligence and the operator of programs that rely on these 
lists, the Department will work closely with our partners in the 
Intelligence Community to make clear the kind of information DHS needs 
from the watchlist system.
    Second, DHS will establish a partnership on aviation security with 
the Department of Energy and its National Laboratories in order to use 
their expertise to bolster our security. This new partnership will work 
to develop new and more effective technologies that deter and disrupt 
known threats, as well as anticipate and protect against new ways that 
terrorists could seek to board an aircraft with dangerous materials.
    Third, DHS will accelerate deployment of Advanced Imaging 
Technology to provide capabilities to identify materials such as those 
used in the attempted December 25 attack, and we will encourage foreign 
aviation security authorities to do the same. TSA currently has 40 
machines deployed at nineteen airports throughout the United States, 
and plans to deploy at least 450 additional units in 2010. DHS will 
also seek to increase our assets in the area of explosives-trained 
canines, explosives detection equipment, and other security personnel.
    Fourth, DHS will strengthen the presence and capacity of aviation 
law enforcement. As an interim measure, we will deploy law enforcement 
officers from across DHS to serve as Federal Air Marshals to increase 
security aboard U.S.-flag carriers' international flights. At the same 
time, we will maintain the current tempo of operations to support high-
risk domestic flights, as we look to longer-term solutions to enhance 
the training and workforce of the Federal Air Marshal Service.
    Fifth, as mentioned earlier, DHS will work with international 
partners to strengthen international security measures and standards 
for aviation security. Much of our success in ensuring that terrorists 
do not board flights to the United States is dependent on what happens 
in foreign airports and the commitments of our foreign partners to 
enhance security--not just for Americans, but also for their nationals 
traveling to this country.
    In all of these action areas to bolster aviation security, we are 
moving forward with a dedication to safeguard the privacy and rights of 
travelers.
Conclusion
    The attempted attack on Christmas Day serves as a stark reminder 
that terrorists motivated by violent extremist beliefs are determined 
to attack the United States. President Obama has made clear that we 
will be unrelenting in using every element of our national power in our 
efforts around the world to disrupt, dismantle, and defeat al-Qaeda and 
other violent extremists.
    While we address the circumstances behind this specific incident, 
we must also recognize the evolving threats posed by terrorists, and 
take action to ensure that our defenses continue to evolve in order to 
defeat them. We live in a world of ever-changing risks, and we must 
move as aggressively as possible both to find and fix security flaws 
and anticipate future vulnerabilities in all sectors. President Obama 
has clearly communicated the urgency of this task, and the American 
people rightfully expect swift action. DHS and our Federal partners are 
moving quickly to provide just that.
    I wish I could close by giving you a 100 percent guarantee that no 
terrorist, ever, will try to take down a plane or attack us in some 
other fashion. I cannot give you such a guarantee; that is not the 
nature of the world we live in, nor of the threats that we face. What I 
can give you, however, is the 100 percent commitment of myself, DHS 
leadership, and the entire DHS enterprise to do everything we can to 
minimize the risk of terrorist attacks.
    Chairman Rockefeller, Senator Hutchison and members of the 
Committee: Thank you for this opportunity to testify. I can now answer 
your questions.

    The Chairman. Thank you, Madam Secretary.
    And now Director Leiter.

    STATEMENT OF HON. MICHAEL E. LEITER, DIRECTOR, NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Leiter. Mr. Chairman, Senator Hutchison, members of the 
Committee, thank you.
    Needless to say, I wish that my introduction to this 
committee were under a very different set of circumstances than 
they are today.
    I'm honored to appear also with Secretary Napolitano, 
Governor Kean, Congressman Hamilton.
    But, I also want to say that I am honored to appear--I 
know, in our audience today, in the gallery, are members of the 
families of the victims of 9/11. And I want to make a personal 
pledge to them, on behalf of myself and also the members of 
NCTC and the counterterrorism community, to continue to do all 
that we can to honor their family members' memory by trying to 
keep the scourge of terrorism from touching others.
    I want to start with an assertion which I hope is as 
crystal clear as Secretary Napolitano's was. Umar Farouk 
Abdulmutallab should not have stepped on a plane on Christmas 
Day. The system failed--the counterterrorism system failed. And 
I, along with other leaders, have told the President that. I'm 
here to tell you that. And I'm here to tell the American people 
that. And I think, most importantly, that we are determined to 
do better.
    The Director of National Intelligence and I have both been 
tasked by the President to look at how we can improve those 
elements of analysis, of collection, of information-sharing, 
and watch-listing, that obviously need to be repaired.
    I'd like to quickly run down some of the events that led to 
the Christmas Day attack. And although I can't go into great 
depth in an open session, I think it's important to make some 
points, because, frankly, there are no shortage of inaccuracies 
in the media that have been reported.
    But, I want to start, first, by debunking what has become 
conventional wisdom among some, that this is the same failure 
that occurred on 9/11. It is not. And that is not to suggest 
that it is not potentially tragic, but it is to highlight, 
because, unlike 9/11, where there was a failure to share 
information the U.S. Government had, that is not what occurred 
in this case. And, obviously, any prescription for repairing 
the failings has to know what caused the failings in the first 
place.
    I would open also by saying this is all the more 
frustrating to me because the intelligence community and NCTC 
did identify many of the things that led up to this attack, but 
we very much failed in the last tactical mile of associating 
some of the plotting that we saw with this individual, Umar 
Farouk.
    Throughout 2009, in the fall, in front of other Members of 
Congress, we spoke to the growing danger posed by al-Qaeda in 
the Arabian Peninsula, and, in particular, the danger posed by 
European and Western recruits that they might have for plotting 
against the homeland. And although we didn't know it at the 
time, we were concerned about operations on Christmas. But, 
again, we did not connect that with Abdulmutallab. And we also 
warned about the type of explosive that Abdulmutallab used, and 
the ways in which it might prove a challenge to screening, 
which, of course, manifested itself on Christmas Day.
    But, again, despite these pieces that we did connect, we 
simply did not make the final connections, and we failed in 
doing so, the last tactical mile linking this individual to 
this plot.
    We did, in fact, have the information from his father about 
his concern he expressed, with his son going to Yemen, and that 
he had come under the influence of religious extremists, and 
that he was not returning home. And we had other streams of 
information from other intelligence channels. So, we ended up 
with a partial name, an indication of a Nigerian. But, no piece 
of intelligence brought that together, nor did my analysts or 
my organization or I bring that together.
    As a result, although Mr. Abdulmutallab was, in fact, 
entered as a known and suspected terrorist, into what is known 
as the Terrorist Identities Datamart Environment--that list of 
550,000 I believe Senator Thune referred to--he was not watch-
listed, because this information was not connected to him. And 
hence, he also was not placed on the No Fly or Selectee Lists.
    Had all of the information that was available to the U.S. 
been linked together to this one individual, he would have 
undoubtedly been watch-listed, and therefore, he would have 
been on the visa screening list and the border inspection list.
    And I want to read this verbatim, because it's a--it's an 
important point. ``Whether he would have been placed on either 
the No Fly or Selectee List, again, based on the existing 
standards of 2008 and 2009, would have been determined by the 
strength of the analytic judgment about exactly who he was and 
what he was doing.'' And, as I'd like to note quite clearly, 
one of the lessons that we have learned, and the President has 
tasked us to do, is to review these watch-listing standards in 
a way that they are as flexible and as nimble as the enemy we 
face.
    Finally--and I hope I have made clear that I do not wish to 
make excuses for what we didn't do right. We didn't do things 
right, and we didn't do things well. I do want to note the 
context for some of these failings.
    Each day, NCTC receives and reviews literally thousands of 
pieces of counterterrorism intelligence. Although the exact 
number is classified, it is well over 5,000 pieces of terrorism 
data, with more than 5,000 names each day. We put on the watch 
list more than 350 individuals a day. And we look at more than 
30 or 40 specific plots every day. So, although I undoubtedly 
admit we must do better, the multidimensional and varied nature 
of this threat means that even intelligence is not a silver 
bullet; it is one part of a multilayer set of defenses, 
including technology, international cooperation, and screening, 
that we must combine.
    Briefly--and, of course, I'll--I'm happy to take more 
questions on this--we are trying to improve this situation as 
quickly as we can, pursuant to the President's directive of 
January 7. In line with the President's conclusions and his 
direction, we're moving in, really, five broad areas:
    First, as a number of you have noted, we're examining the 
``No Fly List'' standards. Frankly, the pressure over the past 
8 years has never been to put more people on the ``No Fly 
List,'' it has been just the opposite. We have to look at what 
those standards are and ensure that we are, again, flexible 
enough to have individuals, either ``Selectees'' or ``No 
Flys,'' regardless of whether or not we have specific 
intelligence about their involvement in operations.
    Second, although we saw the growing threat in Yemen, we--
and I include myself in that ``we''--and the DNI, did not 
adequately move resources to address that threat. We were 
simply more focused on the threats that we saw within Yemen, 
and the threat outside was not addressed quickly enough with 
additional resources. We need to do that, and that has already 
been done, to some extent.
    Third, we have to move away a bit from a names-based system 
of tracking threats. It's fairly easy--and I think we're quite 
good, as proved in many cases in 2009--to tracking threats when 
we know a name and we know what the plot is. But, it's much, 
much harder, and we have to do a better job of pursuing small, 
discrete pieces of data that don't automatically add up to a 
threat. That is our challenge, and we are trying to do that 
now.
    Fourth, we are making sure that we assign priority for 
tracking of threats as they come in. And we have done that 
quite well, again, when the threat is of a high profile and 
something we understand fully. We have to assign that same 
level of responsibility when we also are not sure what the 
threat is.
    And finally, we have to make sure, again, that the records 
within our watch lists are enhanced, to the extent they can. 
This is certainly a matter of technology, and technology 
applies to all of the areas I've already discussed. But, it is 
also simply a matter of having enough people to put their eyes 
on these records and make the connections that will help keep 
the Nation safe.
    Although I would strongly echo what Secretary Napolitano 
noted, that none of this will guarantee security. But, it must 
be used to perfect the system to the greatest extent possible.
    Thank you. And I look forward to working with the 
Committee.
    [The prepared statement of Mr. Leiter follows:]

         Prepared Statement Hon. Michael E. Leiter, Director, 
                    National Counterterrorism Center
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee on Commerce, Science and Transportation: Thank you for your 
invitation to appear before the Committee to discuss the events leading 
up to the attempted terrorist attack on Christmas Day and the 
improvements the National Counterterrorism Center and the Intelligence 
Community have underway to fix deficiencies.
    It is my privilege to be accompanied by Janet Napolitano, Secretary 
of Homeland Security.
    The attempted terrorist attack on Christmas Day did not succeed, 
but, as one of several recent attacks against the United States 
inspired by jihadist ideology or directed by al Qa'ida and its 
affiliates, it reminds us that our mission to protect Americans is 
unending.
    Let's start with this clear assertion: Umar Farouk Abdulmutallab 
should not have stepped on that plane. The counterterrorism system 
failed and we told the President we are determined to do better.
    Within the Intelligence Community we had strategic intelligence 
that al Qa'ida in the Arabian Peninsula (AQAP) had the intention of 
taking action against the United States prior to the failed attack on 
December 25, but, we did not direct more resources against AQAP, nor 
insist that the watchlisting criteria be adjusted prior to the event. 
In addition, the Intelligence Community analysts who were working hard 
on immediate threats to Americans in Yemen did not understand the 
fragments of intelligence on what turned out later to be Mr. 
Abdulmutallab, so they did not push him onto the terrorist watchlist.
    We are taking a fresh and penetrating look at strengthening both 
human and technical performance and do what we have to do in all areas. 
Director of National Intelligence Blair and I have specifically been 
tasked by the President to improve and manage work in four areas:

        Immediately reaffirm and clarify roles and responsibilities of 
        the counterterrorism analytic components of the IC in 
        synchronizing, correlating, and analyzing all sources of 
        intelligence related to terrorism.

        Accelerate information technology enhancements, to include 
        knowledge discovery, database integration, cross-database 
        searches, and the ability to correlate biographic information 
        with terrorism-related intelligence.

        Take further steps to enhance the rigor and raise the standard 
        of tradecraft of intelligence analysis, especially analysis 
        designed to uncover and prevent terrorist plots.

        Ensure resources are properly aligned with issues highlighted 
        in strategic warning analysis.

        Additionally, NCTC has been tasked by the President to do the 
        following:

        Establish and resource appropriately a process to prioritize 
        and to pursue thoroughly and exhaustively terrorism threat 
        threads, to include the identification of appropriate follow-up 
        action by the intelligence, law enforcement, and homeland 
        security communities.

        Establish a dedicated capability responsible for enhancing 
        record information on possible terrorists in the Terrorist 
        Identities Datamart Environment for watchlisting purposes.
The Events Leading Up to the Christmas Day Attack
    I will now briefly discuss some of the details of the bombing 
attempt and what we missed. As the President has said, this was not--
like in 2001--a failure to collect or share intelligence; rather it was 
a failure to connect, integrate, and understand the intelligence we 
had.
    Although NCTC and the Intelligence Community had long warned of the 
threat posed by al Qa'ida in the Arabian Peninsula, we did not 
correlate the specific information that would have been required to 
help keep Abdulmutallab off that Northwest Airlines flight.
    More specifically, the Intelligence Community highlighted the 
growing threat to U.S. and Western interests in the region posed by 
AQAP, whose precursor elements attacked our embassy in Sana'a in 2008. 
Our analysis focused on AQAP's plans to strike U.S. targets in Yemen, 
but it also noted--increasingly in the Fall of 2009--the possibility of 
targeting the United States. We had analyzed the information that this 
group was working with an individual who we now know was the individual 
involved in the Christmas attack.
    In addition, the Intelligence Community warned repeatedly of the 
type of explosive device used by Abdulmutallab and the ways in which it 
might prove a challenge to screening. Of course, at the Amsterdam 
airport, Abdulmutallab was subjected to the same screening as other 
passengers--he passed through a metal detector, which didn't detect the 
explosives that were sewn into his clothes.
    As I have noted, despite our successes in identifying the overall 
themes that described the plot we failed to make the final 
connections--the ``last tactical mile''--linking Abdulmutallab's 
identity to the plot. We had the information that came from his father 
that he was concerned about his son going to Yemen, coming under the 
influence of unknown religious extremists, and that he was not going to 
return home. We also had other streams of information coming from 
intelligence channels that provided pieces of the story. We had a 
partial name, an indication of a Nigerian, but there was nothing that 
brought it all together--nor did we do so in our analysis.
    As a result, although Mr. Abdulmutallab was identified as a known 
or suspected terrorist and entered into the Terrorist Identities 
Datamart Environment (TIDE)--and this information was in turn widely 
available throughout the Intelligence Community--the derogatory 
information associated with him did not meet the existing policy 
standards--those first adopted in the summer of 2008 and ultimately 
promulgated in February 2009--for him to be ``watchlisted,'' let alone 
placed on the No Fly List or Selectee lists.
    Had all of the information the U.S. had available, fragmentary and 
otherwise, been linked together, his name would have undoubtedly been 
entered on the Terrorist Screening Data base which is exported to the 
Department of State and the Department of Homeland Security. Whether he 
would have been placed on either the No Fly or Selectee list--again 
based on the existing standards--would have been determined by the 
strength of the analytic judgment. One of the clear lessons the U.S. 
Government has learned and which the Intelligence Community will 
support is the need to modify the standards for inclusion on such 
lists.
    In hindsight, the intelligence we had can be assessed with a high 
degree of confidence to describe Mr. Abdulmutallab as a likely 
operative of AQAP. But without making excuses for what we did not do, I 
think it critical that we at least note the context in which this 
failure occurred: Each day NCTC receives literally thousands of pieces 
of intelligence information from around the world, reviews literally 
thousands of different names, and places more than 350 people a day on 
the watchlist--virtually all based on far more damning information than 
that associated with Mr. Abdulmutallab prior to Christmas Day. Although 
we must and will do better, we must also recognize that not all of the 
pieces rise above the noise level.
    The men and women of the National Counterterrorism Center and the 
Intelligence Community are committed to fighting terrorism at home and 
abroad and will seek every opportunity to better our analytical 
tradecraft, more aggressively pursue those that plan and perpetrate 
acts of terrorism, and effectively enhance the criteria used to keep 
known or suspected terrorists out of the United States.

    The Chairman. Thank you, Director Leiter.
    Now the Honorable Lee Hamilton.

  STATEMENT OF HON. LEE HAMILTON, CO-CHAIR, NATIONAL SECURITY 
 PREPAREDNESS GROUP, BIPARTISAN POLICY CENTER, AND FORMER VICE 
                      CHAIRMAN, NATIONAL 
           COMMISSION ON TERRORIST ATTACKS UPON THE 
                UNITED STATES (9/11 COMMISSION)

    Mr. Hamilton. Chairman Rockefeller, Senator Hutchison, 
members of the Committee, Secretary Napolitano, and Director 
Leiter, Tom and I, of course, are delighted to be with you.
    And I think we are eternally grateful to the Members of the 
U.S. Senate for the way in which they have followed up the 
implementation of the recommendations of the 9/11 Commission. 
The actions of the Senate, over a period of several years now, 
have just been exceedingly good, from our standpoint.
    My remarks will be, I hope, very brief and on target. They 
will be directed principally to the questions of intelligence 
and not so much to commerce.
    I was gratified to hear from a number of you, as you spoke, 
about the necessity of the--recognizing that the threat is real 
and we have to reject complacency and recognize that that 
threat is genuine. I think many of you emphasized that in your 
remarks.
    Tom and I appear here today as members of the National 
Security Preparedness Group, which is a successor to the 9/11 
Commission. It's made up of a number of people, evenly divided 
between Republicans and Democrats. I think their names are 
familiar to you; they're in the written testimony.
    In the years since the passage of the Intelligence Reform 
and Terrorism Prevention Act which created the Director of 
National Intelligence and the National Counterterrorism Center, 
it is our view that the U.S. Government has made significant 
positive strides to correct the shortfalls that were obvious on 
September 11. But, obviously we've seen, from the incidents at 
Fort Hood and the skies above Detroit, there is a lot of work 
to be done.
    The DNI has been hobbled by disputes over its size, its 
mission, and its authority. Nonetheless, the determination of 
the terrorists to attack the homeland remains unabated, 
demonstrated by these events, and, from our point of view, 
understands the critical importance for creating and supporting 
the DNI and the NCTC. It is imperative that the DNI and the 
NCTC be successful in their vital and very complex missions 
that they have been asked to undertake for the country.
    We note with approval, as Director Leiter said a moment 
ago, while other failures did occur, apparently the Christmas 
attack was not a repeat of the failures to share information 
that were evident on 9/11. That suggests to us that progress 
has certainly been made and that agencies and analysts are 
sharing critical information.
    In an age when we are collecting more information than ever 
before, the real challenge, it seems to us, is, how do you 
understand, manage, and integrate vast amounts of information? 
It's really a problem of data management. We need better 
management of the data. And, of course, we have to look to the 
state-of-the-art technology to help us better sort through 
massive amounts of information to ensure the right people are 
seeing it time to make a difference.
    The greatest single challenge that arises from this 
incident, in our view, is the urgent need to strengthen the 
analytic process. We are pleased that the President has asked 
the DNI to look at this issue, and he is certainly properly 
situated in the community to assume a leadership role in that 
respect.
    Another lesson that emerged from the Christmas attack 
reminded us of 9/11. We repeatedly said that one of the 
problems there that--was, no one was in charge. Well, in a 
sense, that's what's happened here. The intelligence community 
is designated as ``in charge'' of running down all the leads 
associated with a particular threat. We welcome redoubled 
efforts to assure that responsibility for investigating leads 
on potential threats are assigned, pursued, and acted upon 
immediately and aggressively.
    We need to do a better job of judging the sources of 
potential attacks. We are seriously behind the curve when, as 
the Director said a moment ago, we were not sufficiently aware 
of a possible attack on the United States from Yemen.
    The final point I want to make is that one of the things 
that has always concerned me about intelligence is that, though 
I think the intelligence community does a very good job, I 
don't think they do as good a job as they should on longer-term 
threats. It's quite understandable that they should concentrate 
on the near-term. But, I think this is--this incident is an 
example of it, so heavily concentrated on Iraq and Afghanistan 
and Pakistan, for reasons that are obvious to all of us, that 
we kind of did not see, or at least did not see sufficiently, 
the kind of attack that could come to us from Yemen; a longer-
term perspective. And I think the intelligence community must 
learn not only to focus on the immediate threats, but also 
threats that are developing, as they were in Yemen.
    I'd turn to Governor Kean.
    [The prepared statement of Congressman Hamilton and 
Governor Tom Kean follows:]

            Prepared Statement of Congressman Lee Hamilton 
            and Governor Tom Kean, Bipartisan Policy Center
I. Introduction
    We are very happy to appear before you today. As Chairman of the 
Intelligence Committee Senator Rockefeller made numerous contributions 
to our national security and we are glad to be back with you again.
    Today, we are appearing in our capacity as Co-Chairmen of the 
Bipartisan Policy Center's National Security Preparedness Group (NSPG), 
a successor to the 9/11 Commission. Drawing on a strong roster of 
national security professionals, the NSPG works as an independent, 
bipartisan group to monitor the implementation of the 9/11 Commission's 
recommendations and address other emerging national security issues.
    NSPG includes the following membership:

  <bullet> Mr. Peter Bergen, CNN National Security Analyst and Author, 
        Schwartz Senior Fellow at the New America Foundation.

  <bullet> Dr. Bruce Hoffman, Georgetown University terrorism 
        specialist.

  <bullet> The Honorable Dave McCurdy, former Congressman from Oklahoma 
        and Chairman of the U.S. House Intelligence Committee, 
        President of the Alliance of Automobile Manufacturers.

  <bullet> The Honorable Edwin Meese III, former U.S. Attorney General, 
        Ronald Reagan Distinguished Fellow in Public Policy and 
        Chairman of the Center for Legal and Judicial Studies at The 
        Heritage Foundation.

  <bullet> The Honorable Tom Ridge, former Governor of Pennsylvania and 
        U.S. Secretary of Homeland Security, Senior Advisor at Deloitte 
        Global LLP, Ridge Global.

  <bullet> The Honorable Frances Townsend, former Homeland Security 
        Advisor and former Deputy National Security Advisor for 
        Combating Terrorism.

  <bullet> Dr. Stephen Flynn, President, Center for National Policy.

  <bullet> Dr. John Gannon, BAE Systems, former CIA Deputy Director for 
        Intelligence, Chairman of the National Intelligence Council, 
        and U.S. House Homeland Security Staff Director.

  <bullet> The Honorable Richard L. Thornburgh, former U.S. Attorney 
        General, of Counsel at K&L Gates.

  <bullet> The Honorable Jim Turner, former Congressman from Texas and 
        Ranking Member of the U.S. House Homeland Security Committee, 
        Arnold and Porter, LLP.

  <bullet> Mr. Lawrence Wright, New Yorker Columnist and Pulitzer Prize 
        winning author of The Looming Tower: Al Qaeda and the Road to 
        9/11.

  <bullet> The Honorable E. Spencer Abraham, former U.S. Secretary of 
        Energy and U.S. Senator from Michigan, The Abraham Group.

    Over the course of 2009, our group met with Obama Administration 
and former senior officials from the Bush Administration, including:

  <bullet> Director of National Intelligence, Admiral Dennis Blair 
        (July 2009).

  <bullet> CIA Director Leon Panetta (July 2009).

  <bullet> Secretary of Homeland Security Janet Napolitano (July 2009).

  <bullet> FBI Director Bob Mueller (September 2009).

  <bullet> Former CIA Director Mike Hayden (September 2009).

  <bullet> Former DNI Mike McConnell (September 2009).

    We will also meet with Deputy National Security Adviser John 
Brennan next week.
    We believe the strength of our group will allow us to be a voice on 
national security issues and a resource to you and the executive 
branch. First and foremost, we are here to help play a constructive 
role in support of your work.
          *        *        *        *        *        *      
            *
    Since the 9/11 attacks 8 years ago and the release of our 
Commission report 5 years ago, the Federal Government has implemented 
many changes in America's homeland security and intelligence apparatus.
    As demonstrated by the recent attempted terrorist attack in the 
skies over Detroit, the threat remains strong. We must reject 
complacency and recognize we still face a serious threat from 
organizations like Al-Qaeda. Al-Qaeda's core is still active, 
individuals are still being radicalized in Western countries and 
motivated to commit violence, and homegrown lone actors are still a 
risk. As our colleague Bruce Hoffman observed, ``al Qaeda is on the 
march, not on the run.'' This is not a reason for panic but for a 
concerted, comprehensive effort.
    Recently the 5 year anniversary of the Intelligence Reform and 
Terrorism Prevention Act passed and in recent months our group has been 
studying the implementation of the 9/11 Commission's recommendations, 
especially the state of intelligence reform, and new threats to our 
national security. Many of the findings in that report hold true today 
and can help guide our response to the attacks at Fort Hood and on 
Christmas Day.
Intelligence Coordination and Management
    At their core, the problems evident on September 11, 2001, were 
about the failures and obstacles to sharing information among the 
Federal partners charged with protecting the country. And even if that 
information had been made available, there was no one in the Federal 
Government charged with fusing together intelligence derived from 
multiple foreign and domestic sources.
    To facilitate information-sharing and to create an entity whose job 
it would be to connect the dots, the bipartisan 9/11 Commission 
recommended, and the Congress and the President established, a Director 
of National Intelligence (DNI) and a National Counterterrorism Center 
(NCTC).
    The DNI would be charged with breaking down bureaucratic, cultural, 
technological, and policy barriers to the sharing of information among 
Federal agencies and the NCTC would be the hub, the ``primary 
organization in the U.S. Government for analyzing and integrating all 
intelligence.'' The idea was for the DNI to ensure information-sharing 
so the NCTC could access and assess all available relevant information 
and then connect disparate pieces of threat information to aid in 
preventing future attacks.
    In the 5-years since the passage of the Intelligence Reform and 
Terrorism Prevention Act, the U.S. Government has made significant 
strides to correct the shortfalls and mistakes evident on September 11, 
2001. But as we've seen from the recent terrorist incidents at Fort 
Hood and in the skies above Detroit, there is still work to be done.
    The DNI has been hobbled by endless disputes over its size, 
mission, and authority. Nonetheless, the determination of the terrorist 
to attack the homeland remains unabated as demonstrated by these events 
and underscores the critical need for creating the DNI and the NCTC. It 
is imperative that the DNI and the NCTC to be successful in the vital 
missions they have been asked to undertake for the country.
    We welcome the President's recent review of the Christmas attack 
and we should continue to study this incident and the attack at Fort 
Hood so we can apply their lessons to making the country safer. Here 
are some of our preliminary observations:

  <bullet> Information sharing and Connecting the Dots. The 9/11 
        Commission found that the biggest impediment to all-source 
        analysis--to a greater likelihood of connecting the dots--is 
        human or systemic resistance to sharing information whether 
        collected outside the U.S. or inside the U.S. bearing on 
        threats pertaining to international terrorists. We recommended 
        providing incentives for sharing information within the 
        Intelligence Community. We note with approval that, while other 
        failures did occur, apparently the Christmas attack was not a 
        repeat of the failures to share information that were evident 
        on 9/11. That suggests to us that progress has been made and 
        that agencies and analysts are sharing critical information. 
        However, it is not clear whether the NSA intercepted 
        conversations referenced in news reports were widely shared. 
        The incident points out two additional challenges that need to 
        be addressed:

    <ctr-circle> Rather than a failure to share information, the 
            Intelligence Community is awash with data. In an age when 
            we are collecting more information than ever before, the 
            real challenge is how do you understand, manage, and 
            integrate vast amount of information. The DNI needs to 
            develop ways of dealing with intelligence information 
            overload. At the same time, we need to do a better job of 
            pushing information to the right people within the 
            Intelligence Community. We welcome President Obama's order 
            to distribute intelligence reports more quickly and widely. 
            We need better management of the data and to look to 
            technology to help us better sort through massive amounts 
            of information to ensure the right people are seeing it in 
            time to make a difference. The technology we use must be 
            state-of-the-art, constantly upgraded to quickly put 
            information together and it must be properly placed 
            instantaneously so better analysis can occur.

    <ctr-circle> As President Obama said, there was a failure to 
            connect the dots. With more rigorous analysis, we might 
            have been able to connect disparate pieces of information 
            that might have foretold of the Christmas plot. The 
            greatest single challenge that arises from this incident in 
            our view is the urgent need to strengthen the analytic 
            process. We are pleased the President asked the DNI to look 
            at this issue. The DNI was charged by the Congress in the 
            Intelligence Reform Act to ensure the highest analytical 
            standards within the Intelligence Community. The DNI is 
            properly situated within that Community to assume a 
            leadership role in applying more rigorous standards to 
            analytical tradecraft. Congress should also support these 
            entities by giving the DNI and the NCTC the resources they 
            need and the ability to recruit and keep the best people.

  <bullet> Designating Someone in Charge. Another lesson from the 
        Christmas attack is that we need to do a better job of ensuring 
        that someone within the Intelligence Community is designated as 
        ``in charge'' of running down all leads associated with a 
        particular threat stream. As John Brennan indicated, we did not 
        follow up and prioritize the intelligence indicating that al 
        Qaeda in the Arabian peninsula sought to strike the homeland 
        because no one intelligence entity or team or task force was 
        assigned responsibility for doing that follow up investigation. 
        In our investigation of the 9/11 attacks, we frequently saw 
        confusion about roles, responsibilities, and missions and we 
        welcome redoubled efforts to assure that responsibility for 
        investigating leads on potential threats are assigned, pursued, 
        and acted upon immediately and aggressively.

  <bullet> We need to do a better job of judging sources of potential 
        attacks properly. As the President's review has shown, we had a 
        ``strategic sense'' that Al Qaeda in the Arabian Peninsula was 
        becoming a threat, but ``we didn't know they had progressed to 
        the point of actually launching individuals here.'' This at 
        once shows the need for improved collection and better 
        analysis. We collect a tremendous amount of intelligence and we 
        need the very best people not only sorting through it for 
        tactical details, but in a strategic sense asking where the 
        next attack will come from.

  <bullet> No Sanctuaries. Finding that our attackers on 9/11 benefited 
        from the time, space, and command structure afforded in 
        Afghanistan, the 9/11 Commission placed great emphasis on 
        identifying and prioritizing actual or potential terrorist 
        sanctuaries. We recommended strategies employing all elements 
        of national power to keep terrorists insecure and on the run. 
        We're fortunate that the attack on Christmas emanating from 
        Yemen did not succeed and this episode reminds us of the need 
        to identify other potential sanctuaries. As our colleague Bruce 
        Hoffman observed: ``Al Qaeda is aggressively seeking out, 
        destabilizing and exploiting failed states and other areas of 
        lawlessness . . . and over the past year has increased its 
        activities in places such as Pakistan, Algeria, the Sahel, 
        Somalia, and of course Yemen.'' The U.S. should take a fresh 
        look at these areas and deepen our commitment to ensuring al 
        Qaeda cannot exploit those territories.
The Effectiveness of the Director of National Intelligence
    We would like to say a word on the state of intelligence reform and 
the effectiveness of the DNI. After 5 years of experience with the new 
intelligence system, we are frequently asked, is it working? Our NSPG 
has been conducting a review of the Intelligence Reform and Terrorism 
Prevention Act and the effectiveness of the DNI and has begun work 
intended to help answer this question.
    We have more work to do but our preliminary answer is that the DNI 
has achieved a meaningful measure of success in its first years--that 
has made it worth the inevitable turmoil--but is a work in progress 
closer to the beginning of reform than the end.
    Some of the successes in the last 5 years include progress on 
information-sharing, a joint-duty program, and despite the failures 
evident in the Christmas attack, the National Counter Terrorism Center. 
Since September 11, 2001, the NCTC and other government agencies have 
repeatedly connected the dots and shared information necessary to 
defeat terrorist attacks. Improvements have clearly been made although 
that sharing is not as prompt and seamless as it should be.
    But the DNI and the NCTC need most of all is the unyielding support 
of the President and the Congress if those organizations are going to 
achieve their role in integrating the Intelligence Community.
    We as a country gave the DNI a hard job and a gargantuan to do-
list, including:

  <bullet> Solving systemic and longstanding information-sharing issues 
        among Intelligence Community entities, especially to break down 
        the ``wall'' between foreign and ``domestic'' intelligence, and 
        to create an architecture to enable such sharing;

  <bullet> Serving as the President's Principal Intelligence Advisor;

  <bullet> Developing a national intelligence budget across all 
        intelligence agencies;

  <bullet> Overseeing billions of dollars of intelligence community 
        acquisitions;

  <bullet> Improving the quality of intelligence analysis, especially 
        to guard against ``group-think,'' and to manage an intelligence 
        process that is inclusive of a variety of view points;

  <bullet> Facilitating a ``culture change'' within the Community by 
        establishing a joint duty system, modeled on DoD's Goldwater-
        Nichols, to enable personnel to rotate assignments within the 
        intelligence community;

  <bullet> Bringing a mission focus to the IC by creating a group of 
        Mission Managers ``responsible for all aspects of the 
        intelligence process to those issues'' and leading centers like 
        National Counter Terrorism Center and National 
        Counterproliferation Center.

    The DNI was given substantial authorities to accomplish these 
missions. The DNI must be the person who drives inter-agency 
coordination and integration. We are concerned about the expanding 
growth and bureaucracy of the DNI and we urge vigorous reevaluation of 
all its functions to assure its leanness. The DNI's authorities must be 
exercised with discretion and consideration of the priorities and 
sensitivities of other intelligence agencies.
    However, to be sure, there are ambiguities in the law. These 
ambiguities can contribute to mission confusion and lack of clarity 
about lanes in the road. But the burden is on the President to be clear 
on who is in charge of the Intelligence Community and where final 
authority lies on budget and personnel matters. The President's 
leadership is crucial and must be continuing or we run the risk of 
mission confusion and decrease the prospect of long and lasting reform 
that was recommended after September 11, 2001.
Privacy and Civil Liberties
    The balance between security and liberty will always be a part of 
the struggle against terrorism. America must not sacrifice one for the 
other and must be in the business of protecting freedom and liberty as 
well as fighting terrorism. Following the 9/11 Commission 
recommendations, the Bush Administration created a Privacy and Civil 
Liberties Oversight Board to advise the Executive Branch and oversee 
government efforts to defend civil liberties. The board was staffed and 
became operational in 2006. In 2007, Congress restructured the Board as 
an independent agency outside the White House. Despite early 
accusations of undue delay and inadequate funding, the Board held 
numerous sessions with national security and homeland security 
advisers, the attorney general, and the FBI director, among others, on 
terrorist surveillance and other issues arising from intelligence 
collection.
    However, the Board has been dormant since that time. With massive 
capacity to develop data on individuals, the Board has to be the 
champion of seeing that collection capabilities do not intrude into 
privacy and civil liberties. We continue to believe that the Board 
provides critical functions and we urge President Obama to reconstitute 
it, quickly appoint its Members, and allow them full access to the 
information and the authority to perform to perform this essential 
function.
Congressional Oversight
    The 9/11 Commission also placed great importance on rigorous 
Congressional oversight. This recommendation helped precipitate the 
creation of a House Homeland Security Committee and a Senate Homeland 
Security and Governmental Affairs Committee. However, enduring 
fractured and overlapping committee jurisdictions on both sides of the 
hill have left Congressional oversight in a unsatisfactory state. DHS 
entities still report to dozens of separate committees hundreds of 
times per year, which constitutes a serious drain of time and resources 
for senior DHS officials. Further, the jurisdictional melee among the 
scores of Congressional committees has led to conflicting and 
contradictory tasks and mandates for DHS. Without taking serious 
action, we fear this unworkable system could make the country less 
safe.
    The 9/11 Commission also called Congressional oversight over 
intelligence dysfunctional. We made recommendations to strengthen the 
oversight committees which were not accepted by the Congress though 
some progress has been made. Today we want to emphasize the enormous 
importance we attach to rigorous oversight of the intelligence 
community. Congressional oversight can help ensure the intelligence 
community is operating effectively and help resolve disputes about 
conflicting roles and missions. We urge the Congress to take action to 
strengthen the oversight capabilities of the intelligence committees.

        STATEMENT OF HON. TOM KEAN, CO-CHAIR, NATIONAL 
  SECURITY PREPAREDNESS GROUP, BIPARTISAN POLICY CENTER, AND 
FORMER CHAIRMAN, NATIONAL COMMISSION ON TERRORIST ATTACKS UPON 
              THE UNITED STATES (9/11 COMMISSION)

    Mr. Kean. Thank you, Lee. And thank you, Chairman 
Rockefeller, and--I'm sorry--Vice Chair--there. It's on now? 
Thank you.
    The Chairman. Thank you for being here.
    Mr. Kean. Thank you, Mr. Chairman, and I thank you----
    The Chairman. I tend to think of you two as founding 
fathers.
    [Laughter.]
    Mr. Kean. Thank you.
    But, the--I would mention to the Committee, by the way, 
something that Mr. Leiter also said, that it seems remarkable 
to me--we have here in the room with us today, again, members 
of the people representing the families of 9/11--it is 
remarkable to me that all these years after they suffered that 
tragedy, that they're here, hearing after hearing, that I talk 
to them on the phone all the time, that they have never flagged 
one minute in their efforts to make sure that that never, ever 
happens to families again. They're a remarkable group of 
people, and I just want to commend them to you today.
    Senator Hutchison. That's very impressive. That is.
    Mr. Kean. Yes.
    The--I'd like to say just a word about the effectiveness 
of--again, of the DNI. We're frequently asked, Lee and I, both 
of us, ``How is it working?'' You know, ``How is it working?'' 
And so, we've been trying, in our new group, to conduct a 
review of the Intelligence Reform and Terrorism Prevention Act, 
and see just how effective the DNI is. And we began our work to 
try and answer that question.
    We have a lot more work to do, obviously, but what we can 
see already is that the DNI has achieved a meaningful measure 
of success in its first years, has made it, probably, 
hopefully, worthwhile--the inevitable turmoil. But, it's a work 
in progress, and it's probably closer to beginning of reform 
than the end.
    Some of the success of the last 5 years include progress on 
information-sharing, a joint-duty program, and, despite the 
failures evident in this attack we've been talking about on 
Christmas, the National Counterterrorism Center.
    Since September 11, 2001, the NCTC and other government 
agencies have repeatedly connected the dots. And they have, in 
the past, shared the information necessary to prevent terrorist 
attacks. Improvements have clearly been made, although that 
sharing is not as prompt nor as seamless as we would like it to 
be.
    But, what the DNI and the NCTC need most of all, in our 
opinion, is the unyielding support of the President and the 
Congress, if those organizations are going to achieve their 
role in integrating the intelligence community in preventing 
these attacks.
    You know, we all gave the DNI a very, very difficult job 
and a gargantuan to-do list, and the DNI was given the 
substantial authorities to accomplish those missions.
    We are concerned about the expanding growth of bureaucracy 
of the DNI, and we urge vigorous reevaluations of all its 
functions, to assure that it's lean and efficient. The DNI's 
authorities must be exercised with discretion and consideration 
of the priorities and sensitivities of the other intelligence 
agencies that it works with.
    However, to be sure, there are still ambiguities--excuse 
me--in the law that you passed. These ambiguities can 
contribute to mission confusion and sometimes a lack of 
clarity, perhaps, in the lanes in the road. But, the burden is 
on the President to be clear on who is in charge of the 
intelligence community, and where final authority lies on 
budget and on personnel matters. Absolutely crucial here is the 
President's leadership, or we run the risk of mission confusion 
and a decrease in the prospect of long and lasting reform that 
was recommended after September 11, 2001.
    Let me say just a couple of other matters here before I 
close:
    The Chairman mentioned, in his opening remarks, the 
problems and the balance that always has to occur between civil 
liberties and the need to keep ourselves safe. This will always 
be part of the struggle against terrorism; we'll face these 
decisions all the time. And we can't sacrifice one for the 
other. We have to keep both. We are in the business of 
protecting freedom and liberty as well as fighting terrorism.
    Now, we have recommended a board. This board has been 
dominant for a couple of years, and the Congress passed that 
legislation. With a massive capacity to develop data on 
individuals, this board--civil liberties board--has to be the 
champion of seeing that collection capabilities do not 
include--do not intrude unnecessarily into privacy and civil 
liberties. We continue to believe that that board, that we 
recommended and the Congress put into being, has critical 
functions and should be established. It doesn't now exist. The 
President has not yet appointed the members. So, we urge 
President Obama to reconstitute it, quickly appoint its 
members, and to allow them full access to the information and 
the authority to perform and do this essential function.
    Now, you are doing exactly what is required, here in this 
room today. Nothing, probably, is as important in this whole 
intelligence area than your oversight, Congressional oversight. 
And we placed a tremendous amount of importance to that in our 
report. I know our recommendations helped make the creation of 
a House Homeland Security Committee and a Senate Homeland 
Security Committee and Governmental Affairs Committee. However, 
there is enduring, fractured, and overlapping committee 
jurisdictions. And that's true on both sides of the Hill. And 
this has left Congressional oversight, in our opinion, not yet 
in a satisfactory place.
    DHS entities still report to dozens of separate committees 
hundreds of times per year, and that takes, as every Secretary 
has told us, a tremendous drain on their time and resources for 
their most senior officials.
    Furthermore, the additional melee among scores of 
Congressional committees has led to conflicting and 
contradictory tasks and mandates for DHS.
    Now, we worry that unless we work to fix this system, it's 
unworkable and it could make this country less safe.
    We also called Congressional oversight over intelligence 
dysfunctional, at the time of our report. We made 
recommendations to strengthen the oversight committees, which 
were not accepted by the Congress, although undoubtedly some 
progress has been made.
    Today, we'd just like to emphasize the tremendous, enormous 
importance we attach to rigorous oversight of the intelligence 
community. Congressional oversight can help ensure the 
intelligence community is operating effectively and help 
resolve disputes about conflicting roles and missions when they 
occur.
    So, we urge you all--the Congress--to take action to 
strengthen the oversight capabilities of the intelligence 
committees, because we think if you don't oversee intelligence, 
nobody does. And we would commend you--commend that task to 
you.
    Thank you.
    The Chairman. Thank you, Governor, very much.
    There's no way that I can agree with you more about the 
need for oversight. It's really the only instrument that the 
legislative branch has. And it--because of its classified 
nature, it's reserved, really, to two--for the most part, to 
two committees, one in each house. And I do know that over the 
last number of years, what--the basic changes that have been 
made are, in fact, to take the Intelligence Committee, which 
was a so-called ``B committee,'' to make it an ``A 
committee''--more budget. And second, it was term-limited. It 
was term-limited to 6 years or 8 years, I forget which it was. 
But, we got rid of that. So, now members are on permanently, at 
the discretion of their respective leaders in their respective 
parties in both houses.
    A great deal of the experience of the Iraq and Afghan war 
were, in fact, trying to bludgeon--you know, I--there are all 
kinds of words I could use for it--to try and pry out from the 
administrations--both administrations, Republican and 
Democrat--who hold on--people think that the Intelligence 
Committees own the intelligence, they have the intelligence. 
They don't. They only get what the Administration is willing to 
give them. And so, sometimes you have to use strong-arm 
tactics. Somebody says, ``I need a deputy.'' I said, ``I need 
full information.'' I used that tactic once, and it worked. A 
DNI got a deputy director because he agreed that he would brief 
not just the gang of six, the gang of four, the gang of eight, 
and all of that nonsense of earlier years, but the entire 
committee. And so, that's the--that doesn't say that we're 
getting what we should be or that we're doing what we should be 
with what we get, but it does mean, at least, the process is 
headed in the right direction. And all of the folks involved--
and I feel very strongly about that.
    Let me just--I've already used a lot of time. I'm just 
fascinated, Secretary Napolitano, with this concept of 
screening watch lists. We've got the TIDE database. We've got 
the terrorist screening database. We've got the Selectee--
that's--the first is 550, the second is 430 individuals. And 
then we go to the Selectee, 14,000; and the No Fly, 3,400.
    My question and my frustration is--and, Director Leiter, I 
think that you said that there was movement to restrict even 
further the No Fly List. I think you said that.
    Mr. Leiter. Prior to December 25----
    The Chairman. Yes.
    Mr. Leiter.--we experienced----
    The Chairman. But, see, that's so wrong. I don't understand 
why, for example--with this Farouk, Abdulmutallab, why is it 
that he can get on a list, which comes back from the State 
Department and goes to--it's classified, but I know where it 
is. And so, it's not possible to say that there is not some 
cause for doubt about him as a person, but he doesn't end up on 
any list that means anything. So, he just cruises right on 
through, gets his 2-year visa, Lagos, Amsterdam, Detroit, no 
problem; 2-year visa. I don't understand--well, the question I 
want to ask is, Do you think that there is--Secretary 
Napolitano, particularly--both of you--that there is--that 
there's a false sort of division of databases and groups that 
you move from one to another?
    You know, my instinct, just as an individual citizen, is 
that the ``No Fly List'' ought to be a whole lot larger. Why do 
we make the assumption that, because somebody's on the--you 
know, the terrorist screening database list, et cetera, that 
that doesn't--that's, you know--and they're determined--NCTC 
and the--conjunction with the FBI--they determine they're known 
or reasonably suspected terrorists, but they can still fly. And 
they're not even on the ``Selectee List,'' much less the ``No 
Fly List.'' I don't understand those divisions. Should they be 
rethought, in view of what happened on Christmas, or do you 
think I'm overreacting?
    Secretary Napolitano. Mr. Chairman, first of all, that is 
an integral part of the review and the actions that the 
President has directed, that that entire set of processes and 
protocols that were set up to move from the larger to the more 
specific, in terms of the databases, be relooked at, in light 
of what happened on December 25, and in light of what could 
happen in the future. So, it shouldn't just be reactive, but 
also proactive.
    As I said before, you know, the CBP looks at the--and these 
are protocols that have been in existence for a number of 
years--but they look at the----
    The Chairman. You'd better explain----
    Secretary Napolitano.--No Fly List.
    The Chairman.--``CBP'' to us.
    Secretary Napolitano. Customs and Border Protection.
    They look at the ``No Fly List'' and the ``Selectee List,'' 
in terms of what happens internationally. That, too, is 
something that may need to be reexamined. But, I think the real 
heart of your question goes to the watch list, their systems, 
their creation overall. And let me defer to Director Leiter on 
that.
    Mr. Leiter. Mr. Chairman, the basic question, should the 
distinctions and differences be reevaluated? The simple answer 
is, ``Absolutely. Yes.'' And that's what the President has 
directed, and we want to.
    I will say, there is an enormous variation between 
different people on those watch lists. It ranges from the 
person who's associated with the financier to the operative. 
Now, the standards that have evolved since 9/11--and again, 
were promulgated in 2008 and 2009--made us make distinctions 
which are readily apparent after 12/25--are distinctions that, 
I believe, the Congress and the American people are very 
uncomfortable with. And I believe that it would make much more 
sense, in light of the reaction we have seen, to have many more 
people on the No Fly List or the Selectee List than we do 
today.
    My only point about the pressure was, I will tell you, 
prior to December 25 of this year, the pressure had been, in 
fact, in the exact opposite direction. The pressure was to 
remove and scrub those No Fly and Selectee Lists and the watch 
lists, to inconvenience as few people as possible, and reduce 
the number of false positives. That was the pressure under 
which we existed, and I am more than happy--and, as the 
President has directed us to do, we are going to reevaluate 
that, based on the events.
    The Chairman. Good.
    I'm going to call on, obviously, Senator Kay Bailey 
Hutchison. After that will be Senator Dorgan, followed by 
Senator Begich, who appears to be missing an opportunity to ask 
a question.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Mr. Chairman, I have to co-chair a hearing 
at 4 o'clock.
    The Chairman. OK.
    Just preside over the Senate?
    Senator Begich. No. An actual----
    The Chairman. Oh, OK.
    Senator Begich.--a real work meeting.
    The Chairman. Oh, a real--OK, OK.
    [Laughter.]
    The Chairman. OK.
    The Chairman. Anyway--Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    I just want to ask one more question along the same lines 
as the Chairman's, and that is about the association with the 
Yemeni cleric who used to operate out of Maryland. After the 
Fort Hood incident, it would seem that there would be a deep 
look into everything that might be associated or connected with 
that particular cleric. And so, my question is, Why wouldn't 
Mr. Abdulmutallab's association with that same cleric have been 
enough to get him on the database, to at least have a big 
yellow flag, if not a red one?
    Mr. Leiter. Absolutely, Senator.
    To begin, immediately after Fort Hood--and this is 
continuing--we have, in fact, engaged an interagency--CIA, FBI, 
National Security Agency, NCTC--scrub of all of Anwar al-
Awlaki, looking at his various contacts, to determine who poses 
a threat. What----
    Senator Hutchison. And then, would those people that he has 
tentacles to, now be put on watch lists? I mean, can we be 
assured of that?
    Mr. Leiter. Those individuals--it depends. It depends on 
the nature of those communications. In some cases, under the 
existing standards, were someone to send--you know, communicate 
in a way which was completely innocent, it might not put that 
person on the No Fly List; it might put that person on a 
different layer of the list. And, of course, the list itself, 
and being placed on that list cannot be based purely on 
protected First Amendment activity. So, there may be some 
issues there.
    With respect to Mr. Abdulmutallab----
    Senator Hutchison. Let me just ask you one----
    Mr. Leiter. Of course.
    Senator Hutchison.--one thing more, though.
    OK, you had the Yemeni connection. And then you had the 
man's father, who raised a flag of some kind. Do you have the 
capability to merge that kind of information and raise the 
level on someone like that?
    Mr. Leiter. Absolutely, Senator. And, in fact, the failure 
here, and the failure on our part and elsewhere, was not making 
that connection. It was not making that connection between what 
the father came in and said and other sources of intelligence. 
Now, some of those sources of intelligence weren't flagged in a 
way that made it more likely that that intelligence would be 
connected. So, there were some failings there. But, also, the 
basic act of seeing all that intelligence and piecing it 
together is what we did not do.
    Senator Hutchison. But, let me----
    Mr. Leiter. But, undoubtedly, had it been, he could have 
been at a higher level of watch list.
    Senator Hutchison. OK, let me ask you this, because it goes 
back to the first thing that the Chairman said in his opening 
statement. Do we have the tools now to communicate, completely 
and effectively, without bureaucratic mumbo-jumbo, between 
intelligence sources and security forces on the ground, so that 
you can put those kinds of different levels of an awareness 
together to raise it to a substantial awareness level?
    Mr. Leiter. Senator, this is going to be hard to believe, 
but probably the single best example, where we go from the most 
classified sense of intelligence down to the operator in the 
field--and this is true even after 12/25--is, in fact, the 
watch list. The problem here was not that that information did 
not flow, because it can flow quite easily to the police 
officer in the street, to the visa officer, to the Customs and 
Border Protection officer. The problem is, we didn't have the 
right derogatory information associated with that record. So, 
we hadn't connected the intelligence to raise the flag, but the 
information could have flowed quite easily.
    But, a second piece of your question is, do we have the 
systems in place that make it easy to connect those pieces of 
data in the first instance? And the answer is, yes, in some 
places, and not nearly enough so in others. Some agencies are 
far ahead of others, and we still have, clearly, some systems 
which are so rudimentary and basic that they're not doing a 
good job of that. For example----
    Senator Hutchison. OK.
    Mr. Leiter.--the State Department's visa system, where, 
when they mistype one letter in the name, his visa does not 
come up. I consider that a significant weakness in the 
technological system that enables effective information-
sharing.
    Senator Hutchison. OK. I guess my final question, to try to 
just get to the nugget, is, Do you have all of the authority to 
do what needs to be done? And I'm not even saying this is easy, 
because I know if a father comes in and says, ``I think my son 
is someone you should watch,'' maybe that, in itself, by 
itself, isn't enough. But, then you have the Yemeni cleric, and 
maybe that wasn't quite enough to also matter. But, together, 
you've got to be able to say----
    Mr. Leiter. Absolutely.
    Senator Hutchison.--``OK, put this together, and it's 
really big.'' So, do you have the authority--and, Madam 
Secretary--do you all have the authority to get to the heart of 
this and not have all these constraints and different 
bureaucracies and different rules and all of the confusion that 
seems to maybe exist sometimes?
    Mr. Leiter. Senator, I'll try to be very brief.
    I think the basic system structure works. But, there are 
four areas which, undoubtedly, we need to focus:
    One is technology. The technology is not as advanced as it 
needs to be to connect all of these pieces.
    Second, in terms of authorities, to make sure that people 
are following up in the way they need to follow up. Those 
authorities, frankly, to the National Counterterrorism Center, 
were purposefully vague, and we are now working with the White 
House, through the President's direction, to make sure there is 
accountability.
    Third, we simply need the people to do it, because you can 
have the best Google-like tool in the world; you need the 
people to work that watch list and look at that information.
    And fourth, I think----
    Senator Hutchison. Are you saying we don't have enough 
people on the job? Is that----
    Mr. Leiter. I think--absolutely. As I tried to make clear, 
we did not have enough people to put on this Yemen problem, and 
we did not shift people away from other problems quickly 
enough. And now, what we've been directed by the President to 
do, I think there will be a resource tail to make sure you can 
pursue these minute leads in a way that you can have greater 
confidence that they will be tracked down and will be connected 
exactly the way you and the American people expect and deserve.
    Secretary Napolitano. Senator, I--what I would add to that 
is--again, the international dimension of this is so very 
important. You know, he traversed two international airports, 
Lagos and Amsterdam. Every airport--not every airport in the 
world operates at the same level of security standards. We also 
need, I think, quite frankly, to work more closely on the 
international scale, in terms of sharing information about 
individuals--who's had a visa revoked, and why, for example. 
And so, that is part and parcel of the corrective action that 
we are taking.
    Senator Hutchison. Thank you.
    The Chairman. Thank you very much.
    This is--this list, which changes as people come in and go 
out, which is what always happens, which is fine--is done in 
order of original appearance so that it's fair, although some 
may like it more than others.
    Senator Dorgan.
    Senator Dorgan. Senator Rockefeller, thank you very much.
    I am not exactly clear on all of this, so--and I know it's 
complicated. I wasn't sure, back in 2002, whether creating the 
Department of Homeland Security was the right thing to do. We 
put 22 agencies together, in the biggest merger of Federal 
agencies since the second world war. Maybe that's the right 
thing, but it--we put a lot of different cultures together.
    And then the question of DNI; it wasn't clear to me whether 
it was very smart to do that. I--although I understood, we had 
all these stovepipes sticking up and nobody trying to 
coordinate them. So, I understood that wasn't working very 
well.
    But, as I understand it now, we have--we now have 16 
different agencies involved in the intelligence system; eight 
agencies involved in the watch-listing process--those eight 
agencies in the Terrorist Identities Datamart Environment. Then 
we have, I believe, three different agencies involved in 
placing individuals on the terrorist screening database. And 
only then would Homeland Security come in and make decisions 
about placing individuals on either a No Fly List or a Selectee 
List. And maybe that's a--maybe that's not exactly correct, but 
it seems to me you've got a lot of agencies doing a lot of 
different things.
    What I don't understand is this. When we created DNI, we 
were going to try to deal with these stovepipes. So, what 
happens--if you can tell me in an unclassified situation--what 
happens when a father comes and says to our intelligence 
community, ``Look, I've got a kid out there''--and I've seen 
some rumors about what the conversation was, but, ``I've got a 
kid out there that's gone wrong. It appears to me there are 
some--you ought to have some concerns about some links to 
terrorism.'' What happens to that information? Where did it go? 
And where was the failure?
    Secretary Napolitano. If I might, before--I'm going to----
    Senator Dorgan. All right.
    Secretary Napolitano.--defer to Mike again, but, there was 
something in your question that was not correct, and----
    Senator Dorgan. All right.
    Secretary Napolitano.--it's that DHS does not create the 
Selectee or the No Fly List. We receive the Selectee or the No 
Fly List, and that is then used by CBP officials at foreign 
airports to advise foreign governments or foreign air carriers, 
as the case may be, about particular individuals.
    Senator Dorgan. All right.
    Secretary Napolitano. I just want to be----
    Senator Dorgan. Thank you.
    Secretary Napolitano.--clear about that.
    Senator Dorgan. Thank you.
    Mr. Leiter?
    Mr. Leiter. Two things should have happened when that 
father came in. One thing happened, one thing did not.
    The first thing is, the agency that received that sent a 
message back to headquarters, and that message was also 
available to NCTC. That's the good. Not so good, it was not 
disseminated in a way that it was widely available to the rest 
of the intelligence community. Now, I do want to stress, that's 
still different from what happened on 9/11; that was simply----
    Senator Dorgan. Why was it not disseminated?
    Mr. Leiter. It was, fundamentally, the oversight and 
mistake of an individual office, and I believe the director--
Director Panetta--Leon Panetta--has already taken steps to 
solve that problem.
    Senator Dorgan. Was there a process or procedure that was 
ignored? Or was it a person that made a mistake? Tell me----
    Mr. Leiter. Senator, I'd actually prefer--happy to take it 
up with you in some sort of closed session. But, also, I would, 
frankly, like to defer to Director Panetta, who can speak more 
specifically to the procedures of that agency.
    But, the information was somewhat available.
    The second thing that should have happened, and did happen, 
was, after that meeting, the State Department and the embassy 
had a--the country team had a meeting to say, Was this person 
someone that they had to be worried about? And they in turn 
nominated him to the Terrorist Identities Datamart Environment 
at NCTC as a possible terrorist, based on this interview. That 
occurred; he was nominated; he was placed on the watch list. 
The one thing that did not occur there was, again, when they 
checked to see if he had a visa, they misspelled his name, and 
hence, did not discover he had a visa.
    Senator Dorgan. Yes, they misspelled the last name, 
apparently?
    Mr. Leiter. Correct.
    Senator Dorgan. And so, one of the intercepts--I'm--
understand one of the earlier intercepts actually had his two 
first names.
    Mr. Leiter. Umar Farouk----
    Senator Dorgan. Yes.
    Mr. Leiter.--that's correct.
    Senator Dorgan. And so, there's a--there's his father; 
there's an intercept with two first names that were spelled 
correctly; there's an intercept about maybe something December 
25; there's an intercept with somebody from Nigeria and a 
possible action. And so, we have all these things. I guess I'm 
wondering, with all these agencies--sixteen and eight and 
three, or whatever--is there somebody that's sitting around, 
that--as a result of DNI, that gets rid of stovepipes, and you 
bring it in to a desk or a room or some situation room, and 
somebody gathers all that and says, ``Aha. I see. This is a 
puzzle, and I just got the five pieces. I've put the five 
pieces together. And we got a guy out there that's trouble, and 
we're going to make damn sure he's not on an airplane''?
    Mr. Leiter. Senator, the primary responsibility for doing 
that was mine, as the Director of National Counterterrorism 
Center, NCTC. Also with responsibility, pursuant to the 
President's conclusions, and consistent with past practice, was 
the CIA. We both had responsibility to do that, and we didn't 
do that. Now----
    Senator Dorgan. Well, I understand--from an organization, 
and from heading an organization, I understand what you're 
saying, and I admire that. But, I'm asking, In the 
organization, do you have a group of people who are sitting 
there, pulling all that--those pieces together, to say, ``Aha. 
Now we see something that's about to happen, and we're going to 
take action''?
    Mr. Leiter. Senator, two pieces of that. One, I will tell 
you that, although I can't speak to it fully in an open 
session, part of what you cited in the press reports was, in 
fact, discussed in analytic products that we provided to 
policymakers concerned with operations. What we did not know, 
and what we did not connect, is exactly who and where. So, we 
were in fact concerned of an operation, but we hadn't pieced 
those pieces together.
    But, second, if I may, Senator.
    Senator Dorgan. Yes, of course.
    Mr. Leiter. One of the reforms that we've already started 
to initiate, and which I think is critical and does have some 
repercussions in terms of the need for people, is to put 
together exactly the teams that I think you imagine. And their 
sole job is not to write intelligence for policymakers, but 
their sole job is to dig into, in an interagency way, with all 
the information, these bits of data, and piece them together 
and uncover the plots.
    Senator Dorgan. Mr. Chairman, my time is expired.
    Let me thank--I have other questions I'm going to submit, 
if I might.
    And let me also say to you that I see there are other 
relatives of the--the victims of the Colgan crash. I want to 
mention that they are here, too. And they are at every hearing 
that we hold dealing with the issue of safety. And I admire the 
passion with which they now serve their country, coming to 
these hearings.
    The Chairman. Thank you, Senator Dorgan.
    And now Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Mr. Chairman.
    Because we have so many questions that we'd like to ask, 
and the time not permitting that, can we be assured, Mr. 
Chairman, the record will be kept open and that the witnesses 
are instructed to----
    The Chairman. Absolutely.
    Senator Lautenberg.--respond----
    The Chairman. Absolutely.
    Senator Lautenberg.--to that?
    And I would ask our wonderful witnesses at the table--that 
includes all of you, by the way--that the answers be as brief 
as possible, rather than questions taking all the time.
    But, I want to--the mystery about whether or not someone on 
one list doesn't match up with another--I mean, I come out of 
the computer business, and so does my colleague here, and, you 
know, there are lots of things that we do in the commercial 
world that get names identified immediately. If you ever walk 
in with a credit card and you're in Paris or Lisbon or 
wherever, put your American Express through the slot, and the 
answer is--the answer comes back immediately. Now, why, 
therefore, isn't the technology available that talks about 
those people who are on the No Fly or the terror watch list? I 
think it's outrageous to suggest that, you know, multiple 
departments are required to check on one another and create an 
organization that gets rather cumbersome at its roots.
    Mr. Leiter. Senator, if I may, because I must have 
misspoke. The lists are coordinated with one another. There is 
no disconnect between the lists, except if there has been a 
choice that the lists should not match. And what I mean by that 
is, if you're in TIDE, we know, if you're in TIDE, whether or 
not you're in the next list and whether or not you're No Fly. 
And there has been a decision that one does not qualify for the 
other. The lists speak to each other and are fully coordinated 
with one another.
    Senator Lautenberg. Thank you.
    Governor Kean, the Detroit bombing attempt raised questions 
about who should be on the terror watch list--much of what 
we're talking about here--including the No Fly List. But, even 
people who pose such a serious threat that they're not allowed 
to fly are still able to buy guns in this country. And there's 
discouragement of excessive interference or followup--you have 
to destroy lists in 36 hours, and you have to respond in 3 
hours and all. And here we're talking about something that--
talking about, Worried about a gun? You got an airplane full of 
people. There is--in my view--there is no comparison to the two 
threats that pose.
    Do you support closing the terror gap by giving the 
Attorney General the authority to deny gun purchases to people 
who are on this list? Just to deny them outright. We've heard 
the plea on the other side, said, ``Well, someone could be on 
there incorrectly or unfairly.'' Too bad. I don't want to break 
the law, and I don't want to invade privacy, but the fact of 
the matter is, we ought to be able to access these things, and 
err on the side of the safety of the American people. What do 
you think?
    Mr. Kean. Senator, the Attorney General has asked for that 
authority, and I would certainly back him up. But, he should be 
given it. I think to allow people on the terrorist watch list 
to go in and purchase weapons of any kind is just not very 
wise. And as far as the other law goes, the FBI, as we know, 
had the Fort Hood shooter under observation, they were looking 
at him. What they didn't see was the fact he'd walked into 
someplace called ``Guns Galore,'' and bought weapons, because 
the law now says the records have to be destroyed within 24 
hours; used to be longer than that. I suspect if it were there 
longer than that, the FBI might have had that information; 
might have connected the dots, and who knows whether or not it 
would have been prevented or not. So, I would recommend that 
you might look at both those things. And particularly as the--
this Attorney General has asked for--and the previous 
Administration also asked for--terrorists should not be allowed 
to get weapons.
    Senator Lautenberg. Secretary Napolitano, what's the--what 
does your department think about closing this loophole, this--
that permits gun purchase? I am leaving the Detroit situation 
to the review by my colleagues. I want to focus more on this 
relatively narrow area.
    Secretary Napolitano. You know, Senator, I'm not sure that 
right now I'm prepared to give you an answer on that. I am--
what I am prepared to say is that, look, there are a lot of 
things that have to happen to prevent somebody like an Umar 
Farouk Mutallab from getting on an airplane. It's a very 
layered system. It begins with intel and all of the ways that 
Mike has described how the intel works, up to when somebody 
shows up at an airport, then all the layers within the airport 
itself--some seen, some not seen. It's all of those things 
combining together that, done right, and done in a coordinated 
fashion, minimize the risk that there will be an attack on 
Americans.
    Senator Lautenberg. Mr. Chairman, are you going to permit--
--
    The Chairman. Yes, we'll continue----
    Senator Lautenberg.--a second----
    I just want to close by saying there are some 600 million 
American--Visa cards around the world. You can go anyplace in 
the world and try to buy something, and they know immediately 
whether you're eligible.
    The Chairman. Yes. And another question that comes from 
that is, what is it that airlines can do if they're paid in 
cash? I'm convinced there has to be something they can do to 
follow up. I don't want an answer to that now.
    You have to leave in 10 minutes for Spain--leave here for 
Spain. That's what I call----
    Secretary Napolitano. Sir, I'll be happy to hang around for 
a few more minutes, if I can answer some more questions.
    The Chairman. Well, then now you've made a liar out of me 
to Senator Snowe.
    Mr. Leiter. I'm happy to leave in 10 minutes for Spain, Mr. 
Chairman.
    [Laughter.]
    The Chairman. Oh, you do. OK. All right.
    Secretary Napolitano. Mr. Chairman, if I could leave by 
4:30, that would be----
    The Chairman. That's what I'm talking about. That's called 
10 minutes.
    Secretary Napolitano. OK.
    [Laughter.]
    The Chairman. Thirteen.
    [Laughter.]
    The Chairman. Will you please give me some idea of why, 
when you go over there and meet with the Europeans, why--what 
hope is there for bringing some sense of rationality between 
the practices that we pursue at home, in terms of screening, 
machinery, you know, whole-body imaging, which is considered a 
civil liberties problem. On the other hand, that's the only 
thing which probably would have discovered what this guy had in 
his underpants.
    What do you sit down and talk with them about? There has 
got to be a common system that works around the world, but 
you're dealing with separate societies. Some of them are so 
pro-civil liberties that they are very lax. On the other hand, 
I don't know how any of them could be in Europe, because 
they're the ones who've taken most of the pounding.
    So, what do you do? I mean, what about the folks at Lagos? 
What about the folks at Amsterdam? What about the folks in 
less- or well-traveled countries? How do you rationalize the 
system? What are you going to do for the next few days?
    Secretary Napolitano. First, we're using the December 25 
attack as a catalyst. There were passengers from 17 countries 
on this plane. This illustrates the international nature of 
this problem. And the initial meetings that the Deputy 
Secretary held, in the immediate wake of December 25, were 
fruitful in a way that some meetings that I'd had over the 
course of last year were not. So, we're going to use this 
attack as an opportunity to see if we can get agreements made 
that we have not been able to get before.
    Second----
    The Chairman. Like what?
    Secretary Napolitano. Like better exchange of information 
about passengers. Like standardization of the kinds of 
equipment and procedures that will be used in airports on 
randomized bases, so the terrorists can't predict what's going 
to happen at--one at one time or one at another. Like training 
and increase of capacity of law enforcement on the ground in 
countries, particularly in airports that may not have the 
capacity right now. Like a real outreach and focus on airports 
that have the larger percentage of throughput of last points of 
departure to the United States. All of that underway.
    We'll be meeting with individual countries. We'll be 
meeting with groups; i.e., those from the EU. I will be meeting 
with ICATA, which is one of the international air travel 
associations, on Friday. And we've already been meeting with 
ICAO, which is the U.N. air safety, air security branch, which 
is located in Canada. We've already been meeting with them.
    And our goal, Mr. Chairman, is to say, this is not just a 
United States problem. In this century, everybody from around 
the world needs the ability to travel and to know that the air 
environment is a safe one. So, it's designed to get more 
uniform standards, higher standards, increased training 
capacity, increased both physical law enforcement and 
technology available around the globe.
    The Chairman. OK. I thank you.
    And I call upon Senator Snowe.
    And I thank you for yielding.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    And I thank all of you for being here today.
    These are obviously, very key forums for eliciting exactly 
what went wrong and what we must do to prevent it in the 
future, without question.
    As one who has been involved in these issues for many 
years, going back into the 1980s, when we were dealing with 
aviation security, international airports, and the list goes 
on--information-sharing and so on--this all still has a 
familiar ring, in terms of rigid stovepipes. And it seems, a 
cascading series of failures required passengers on a plane to 
stand between a terrorist and a disaster. So, we could have had 
a profound consequential event in this country. And I think we 
all understand that. But, I certainly hope that somehow the 
sense of urgency in our institutions is not sublimated into 
bureaucratic quagmires. It's something that we have to be 
focused on each and every day. I know there are extraordinary 
men and women who serve this country, so I understand that, and 
I understand your service and contribution, and I thank you.
    And to the tireless efforts of Congressman Hamilton and 
Governor Kean, thank you. You've been tenacious and tireless, 
as watchdogs and in conducting oversight over this major, 
mighty endeavor for this Nation. You have unparalleled insights 
and expertise, which I deeply appreciate, and thank you for the 
continuity of your service.
    And to all the families who are here today, and who have 
lost loved ones, they continue to provide extraordinary public 
service, even in light of the profound personal grief that they 
have had to endure. And that's a tribute to them, and that's 
why we're here today, continuing to ask these tough questions, 
because this is what it's all about. We've got to get to the 
heart of the matter.
    Secretary Napolitano, I want to ask you several questions 
regarding Umar Farouk so that I'm clear on the relationship 
that DHS has, in terms of the information that is gleaned from 
such individuals. Now, you said that you're a consumer of 
information; DHS is a consumer of information. But, you also 
have an analytic branch within the Department of Homeland 
Security. Now, was Umar Farouk ever debriefed by the Department 
of Homeland Security when he visited the United States and 
after he had traveled to Yemen?
    Secretary Napolitano. Senator, I think that, in an 
unclassified setting, that's probably not a question that I 
should answer.
    Senator Snowe. OK. So, when Customs and Border Protection 
receives a manifest 72 hours before departure, at which point 
was it clear that they needed to question him further?
    Secretary Napolitano. They receive, 72 hours in advance of 
departure, passenger name data, which is different than the 
manifest, which has a much more complete set of information. 
What they push forward to a foreign airport, where there--where 
CBP has personnel--and we don't have personnel at all foreign 
airports--but, where we do, they push forward the No Fly and 
the Selectee List.
    The No Fly List means you advise the carrier, ``That person 
should not board a plane.'' Selectee, you advise the foreign 
government, ``That person needs to get a secondary screening.''
    And the key difference you're getting at, and your question 
is getting at, is, Well, what happens--Why was it, when he was 
going to get to Detroit, he was going to be in secondary? He 
was going to be in secondary when he got to Detroit because he 
had been identified as someone, although not on No Fly or 
Selectee, but, he was in the larger database that should be 
looked at for secondary screening before admission into the 
United States.
    So, you have one set of things that say, ``Well, should he 
be allowed on a plane?'' And the other is, ``Should he be 
admitted into the United States?''
    Senator Snowe. See, I don't understand that distinction. I 
have a really hard time with that.
    Secretary Napolitano. Yes, I----
    Senator Snowe. I mean, I'm just----
    Secretary Napolitano. Yes.
    Senator Snowe.--I'm stunned by it, to be honest with you. 
If somebody's a threat, they're a threat. I don't know how you 
make a distinction between a threat and an aviation threat. I 
just don't understand that. And second----
    Secretary Napolitano. It----
    Senator Snowe.--how was he ever allowed on the plane? You 
know, I think that it's a fair presumption--then once that 
information has been disseminated--that it has to be evaluated 
before anybody gets on the plane. And that's what I don't 
understand. And they have that manifest and that information 72 
hours prior. And so, to--all of a sudden, they decided that 
they needed to question him further and are going to wait----
    Secretary Napolitano. No----
    Senator Snowe.--til he gets to Detroit?
    Secretary Napolitano. Senator, I'll be happy to provide you 
with a more detailed briefing, and your staff. But, if I 
might--again, 72 hours in advance, they have a passenger name 
record. It can be 30 minutes in advance that they get who 
actually is boarding a plane, with more information that can be 
matched against a variety of databases.
    Now, in terms of why he was allowed to get on the plane--if 
he had been on the right database,--if he had been on the right 
list--forget databases; just take databases out of this 
equation--if he had been on the right list, he would not have 
been allowed to get on that plane in Amsterdam. The mistake 
made here was that he was not on the right list.
    Now, what are we doing to fix that? Part of it is improving 
the quality and extensiveness of the lists. Part of what we are 
doing is looking at how we use the lists themselves.
    But, again, since he was coming in from an international 
airport, we're not a solo actor, even in that regard, because, 
even in that regard, we need cooperation; in this case, from 
the Dutch, but it could be from another country, as well.
    Senator Snowe. But, what information did you have--that 
Customs and Border Protection had--to warrant further 
questioning, between the time he boarded the plane in Nigeria 
and the time he landed in Detroit?
    Secretary Napolitano. By that----
    Senator Snowe. Because, that--it's----
    Secretary Napolitano. Yes. By that time----
    Senator Snowe. I'll make certain assumptions that he was 
somehow--we've had more information on him----
    Secretary Napolitano. By that----
    Senator Snowe.--and he should have been in the database, 
and that should have been pulled up.
    Secretary Napolitano. I'm sorry. I didn't mean to 
interrupt.
    Senator Snowe. Yes.
    Secretary Napolitano. Apologize.
    By that time, he had been matched with the note that had 
been issued by the State Department of some concern that he was 
associated with an extremist organization. That note, which was 
the State Department note, had never been matched up 
appropriately with the watch lists and the No Fly List.
    Senator Snowe. But, your department can nominate 
individuals for the watch list. Is that correct?
    Secretary Napolitano. Yes----
    Senator Snowe. And for the No Fly List.
    Secretary Napolitano. Yes.
    Senator Snowe. You have that authority.
    Secretary Napolitano. Yes.
    Senator Snowe. I mean, you don't create it, but you can 
nominate individuals, based on your acquisition information. 
And you have a number of analysts. So, clearly, it's a sizable 
organization, to also analyze individuals that you may have 
debriefed along the way. I think that's important to 
understand.
    Secretary Napolitano. And, Senator, I think, in terms of 
that, we should go into classified. But, let me say this. And 
this is an important question for this committee and for the 
Senate. Because, as has already been mentioned, there has been, 
in the creation of the Department and the creation of the NCTC 
and the creation of the DNI, all sorts of overlapping 
jurisdictions and authorities and what have you. A question is, 
Does the intel and analysis part of DHS do the same thing as 
NCTC? Does NCTC do the same thing as others? Are we supposed to 
be a redundancy? What is our contribution in the I&A field? And 
the fundamental contribution of this I&A, this department's 
I&A, is to take information--intel--that has been gathered and 
analyzed, and to push that out; push that out operationally 
where it needs to go, or push that out, most importantly, or as 
importantly, to State and local law enforcement.
    So, yes, we have an intel function. Yes, we can nominate. 
But, we are not a redundancy. And I don't think we should be a 
redundancy with NCTC or DNI. The redundancy here, on the intel 
side--and this was explained by John Brennan, in the aftermath, 
in the immediate report--the redundancy that was designed in 
the system, with respect to this information, was between the 
NCTC and CIA.
    Senator Snowe. OK. Thank you.
    The Chairman. Thank you, Senator Snowe.
    Senator Snowe. I'd like to submit my statement.
    [The prepared statement of Senator Snowe follows:]

  Prepared Statement of Hon. Olympia J. Snowe, U.S. Senator from Maine
    Thank you, Mr. Chairman. We are here this afternoon with our 
distinguished panelists, including Secretary Napolitano--who is 
appearing before us for the second time in 2 months--as well as 
Director Leiter, Governor Kean, and Congressman Hamilton to determine 
how this egregious breakdown of the security network instituted in the 
aftermath of 9/11 occurred, and how such colossal and eminently 
preventable failures are avoided in the future. This is nothing less 
than the security of our homeland, our people, and our Nation and our 
efforts must rise to a level commensurate with both the challenges and 
the potentially catastrophic consequences.
    Regrettably, it is all too evident that with respect to our 
aviation security, we've returned to square one. Despite our best 
efforts, inexcusable and systemic breakdowns continue to endanger the 
lives of our citizens and those visiting our country. And on Christmas 
Day of 2009, after a succession of collapses in security, only a 
handful of heroic passengers stood between a terrorist . . . and 
disaster.
    It is simply unacceptable that the same gaping holes that have 
persisted since the tragedy of September 11, 2001, continue to plague 
our efforts to mitigate the threat against commercial aviation. Rigid 
stovepipes within the various intelligence agencies and the law 
enforcement community disturbingly have reappeared and inhibit the 
sharing of information. And the requisite and required sense of urgency 
in our governmental institutions seems to have been sublimated by 
bureaucratic quagmires that preclude proactive steps from being taken. 
Indeed, how else can we explain the myriad red flags that were either 
missed or ignored?
    The passenger, Abdulmutallab, purchased a ticket with cash . . . 
did not check any luggage for an international flight . . . had 
recently visited Yemen . . . and the Department of Homeland Security 
(DHS) knew he was a threat inbound for the U.S. He did not even choose 
to bring a coat when traveling to Detroit in December. Each of these 
facts should have raised a red flag.
    This information, taken together, would have certainly resulted in 
a passenger at Dulles or Logan Airport or anywhere else in the country 
being taken aside for additional screening at the minimum. Yet, this 
individual who was already identified by our intelligence agencies as a 
``threat'' was not only allowed to board an aircraft bound for 
Amsterdam, but was then permitted to board another aircraft bound for 
the United States! Why? Because, according to National Security Adviser 
John Brennan, he was not classified as an `aviation threat.' Let me 
repeat, he was known as a threat--but not, apparently, classified as an 
``aviation threat'' Moreover, DHS knew of this individual's presence on 
the flight, but reportedly intended to question him AFTER he landed in 
Detroit!
    These are astonishing lapses, and they should not have occurred. 
Did the intelligence community fail to provide the requisite 
information to the Department of Homeland Security in order to place 
Abdulmutallab on the ``No-Fly'' List? Yes. And there are zero excuses 
for the ongoing problems this country is having with the various 
intelligence agencies' systemic breakdowns. At the same time, when does 
DHS step forward based on the information they already have and act 
independently? Abdulmutallab was denied access when attempting entry 
into Britain--the British Home Secretary, Alan Johnson, said ``if you 
are on our Watch List, you do not come into our country.''
    So why did someone at DHS decide to wait until the ``threat'' 
arrived in the U.S., rather than provide additional screening in 
Amsterdam, or better yet, Nigeria? There are so many lapses, so many 
intrinsic failures--that I cannot help but feel after all the billions 
we've spent in the last decade erecting this vast security network, it 
is remarkable we are still asking the same questions this committee 
asked after the tragedy of 9/11. And that is a telling indictment of 
the current state of the system that's been created.
    Who and what is responsible? As I stated before the Senate in 2004, 
I saw firsthand the consequences of a lack of accountability during my 
12 years as a member of the House Foreign Affairs International 
Operations Subcommittee and as Chair of the International Operations 
Subcommittee of the Senate Foreign Relations Committee
    Among other issues, it was a lack of accountability that permitted 
the radical Egyptian Sheik Rahman, the mastermind of the first World 
Trade Center bombing in 1993, to enter and exit the U.S. unimpeded five 
times, even after he was put on the State Department's Lookout List in 
1987. In 1995 and again after the terrorist attacks of 9/11, I 
introduced legislation establishing Terrorist Lookout Committees in our 
embassies and consulates abroad--all in an effort to create greater 
accountability in the protection of our homeland.
    As a senior member of the Select Committee on Intelligence, I am 
well aware of our enemies' adaptability--which is all the more reason 
our security and intelligence networks cannot afford to be bogged down 
in bureaucratic wrangling. We too must be able to adapt rather than 
simply react to each threat as it appears. The 9/11 Commission warned 
that terrorists constantly analyze our defenses, look for areas where 
security is weak, and plan accordingly. We absolutely must look 
forward, to prepare for these new threats, while continuing to guard 
against current dangers.
    Unfortunately, there remain other vulnerabilities that have gone 
unaddressed. Unscreened cargo is still loaded onto commercial aircraft, 
yet no one can be certain how much is actually screened, and to what 
standard--contradicting the Homeland Security's claims that they have 
already reached 50 percent screening and will achieve 100 percent by 
this August. The uncertainty surrounding air cargo screening is 
particularly galling given my work with Senator Hutchison on air cargo 
security legislation as far back as 2002.
    Additionally, on December 7 of last year, TSA mistakenly published 
its security screening manual and protocols on-line, a classified 
document that revealed--on the Internet, no less--how to circumvent 
security. This incredible gaffe could have provided information to the 
Christmas Day bomber and his handlers, information used during his trip 
from Nigeria to Detroit.
    Another issue of great significance to this committee is the 
relationship we have with our international partners with respect to 
screening flights bound for the United States from other countries. 
According to TSA Director of Global Security Programs Cindy Farkus, 
there are fewer than two dozen TSA inspectors around the world 
responsible for ensuring that 245 foreign airports are complying with 
international security standards. That is an unacceptable deficiency, 
considering the Federal Aviation Administration's (FAA) forecast of 
more than 150 million passengers flying to or from the United States 
this year. Even more troubling is the Government Accountability 
Office's conclusion that without frequent visits to each of these 
airports on a regular basis, ``security deficiencies . . . may arise 
and go undetected and unaddressed.''
    In sum, Mr. Chairman, our work begins anew--I am certain Governor 
Kean and Congressman Hamilton would agree that, particularly given 
their yeoman efforts on the 9/11 Commission and in the intervening 
years--we must redouble our efforts to tear down the walls of 
bureaucracy that unnecessarily restrict our ability to successfully 
protect America. Our constituents, and the nation, deserve nothing 
less. Thank you, Mr. Chairman.

    The Chairman. I--now Senator Klobuchar, to be followed by 
Senator LeMieux and Senator Ensign and Senator Cantwell and 
Senator Udall.
    Voice. Mr. Chairman?
    The Chairman. I want to get one thing straight. Who has to 
leave at 4:30?
    [Laughter.]

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Could I ask my question, and Senator----
    Mr. Hamilton. Mr. Chairman, Governor Kean has a 5 o'clock 
train he has to be on, so he has to leave promptly, as well.
    Voice. Right.
    The Chairman. OK. But, you do not, Mr. Director?
    Mr. Leiter. I'm here at your pleasure, Mr. Chairman.
    The Chairman. OK. That's good. I thought you'd said you had 
to leave. OK.
    Senator Klobuchar.
    Senator Klobuchar. Thank you.
    Secretary Napolitano, just to shift, for 1 minute, here, we 
have 17 families in Minnesota that are awaiting children. 
They've been to Haiti, they've seen these kids. And I do 
appreciate the front-line work that you and Secretary Clinton 
have done, and also your granting of humanitarian parole, that 
I requested last week. I spent the weekend with some of these 
families, as they clutched these photos, and I promised them I 
would ask about, not their specific situations, but just what 
is happening, in terms of a safe haven? Just the details of how 
these kids are going to get to the United States, or get 
somewhere safe in Haiti, as they hear reports that the 
orphanages, you know, don't have enough water, don't have 
enough food, and just--the sooner we can get them over, the 
better.
    Secretary Napolitano. Yes, Senator Klobuchar, we are 
working very closely to get orphans out who need to get out, 
who are already qualified for adoption in the United States. 
And we will work closely with your office.
    But, let me just pause a moment, and say, we have already 
removed a number of orphans, already, to the United States, and 
some more are coming. That being said--and our heart goes out 
to those families, families in other States, and, most 
importantly, the orphans themselves.
    In a catastrophe the size of Haiti, the number--we have to 
now set up a process, beyond that for orphans already 
identified with adoptive parents, before other children are 
removed, because we are there, really, at the acquiescence of 
the Government of Haiti; they have to agree that this----
    Senator Klobuchar. I understand.
    Secretary Napolitano.--child can be removed, and should be, 
to another country for care. So, the State Department is 
working with Haiti on that. Secretary Clinton is on that. We 
met about this late last night. The Secretary of Health and 
Human Services is involved, because when a child is brought 
here from Haiti, normally there's a lot of medical and health 
attention that needs to be carried out before they can be----
    Senator Klobuchar. I understand.
    Secretary Napolitano.--delivered. And so----
    Senator Klobuchar. Just if--if I could just impress on you 
that--I realize some of this is in the hands of the Haitian 
government.
    Secretary Napolitano. Right.
    Senator Klobuchar. I want to say that your staff has been 
very helpful today. We've been----
    Secretary Napolitano. Good.
    Senator Klobuchar.--directly talking to them.
    Secretary Napolitano. Right.
    Senator Klobuchar. We feel that this--the adoptions we have 
are pretty far along in the process, and so we will continue to 
get the details. But, I just wanted to impress on you, one, to 
thank you for what you're doing, but, two, how important it is 
for these families.
    I wanted to ask, as I look for solutions to all of this--as 
a former prosecutor, I know you this--I know you know this--
it's very easy to, like, look at every detail, and you always 
think, later, ``What could we have done differently?'' And you 
can always find, when a crime occurs, the changes that need to 
be made. But, going forward, the full-body scanners; would that 
have prevented this, if he had gone through a full-body scanner 
in Amsterdam or one of the other airports?
    Secretary Napolitano. There is no doubt, in my view, that 
the whole-body imaging, particularly in the current iteration 
of the technologies and the technologies we're now working on 
with DOE, would be a very clear improvement over any technology 
that was used in Schiphol on Christmas.
    Senator Klobuchar. OK.
    And the timetable here, we're--I think, 450 new ones. We've 
got 2,100 airport lanes, I think I read, in our country; 2,500 
international flights, that I'm sure you'll be dealing with 
tonight, coming in. The timetable of getting these out?
    Secretary Napolitano. At least 450, domestically, this 
year. We're obviously looking at how to accelerate that. And 
then, working internationally to see that they will employ that 
kind of technology--which, by itself, by the way--and I can't 
emphasize this enough--in and of itself, no one technology, no 
one process, no one intel agency is the silver bullet here. 
It's----
    Senator Klobuchar. Right.
    Secretary Napolitano.--layer, layer, layer, layer. It's 
good technology with behavior detection officers, with canines, 
with explosives detection equipment, with the right watch list, 
with the right names on it, and the right intel----
    Senator Klobuchar. Got it.
    Secretary Napolitano.--behind it. So, as you can see, even 
from this hearing, all of these things have a role to play. 
It's very layered, and needs to be a layered, process.
    Senator Klobuchar. OK. And one last question. On the watch 
list, something that I've been looking at, as a member of this 
committee for a while, it's my feeling that there are people 
that shouldn't be on it, that waste resources; the kid going to 
Disneyland, in Minnesota, and who got--continually got 
questioned, for years, from the time he was a baby--to people 
that should be on it, that aren't. Just how do we go about 
this, not only adding people that clearly--I know that's been a 
lot of the focus of the questions today--but also looking at 
Secure Flight, what's happening with that, what the 
implementation date is on that. And finally, working with our 
airlines. As you know, this was a Northwest Airlines flight, 
now owned by Delta. Northwest Airlines, originally based in 
Minnesota. I've talked to their--Richard Anderson, the CEO, at 
length. It was their employees and that brave--those brave 
passengers that were on the front line that stopped this from 
happening. So, they have a big interest in making this work in 
the future.
    And I'd just encourage you to work with the industry, 
because in so many international airports, there is no TSA, so 
the airlines are still on the front line.
    Secretary Napolitano. Well--right. And the private carriers 
are part of the process, too. In fact, I've already met with 
them individually, at least U.S.-flag carriers--had several 
long conversations with CEO Anderson, among others. They are 
going to be part of this solution. Trust me. Secure Flight--
should be basically implemented, domestically, by March of this 
year. There are two airlines that may lag by another 30 to 60 
days. But, basically, domestically, that's where we are.
    Internationally, it will take longer, but we're looking, 
basically, at having it implemented--Secure Flight, 
internationally--by the end of 2010.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you Senator.
    Senator LeMieux.

             STATEMENT OF HON. GEORGE S. LeMIEUX, 
                   U.S. SENATOR FROM FLORIDA

    Senator LeMieux. Thank you, Mr. Chairman.
    I've not had the opportunity to interact and interface with 
you folks yet, so I appreciate that opportunity today.
    And I know, Madam Secretary, you have to go.
    So, let me just ask you a quick question before you have to 
take your leave for Spain.
    I think it's the belief of the American people that 99.99 
percent of the folks who are going through security in this 
country pose no threat. And a lot of folks come to me and say, 
``We really feel like we're being harassed when we go through 
TSA,'' whether it's the child that's getting patted down or the 
85-year-old grandmother, who's being patted down. At the same 
time, we have these folks, like the Christmas Day bomber, who 
made it through security. Do we use--and if this isn't the 
right setting for it, I understand--are we using any kind of 
predictive modeling, to follow up on what Senator Lautenberg 
was talking about, such as what credit card companies do in 
their antifraud measures? Do we score people? I mean, we're not 
just taking data based upon information. I assume that we use 
the good intelligence, the people who are working in Homeland 
Security and other agencies, to look for potential threats, and 
use computer modeling to say, ``This person is a threat.''
    Secretary Napolitano. Senator, we do that. We also employ, 
as I've said, a number of things in domestic airports, such as 
behavior detection officers. So, that is underway, as well. 
But, we also employ random selection. And random selection is 
truly random, so that when the 85-year-old grandmother who--
there must be an 85-year-old grandmother who has been pulled 
aside in every State in the Union, because I always hear about 
the 85-year-old----
    Senator LeMieux. There are a lot----
    Secretary Napolitano.--grandmother----
    Senator LeMieux.--in Florida.
    [Laughter.]
    Secretary Napolitano. I'm from Arizona. I can appreciate 
that.
    [Laughter.]
    Secretary Napolitano. But, in any event--but, truly random 
must mean truly random. And it's also random and differentiated 
between airports. So, we will not have the same process in 
place in every airport in the United States on any given day.
    Senator LeMieux. Well, that makes sense to me. But, I 
hope--and you were talking about the travel for international 
folks in the future, this kind of clear travel concept--I would 
hope that, in the future, there is a way, through biometrics or 
other ways, for the average American to be able to--not go 
through without any type of screening; that doesn't make any 
sense--but for us to focus on the people that we're concerned 
with the most, and put most of our energy toward them. That 
seems to make more sense to me.
    Secretary Napolitano. Senator, if I might, Secure Flight, 
which Senator Klobuchar was just referring--that will help a 
lot, because that will exchange data that will--that allows us 
to remove the false positives----
    Senator LeMieux. Right.
    Secretary Napolitano.--from the system. Those sorts of 
things, as they get implemented--we're not talking about the 
needle in a haystack, in a way; it's about the needle among the 
needles. And it is not the easiest thing to do in advance. So, 
what we want to be able to do is, yes, get the false positives 
out of the system so we can focus where we need to focus. These 
sorts of things that are underway will help us with that.
    Mr. Leiter. And, Senator, if I might add, and I can't go 
into depth in an open session, but we do use biometrics for a 
number of the levels of screening, both the visa process and 
entry into the country. That is a costly endeavor, to integrate 
that into all of the screening, and it also poses significant 
policy issues regarding the protections of privacy data and 
U.S. persons data. So, it's an area that I think will probably 
be coming back to committees like this, seeking assistance, 
either in terms of resources or legislation, to ensure that we 
can, in fact, use this biometric data effectively.
    Senator LeMieux. And, Director, you said, a moment ago, 
that you are now putting these teams together who will be able 
to be responsible for trying to see different issues, and put 
the pieces together. I think the American people assume that 
that's happening now. I'm new to the Senate, and so I think I 
have fresh eyes to look at this. I think the American people 
assume that there are rooms of people around this country, 
working for the Federal Government in any one of these 
agencies, who are looking at all this data, analyzing it, and 
making reports and decisions to not let people on planes or 
come across borders or get visas. Is that correct?
    Mr. Leiter. Senator, it is, except, at the same time that 
they were doing that, they also had to write intelligence and 
sort of analyze these things and send them up to policymakers. 
The purpose of this is to free them from those requirements so 
they can focus all of their time with sufficient numbers on 
these small bits of data, which, again, in combination, paint a 
very damning picture. But, when they come in individually, 
surrounded by thousands of other pieces of data, really don't 
stand up to the analyst.
    Senator LeMieux. For both of you, is there one thing that 
we could do which would--and I know nothing would solve the 
problem completely; you're never going to be able to ensure 
safety 100 percent--but, is there one thing--is it just a full-
body scan? Is there one thing that you think, ``Boy, that would 
really make a large difference in making our country safe?'' 
What's the first thing we should do?
    Secretary Napolitano. Senator, I think that one of the 
first, if not the first, things we should do is push out the 
advanced technology that we know exists, even as we recognize 
the next generation of technology is still on its way.
    Mr. Leiter. Senator, my real answer is, there isn't one 
thing. There really is not one thing that would make a huge 
difference here. It is a combination of many little things.
    I will say, if I could only have one thing to pick, it 
would be to ensure that we do get the international cooperation 
we need, especially with our European partners, of providing 
the data and doing the screening that we want them to provide 
and do. That, otherwise, leaves us with a significant gap, 
because we can't cover the entire world. We need their 
assistance to protect the country.
    Senator LeMieux. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Ensign, before I call on you--Secretary Napolitano, 
can you still get to Europe?
    Secretary Napolitano. I think Senator Ensign----
    The Chairman. I wanted to test you----
    Secretary Napolitano.--is the last one here who hasn't had 
a chance to ask a question.

                STATEMENT OF HON. JOHN ENSIGN, 
                    U.S. SENATOR FROM NEVADA

    Senator Ensign. I have one----
    Secretary Napolitano. I'd be happy to stay.
    Senator Ensign. I have one----
    Secretary Napolitano. Yes.
    Senator Ensign. OK. Quick question that I'm going to ask 
all of you. You can start. This gets to ideology. Do you 
believe that there's an ideology of radical Islam that has 
anything to do--or that underlies the USS Cole attack, Hasan, 
the Christmas Day bomber, 9/11--do you think that this radical 
Islam that's out there in the world, that that underlies what's 
going on?
    Secretary Napolitano. Senator, there is no doubt that there 
is a terrorist ideology in this world that is operating, both 
internationally and some of it now homegrown, that is 
underlying the attacks we're seeing now----
    Senator Ensign. That's associated----
    Secretary Napolitano.--some of the ones we've seen in the 
past.
    Senator Ensign.--with radical Islam?
    Secretary Napolitano. That is associated--if you want to 
call it that, yes.
    Senator Ensign. Well, I mean----
    Secretary Napolitano. Yes.
    Senator Ensign. It is.
    Mr. Leiter. Yes. And I don't think I should have my job if 
I said anything else.
    Secretary Napolitano. Yes. I mean, I think--absolutely.
    Mr. Hamilton. Yes.
    Senator Ensign. Thank you. The reason I asked that is, 
there was actually a report out today on the Fort Hood 
incident. And in the 86 pages is--actually, John Lehman--a 
member of the 9/11 Commission--former Navy Secretary--talks 
about this. I'll quote him, and he says that there's a 
reluctance--not a single place, in the 86 pages talking about 
Hasan, does it mention anything to do with radical Islam. And 
what he says, and I'll quote him, he says, ``It shows you how 
deeply entrenched the values of political correctness have 
become. It's definitely getting worse, and is now so ingrained 
that people no longer smirk when it happens.''
    The reason I asked that--we had a hearing in the Homeland 
Security Committee, before the Christmas break, about the Fort 
Hood incident. And this question was asked about political 
correctness. Is it clouding our judgment? Are we afraid to ask 
the wrong questions?
    This gets back to not religious profiling, not racial 
profiling, but terrorist profiling. If there is an ideology 
that is underlying what is happening here, we'd better 
recognize that, and we'd better call it what it is. We 
certainly didn't back away from Nazism as a political ideology. 
Well, if radical Islam is what is--they've called for this 
jihad against the West--against us, against American values--
we'd better recognize that.
    The reason I say that, even, you know, that every young 
military officer is required to read ``The Art of War.'' Well, 
a big part of the art of war is knowing your enemy. Well, a big 
part of the enemy is their ideology; it's their motivation. And 
one of the reasons I ask that is because it seems to me that 
the Christmas Day bomber, which we know had ties, through this 
cleric, to Hasan, and the Fort Hood tragedy that went on, that 
it would have seemed to me that, after the Fort Hood incident--
because that took place initially--that if the ideology was the 
thing that was driving it, we would focus a lot of our intel on 
the ideology with this guy's disseminating information to some 
of the people that he's communicating with.
    And, Director Leiter, you mentioned something about First 
Amendment rights, and I wanted to give you the chance to 
clarify it. Abdulmutallab and the cleric, their 
communications--is that protected by First Amendment rights, as 
far as not getting on a No Fly List, when those conversations 
happened overseas?
    Mr. Leiter. No, Senator. And I want to make clear that, 
prior to 12/25, we weren't--we didn't intercept any 
communications between Abdulmutallab and Anwar al-Awlaki, the 
cleric to which you're referring.
    And my only point on the communication was, certainly 
people--you can imagine some conversations people could have 
which would be First Amendment and wouldn't justify watch-
listing----
    Senator Ensign. But----
    Mr. Leiter.--or No Fly.
    Senator Ensign.--I just wanted to make sure that if we had 
intercepted a conversation between the two of them overseas, 
even if it----
    Mr. Leiter. Oh, absolutely.
    Senator Ensign.--it would never be protected by First 
Amendment.
    Mr. Leiter. Absolutely not, Senator.
    Senator Ensign. OK. I just wanted to ask, because the way 
that you said it, it could have been misleading, and----
    Mr. Leiter. I apologize.
    Senator Ensign.--I wanted to give you----
    Mr. Leiter. Senator, can I just add? There is no doubt in 
my mind--and we have done everything we can at NCTC to make 
quite clear to the American people and to Members of Congress--
that, undoubtedly, underlying the reign of violence that al-
Qaeda has brought, it is inspired by a violent extremist 
Islamic ideology, period. That does not mean that Islam is 
violent. It does mean----
    Senator Ensign. I agree.
    Mr. Leiter.--that Islam is extremist.
    Senator Ensign. I don't--no, I--listen, I totally agree; 
that's why I said, a radical form of Islam that exists in the 
world.
    Mr. Leiter. OK. As Director of NCTC, I want to be as clear 
as possible that----
    Senator Ensign. Yes, I agree with you. I agree with you 
and, you know, don't want to see discrimination against people 
just because they follow the Islamic faith.
    The Chairman. Senator Ensign?
    Senator Ensign. Yes.
    The Chairman. In the--your time is up. It's just barely up, 
but Senator Cantwell has a question for Secretary Napolitano, 
who should have left 15 minutes ago, but is being generous. I 
want to give Senator Cantwell a chance, with your forbearance, 
to ask a question.
    Senator Ensign. Absolutely.
    Could I have 1 minute, right after she just asks this one 
quick----
    The Chairman. You got it.
    Senator Ensign.--question, just because I want to ask each 
one of them a----
    The Chairman. You got it.
    Senator Ensign.--just a yes-or-no question.
    The Chairman. You got it.
    Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Do I have 5 minutes now? Or----
    The Chairman. Yes.
    Senator Cantwell. Oh, OK. Thank you. Thank you, Mr. 
Chairman.
    Secretary Napolitano or Director Leiter, did the U.S. 
counterterrorism agencies have any specific negative 
information about Mr. Abdulmutallab, prior to his father 
alerting the U.S. Embassy in Nigeria?
    Secretary Napolitano. Let me ask Director Leiter. I don't 
know whether we should answer all of that in open session.
    Mr. Leiter. Senator, the--I would be happy to give you an 
answer to that in closed session.
    Senator Cantwell. Great. Hopefully, I'll see you later and 
I'll get that.
    My understanding is, from news reports, that his name was 
placed on a British version of a watch list. Was that 
information shared with the U.S. Government or any--you know, 
if so, which agencies received that information and when was it 
received?
    Mr. Leiter. It was not as--I believe it was not shared and 
he was denied a visa for nonterrorist reasons. In my 
conversations with my British colleagues, they had no 
information involving his association with terrorism prior to 
the events of 12/25, or, I should say, no information different 
from what we had.
    Senator Cantwell. But, he was subsequently put on their 
equivalent watch list there, and so, if their--if you didn't 
hear from them, isn't there a--some sort of one-to-one 
correspondence between the British government and the United 
States----
    Mr. Leiter. Senator, it is my understanding----
    Senator Cantwell.--watch lists?
    Mr. Leiter. Senator, it is my understanding that he was 
denied a visa. He was not placed on their terrorist watch list. 
They--we do exchange information regarding terrorist watch 
lists; he was not on that watch list.
    Senator Cantwell. You do not believe that he--if an 
individual was placed on a watch list in Britain, they should 
be placed--that would be sufficient grounds to be on a watch 
list--the TIDE list?
    Mr. Leiter. Oh, I think there's very good reason, if an 
individual is on the British's terrorist watch list, that he 
should also be placed on the American terrorist watch list. He 
was not on the British terrorist watch list.
    Senator Cantwell. OK.
    And second, if we had--Secretary Napolitano, you mentioned 
cooperation. And I've been very active in the Visa Waiver 
Program, saying we should have more conditions on that program. 
And so, I know that the current State Department website says, 
``To be admitted to the Visa Waiver Program, a country must 
meet various security and other measurements required, such as 
enhanced law enforcement, security-related data-sharing, and 
members are also required to maintain high counterterrorism law 
enforcement, border control, and document security standards.'' 
So, that's the current level by which those 35 countries have 
to cooperate with us.
    Now, do you think that we need to enhance that? Or do you 
think that is the power now to say to those individuals?
    Secretary Napolitano. I think what we need to do is make 
sure that the standards that have been set forth for Visa 
Waiver are enforced on a continuous and continual basis, and, 
like all of the standards that have been referred to throughout 
this afternoon's session, that we continually refresh them and 
make sure they match what we need to match to make sure that 
terrorists aren't allowed to travel around the globe.
    Senator Cantwell. So, you think that their--I mean, you 
mention going there and having this dialogue. My question is, 
Do we have enough, with that State Department language there, 
to require the cooperation on data-sharing that we need, or do 
we need to do more?
    Secretary Napolitano. Right now, using the U.K. as an 
example, we have very good cooperation on data-sharing. Whether 
there are new or additional types of data, or new or additional 
types of things that need to be done in this ever-changing 
environment, is something that we continually need to challenge 
ourselves with.
    Senator Cantwell. OK.
    And then, the--I'm reading a New York Times article, which 
says that after Mr. Abdulmutallab's application to renew his 
student visa was rejected, the Secretary said the suspect was 
then placed on a watch list.
    Secretary Napolitano. I don't know what article you're 
referring to.
    Senator Cantwell. I'm referring to The New York Times, 
December 29, 2009. So, maybe you could----
    Secretary Napolitano. You're going to have to help me out. 
I don't know what--the context--if you could----
    Senator Cantwell. It's about----
    Secretary Napolitano.--help me, please.
    Senator Cantwell.--Britain's rejected visa renewal for the 
suspect, and the fact that he was on it.
    So, maybe we can find out what watch list he was on in the 
U.K. and whether that information could have been shared with 
the United States, or should have been shared with the United 
States. My question today was more about the policy 
ramifications of--if it wasn't, why shouldn't it be? Why 
shouldn't somebody on Britain's list be shared with this?
    And I guess, my overall, you know, concern, having been a 
member of the Judiciary Committee in 2002, when we had a great 
discussion with the FBI after 9/11, and a lot of the questions 
and data-sharing information about why FBI agents in Arizona 
didn't share information with FBI agents in Minnesota, that the 
question is, How far have we come in 8 years on this data-
gathering analytical analysis. I mean, we're spending billions 
of dollars in Iraq and Afghanistan. We should not be at a 
hearing today, saying we don't have enough analysts or that we 
don't know about cloud computing and that information across 
various databases can't be shared, that just because you 
misspelled somebody's name, information can't come up. All 
those are technology solutions that are in the market today, 
and so, that shouldn't be our barrier to this issue. And so, I 
hope that we will realize that the war on terrorism is an 
asymmetrical threat, and that asymmetrical threat means we have 
to be a very flat organization with sharing information, and 
that that needs to be very robust.
    So, I hope we can resolve this question about the British 
watch list and whether that information will be shared.
    Mr. Leiter. And, Senator, of I may, I fully agree with your 
underlying point about sharing with the British. In fact, I 
know Secretary Napolitano and I have both engaged with our 
British colleagues since to review those very issues, to ensure 
that this information is being shared fully, especially because 
we see so many links back through the U.K. through so many of 
our plots.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Secretary Napolitano, I'm sort of embarrassed, because you 
need to go, and I don't know whether you're being polite----
    Secretary Napolitano. I think Senator Ensign wanted----
    The Chairman.--and I----
    Secretary Napolitano.--to have one more question, and then 
I'm going to ask permission please, to leave.
    The Chairman. Permission is granted. I mean, you know----
    Secretary Napolitano. Yes.
    The Chairman. OK. So----
    Senator Ensign.
    Senator Ensign. Thank you.
    You mentioned, before, about when Abdulmutallab came into 
this country, that it's a different policy, whether or not he's 
allowed into the country versus getting on an airplane. This is 
a question, going forward. Is that policy going to be changed? 
In other words, it doesn't make any sense to me that somebody 
would have to go through secondary screening to get into the 
country, but they didn't have to go through secondary screening 
to get on an airplane.
    Secretary Napolitano. Well, it's the difference between 
secondary screened--if there's information about being a threat 
to aviation, versus secondary screening because they may have 
had some other criminal indicator or some other bad behavior or 
what have you. So, it's the difference between, you know, those 
two things.
    But--to your question, this isn't about labels. It's not 
about which list or what list; it's looking at the entirety of 
the problem and saying, ``All right. Now, this guy--this 
individual was able to get on a plane. He was able to get on a 
plane bound for the United States, and get on a plane bound for 
the United States with PETN. That should not happen. What 
actions do we need to take to make sure that that doesn't 
happen again?'' And that's how we're looking at it. Not----
    Senator Ensign. Right. The only reason----
    Secretary Napolitano. I can go into all the complexities--
--
    Senator Ensign. The only reason I----
    Secretary Napolitano.--it doesn't really----
    Senator Ensign.--bring that up is, he probably wasn't 
suspected of some other kind of criminal activity, the reason 
he was going through secondary screening--it would be my 
guess--the reason he was going through secondary screening in 
Detroit, before he got into the country, after he got off the 
airplane. That type of a list, you would think, would--should 
keep him from getting on the airplane in the first place. In 
other words----
    Secretary Napolitano. Indeed. Indeed. And----
    Senator Ensign. And that's----
    Secretary Napolitano.--we have----
    Senator Ensign.--all I'm saying. I'm suggesting to you that 
you look at that as a policy change.
    Secretary Napolitano. Indeed. And, Senator, we have already 
made that change. If you are in a State Department database, 
and those words are associated with a name, we are now already 
pushing that forward in the international environment. I have a 
feeling that there will be other changes made as part of this 
review, as well.
    Senator Ensign. Good.
    Thank you for your indulgence, Mr. Chairman.
    Secretary Napolitano. Thank you.
    Senator Ensign. Thank you for staying, very, very much.
    And I have other questions for the panel that I'll submit 
for the record.
    The Chairman. Thank you, Senator Ensign.
    I might say, to all members--and this isn't the end of the 
hearing--thank you very much, Madam Secretary--that there's a 
7-day period to submit any further questions.
    Voice. [Off-mike.]
    The Chairman. Yes--oh, absolutely. But, I just wanted to 
make that plain now.
    And so, Frank, you'd be up.
    Senator Lautenberg. Yes, if I might, Mr. Chairman----
    The Chairman. I mean, Senator Lautenberg.
    Senator Lautenberg.--ask of--since Governor Kean and--
called you ``Lee.'' I can't call you ``Mr. Hamilton.'' Lee, I 
have a question that I'd like your view on.
    Security cameras are--seem to be an important--not 
``seem''--are an important part of the surveillance that's 
required to keep people from getting access to secure areas. 
And I wonder whether a--you might know, or if anyone knows, 
whether all airports have security checks.
    Mr. Leiter, do you--would you know that?
    Mr. Leiter. Senator, I apologize. I simply don't know if 
every----
    Senator Lautenberg. OK. No--Lee, would you recommend that 
every airport that has commercial traffic have security cameras 
at critical access points?
    Mr. Hamilton. Yes, I think I would. But, security cameras 
raise a lot of questions about privacy. And how you do that, 
how you set those security cameras up, and who sees the images, 
makes a lot of difference. I think you have to be very alert to 
that.
    So, I favor security cameras. I think they can be very 
careful. But, their use can certainly be abused.
    Senator Lautenberg. Yes. I'm just talking about--with 
security checkpoints.
    Mr. Hamilton. Right.
    Senator Lautenberg. That's so--you agree that----
    Mr. Hamilton. Yes.
    Senator Lautenberg.--it's a valuable tool and we should 
have them.
    Thanks, Mr. Chairman, you've been very indulgent, and I 
appreciate it.
    Thanks, to both of you, for your endurance, as well as your 
answers.
    The Chairman. Well, they're not finished yet.
    Senator Lautenberg. Oh, I'm sorry. I didn't mean to preempt 
exit.
    [Laughter.]
    The Chairman. Senator LeMieux, was there any question you 
had?
    Senator LeMieux. Just a couple of questions.
    Director Leiter, after Abdulmutallab was taken off the 
plane at some point, he was Mirandized. Do you agree that he 
should be Mirandized and treated in that fashion?
    Mr. Leiter. Senator, I--this is really a question that I 
have to defer to the Department of Justice. Although trained as 
a lawyer, exactly when----
    Senator LeMieux. You're more than trained as a lawyer. I 
think you were the president of the Harvard Law Review and a 
clerk for a Supreme Court Justice. And you're about as 
accomplished as a lawyer as there is.
    Mr. Leiter. I'm starting to feel like maybe I should go 
back to that line of work, Senator.
    [Laughter.]
    Mr. Leiter. But, in all honesty, ultimately, the decision 
of when that should be done, or has to be done, clearly has to 
be within the ambit of the Department of Justice and the FBI.
    I think what is equally clear is the utility of having 
interagency discussions prior to that, to inform that decision. 
So, again, the decision has to be one of the Attorney General, 
but that should be a decision informed by an interagency 
discussion, considering all of the Nation's national security 
priorities; homeland security and intelligence collection and 
the like.
    Senator LeMieux. And you're the head of counterterrorism 
for the country. You're an advocate for trying to stop this 
terrorism before it starts. And certainly, I would think, in 
your role, you would want to make sure that someone like 
Abdulmutallab would be interviewed, and you could receive as 
much information as possible, to help you prevent another 
attack.
    Mr. Leiter. Yes.
    Senator LeMieux. And when someone is given their Miranda 
rights, the chance that they're going to give that information 
seems to be less likely.
    Mr. Leiter. Senator, as a good lawyer and a former 
prosecutor, my answer is, it really is fact-specific. And I 
simply don't have the sufficient understanding of the facts on 
the ground as to when it was or was not appropriate to 
Mirandize him. I do think, again, that decision has to be 
informed by an interagency discussion, and I can tell you from 
having been a prosecutor, there's no shortage of times when you 
Mirandize someone and they keep talking.
    Senator LeMieux. Sure. But, he's not an American citizen. 
He is a person who is fighting a war against our country, 
trying to blow up a plane over Detroit. He has none of the 
rights of an American citizen. Why does he get afforded the 
right of Miranda rights? Why should he?
    Mr. Leiter. Senator, I really have to defer to the 
Department of Justice on their decision there. I simply have a 
different set of interests at that point. I do have a different 
set of interests, but that doesn't make the interests of the 
Department of Justice any less valid.
    Senator LeMieux. I don't want to ask you to speak for them. 
But, in your role as the head of counterterrorism for the 
country, wouldn't you prefer that he be treated as an enemy 
combatant, and that he have the opportunity to be interrogated 
so that you could learn information and prevent future attacks?
    Mr. Leiter. As the Director of NCTC, I absolutely have an 
interest in ensuring that intelligence is collected so it can 
be analyzed and put into action. I also do have an interest, 
although not the same interest as the Department of Justice, 
where it's, I think, even more overriding, of ensuring that 
basic laws, constitutional principles, are followed. I'm not 
suggesting either one of these paths would not have honored 
that. But, I do actually have an enormous interest, as the 
Director of NCTC, to make sure that there is a level of trust, 
with the Congress and the American people, that any 
counterterrorism investigation is being pursued in a lawful, 
reasonable manner.
    Senator LeMieux. Thank you.
    Congressman Hamilton, it seems to me that we still don't 
know who's in charge of protecting the homeland. Obviously, the 
President of the United States is ultimately responsible, but 
we have an Attorney General, we have a Director of 
Intelligence, we have the head of the CIA, we have head of the 
FBI, we have Director Leiter. I mean, do we still need some 
kind of structural change in the U.S. Government so that one 
person is responsible and reports to the President as the 
ultimate person who is here to protect the country?
    Mr. Hamilton. Yes. You have the Intelligence Reform and 
Terrorism Prevention Act, and it's been very clear from the 
testimony here today that there is, at the very least, a good 
bit of ambiguity in that statute as to who has authority. That 
statute was very hard to pass, and it is not going to be 
amended quickly or soon. So, you're going to be living with it, 
and you're going to be--for a while; I don't know how long. And 
during that time, the ambiguities are still going to be there. 
So, the only person that can make it clear who has the 
authority to do what, is the President of the United States. 
And I believe that he has to make it very clear who has the 
authority within the intelligence community.
    Now, I think it was the intent of the Congress to put that 
authority in the Director of National Intelligence. But, as 
you--if you read that statute, it is not crystal clear. So, I 
think there is a heavy burden, given the fact that you're 
operating under an ambiguous statute, that the President must 
say who has the authority on budget, on personnel, on 
coordination, on integration in the intelligence community. And 
I don't know who else can do it.
    When you have ambiguity in a statute, it is an invitation 
to the bureaucracy to struggle, to fight, to protect their 
turf. And only the President can clear the deck.
    Senator LeMieux. Thank you, Congressman.
    Mr. Leiter. Senator, may I add, briefly? And I associate 
myself with all of The Very Honorable Lee Hamilton's comments. 
I think he's exactly right. But, I would add an additional 
layer of complexity here, because the issue to which he was 
speaking was really coordination of the intelligence community, 
and that intelligence community is just one bit of the larger 
national security counterterrorism effort, which obviously 
extends to DHS, to the Attorney General, as you've cited, the 
Secretary of Defense, the Secretary of State. So, to the extent 
that it might be a bridge too far right now to even 
significantly modify the Intelligence Reform and Terrorism 
Prevention Act with respect to the DNI's authorities and NCTC's 
authorities, I would simply add that an even broader reform, I 
think, starts to be a bridge much, much too far.
    Senator LeMieux. I guess the challenge that we have is 
that, at some point, somebody has to be accountable. And when 
you know that you're the person in charge--and you've both had 
this experience--then you institute a different level of action 
and follow-up than if there is a collective group. And if one 
person knows that they're responsible for keeping the homeland 
safe, whether it's the Secretary or the Attorney General or 
some other person, such as the Director of National 
Intelligence, the system is going to work differently. Right 
now it seems like it's collegial. And it didn't work. And we 
should be acting--and I know that you are--as if the plane blew 
up.
    Mr. Leiter. Senator, I agree fully with what you just said. 
I think the President did make clear that the buck stops with 
him, ultimately. That's--but, also, in his tasking to the 
Director of NCTC, he made clear to give me the responsibility 
to ensure a system of follow-up on high--a prioritizing and 
follow-up of high-priority threats.
    Now, consistent with the statutory language that created 
NCTC, I do not have the authority, nor am I seeking it, to 
direct the actions to follow up. But, at least we will 
establish a system whereby each of these threats, when we 
identify threats, can, in fact, be followed up through 
appropriate department or agency action, and the results of 
that follow-up are reported back to the National Security 
Council to ensure that they have the information they need to 
further direct action, as necessary.
    Senator LeMieux. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Let me just actually ask one quick question and then turn 
to Lee Hamilton for a thought.
    The--always the first question that the press asks is, 
``So, who's going to get fired?''
    Voice. Is what?
    The Chairman. ``Who's going to get fired?'' In other words, 
there has got to be somebody who's accountable. Can't fire the 
President. And so, it's like it's the all-consuming answer to 
our problems. If somebody's fired, it means that somebody--that 
Farouk would have never gotten on an airplane, et cetera. I 
don't--I think the question of firing at a high level, if it 
places itself squarely in front of somebody because there has 
been a clear case of negligence, has to come before the 
President of the United States.
    To make a--an absurd comparison, but the only one that I 
can think of right now, when I was Governor of West Virginia, 
the State still controlled liquor, had liquor stores. West 
Virginia has had its share of Governors who've done time in 
prison and things of this sort. This particular one didn't. 
However, our director of liquor took a vacation trip to Wyoming 
with a bunch of liquor lobbyists. Now, he's not a high person 
in government; he was a--you know, in the cabinet, so to speak. 
But, liquor and beer don't really make the first cut. I called 
him up in Wyoming and I fired him on the spot. And I never 
questioned my own honesty, but you off--you always have to 
worry about not just the people who are at the top, but the 
people who are down somewhere in the middle, who are making 
decisions, who are looking at--who are looking at some of the 
cable traffic and the interpretation, who are the analysts or 
whatever, and you get into this business of people who've been 
there for 20 or 25 years.
    And I always compare it to HHS; you come in and you do--you 
do Medicare, and you come into the office every morning, 
somewhere out in Baltimore, and there are stacks of--big stack 
of paper here, big stack of paper here, there's a big stack of 
paper here, big stack of paper here. And the question is, Do 
you just go from the top down? You come back the next day, and 
you do it. And after a number of years, you just wear out and 
you start to miss stuff.
    And my question to you, Director Leiter, is, Is that on the 
minds--I mean, if you've got hundreds of thousands--and I think 
the number actually goes a lot higher than that--pieces of 
information coming in every day, you are overwhelmed with 
hearings, with pressure, with the terrifying nature of the 
modern world, and all of a sudden we're discussing Somalia and 
Djibouti and Yemen and Kenya, and they're not even in the 
Middle East. I don't think Yemen qualifies as that; that's Horn 
of Africa. So, that doesn't--that's not Iran, that's not Iraq, 
that's not Afghanistan. So, there's overwhelming obsession of 
the duties of the day, the responsibilities, what can get up to 
you.
    I do think it's important that people in your position are 
able to look down--have a mechanism for being able to look down 
and fire the--find out who has gotten tired, who doesn't really 
want to come to work in an area where the Nation's citizens are 
at risk. And those folks, if there are--some of them who are 
removed quietly--I would say, without a lot of public 
attention--it will be understood throughout the entire 
intelligence community within 48 hours, maybe worldwide. I 
think that's important.
    And I think what Senator LeMieux and what a lot of us--you 
know, we keep saying, ``Somebody's accountable. Therefore, if 
it's not working, somebody ought to get fired.'' And sometimes, 
things don't rise to that easy an answer. Because, if you fire 
somebody who's way up here--and maybe that person should be 
fired, and that's up to the President--but then you've sort of 
taken the--you've sort of taken the pressure off of everybody 
else. And where a lot of the main work is going on is four or 
five levels down, but it's the crucial work. It's the crucial 
work. It's the selection of which piece of information took 
precedence over what, and they should be placed in this group 
or this group, or whatever.
    Is this something which--is this--are you aware of this? I 
mean, I know you're aware of it; I've just talked about it, and 
you've been around a long time. But, I think that kind of thing 
is important.
    Mr. Leiter. Senator, absolutely. And I hope--and I think he 
has--I think the President has had the same thoughts about his 
leadership, wondering if we've just been looking at paper, and 
not moving it as quickly. And I expect that he can ask that 
question. He should ask that question about me, as the Director 
of NCTC, decide if that's the case with me.
    But, on--in terms of the workforce, it is certainly 
something we think about. And I'll tell you that I say 
something to every new class of people that come to NCTC. And I 
know you've met--you've come out and met many of our analysts, 
and you know most of them are 26, 27, 28. And I can tell you 
that the reaction to the events of Christmas Day has just been 
heartbreaking to many of them. Frankly, heartbreaking to me. I 
mean, it--we know that we should have done better. And it is 
traumatic, and we were--obviously dodged a bullet and very 
lucky that something more tragic did not occur. And it has 
been--caused soul-searching for many of us, myself included.
    But, at every introduction to the new class of people 
coming to NCTC, as they rotate through from different agencies, 
I tell them that--at the entrance to our auditorium, there's a 
display that we put up on our fifth anniversary, just a month 
or two ago, which has the remnants of a flag that was recovered 
from the World Trade Center site, a piece of the Pentagon, and 
remnants of the steel--twisted steel from the World Trade 
Center. And I tell every one of them in those classes, ``The 
day that you can no longer walk into this building and look at 
that display and say, `I'm going to do everything I can to 
protect innocent people from getting killed by terrorists', is 
the day that you have to turn in your badge and go find 
something else to do.''
    And I think that this event will cause some people to have 
those thoughts, because the pace is so strenuous, the burnout 
is so high, the pressure is so high. But, my belief is, we 
fundamentally have the right set of people, that they've been 
walking in every day, they've been seeing that display, and 
they've been working as hard as humanly possible, in as 
cooperative a spirit as possible, to make sure events like 
Christmas Day don't happen again.
    The Chairman. And I understand that, and I agree with it. 
You've left the judgment up to the individuals. And I'm saying, 
sometimes the judgment has to come from----
    Mr. Leiter. Absolutely, Mr. Chairman. And to be clear, that 
is a judgment I----
    Mr. Hamilton. Mr. Chairman, let me just add that I'm 
certainly for accountability in government. And if a person 
clearly did not do their job, they ought to pay a penalty for 
that. The immediate problem is to correct the flaws that 
happened. This threat is ongoing; they're plotting, right now, 
how to get at us. And the urgent task--a prior task to 
accountability--is to correct the flaws that have been 
discussed here. That's the priority, from my point of view. 
Accountability, obviously important. But, correcting the flaw 
is more important.
    The Chairman. Congressman----
    Mr. Hamilton. And incidentally, if I may go back a few 
years in history, the Hart-Rudman Commission, we made the 
observation that hiring and firing is a national security 
issue. I think it was, back then; I think it is, today. One of 
the really great weaknesses of our system is that managers like 
Director Leiter do not have the power to hire and to fire.
    The Chairman. Well, that's pretty well put. And that goes 
on the agenda.
    Congressman do you have, in closing, any thoughts that have 
occurred to you? I know you haven't been around very much, and 
don't have much experience, but----
    Mr. Hamilton. Well, I've learned a lot this afternoon, in 
listening to Director Leiter and Secretary Napolitano, and I've 
very much appreciated the opportunity to be with you.
    The questions, I might say, from your Senators, have really 
been excellent and on the mark.
    The only further comment I would make--and this has come up 
in the hearing, but not enough emphasis, from my standpoint--
the fundamental problem--and I think that Director Leiter would 
agree with me here--is the analytical function. And if you want 
to make sure this thing doesn't happen again, many things, 
perhaps, have to happen. But, by all odds, it seems to me, the 
most important thing that has to happen is, you have to 
strengthen this analytical capacity. When you're talking about 
connecting the dots, that's what you're really talking about.
    We have the most remarkable collection ability, in 
producing all of this information, that any government or any 
entity could possibly have. But, analysis needs much, much more 
emphasis. You've got to have better-trained analysis, you've 
got to have--analysts--and more of them. And that would be one 
of my impressions from this hearing.
    The second impression is that the analysts have to have the 
ability to follow up, to pursue a lead and to demand action 
against a potential threat.
    Senator LeMieux. Mr. Chairman?
    The Chairman. Yes?
    Senator LeMieux. I just wanted to offer--is that better? 
Sorry. Broke the microphone.
    You know, we have the finest computing people in the world, 
in this country, whether it's Google or other companies. I know 
folks in Florida who do unbelievable spinning of trillions of 
pieces of data for the private sector. I hope that you feel 
like you've got the freedom to reach out to the smartest minds 
in America to help you, because I know that they would. And I 
don't necessarily mean giving somebody a contract; that's one 
thing, and maybe you need to do that. But, just go out to these 
people, and have them come in and help you, because, you know, 
what Senator Cantwell was talking about with cloud computing 
and all the things that we've done--and I assume you have this. 
But, whatever else you need, you should go get.
    Mr. Leiter. Senator. We absolutely have. We have, over 
several years, reached out to the private sector and the 
National Labs. We are doing so vigorously again now in response 
to this. And if you have particular companies or people that 
you think would be particularly useful, I am more than happy to 
speak with you and make sure we get those folks inside and see 
what our challenges are.
    Senator LeMieux. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    And thank you all, the departed and the present. Thanks for 
your patience.
    Thanks for you, in the audience, who have suffered, been 
through grief.
    Thanks for those of you who have just simply come here to 
listen and to learn and to act out your citizenship.
    This hearing is adjourned.
    [Whereupon, at 5:22 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of the American Civil Liberties Union (Michael W. 
   Macleod-Ball, Acting Director, Washington Legislative Office and 
              Christopher Calabrese, Legislative Counsel)
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee:
    The American Civil Liberties Union (ACLU) has more than half a 
million members, countless additional activists and supporters, and 
fifty-three affiliates nationwide. We are one of the Nation's oldest 
and largest organizations advocating in support of individual rights in 
the courts and before the executive and legislative branches of 
government. In particular, throughout our history, we have been one of 
the Nation's pre-eminent advocates in support of privacy and equality. 
We write today to express our strong concern over the three substantive 
policy changes that are being considered in the wake of the attempted 
terror attack on Christmas Day: the wider deployment of whole body 
imaging (WBI) devices, the expanded use of terror watch lists and 
increased screening of individuals from fourteen so-called nations of 
interest. The ACLU believes that each of these technologies greatly 
infringe on civil liberties and face serious questions regarding its 
efficacy in protecting airline travelers.
    The President has already identified a failure of intelligence as 
the chief cause of the inability to detect the attempted terror attack 
on Christmas Day. As such, the government's response must be directed 
to that end. These invasive and unjust airline security techniques 
represent a dangerous diversion of resources from the real problem. 
This diversion of resources promises serious harm to American's privacy 
and civil liberties while failing to deliver significant safety 
improvements.
I. Introduction
    WBI uses millimeter wave or X-ray technology to produce graphic 
images of passengers' bodies, essentially taking a naked picture of air 
passengers as they pass through security checkpoints. This technology 
is currently deployed at 19 airports and the Department of Homeland 
Security (DHS) recently announced the roll out of 300 more machines by 
year end.\1\ While initially described as a secondary screening 
mechanism, DHS is now stating that WBI will be used for primary 
screening of passengers.\2\
---------------------------------------------------------------------------
    \1\ Harriet Baskas, Air security: Protection at privacy's expense? 
Msnbc.com, January 14, 2010. http://www.msnbc.msn.com/id/34846903/ns/
travel-tips/.
    \2\ Paul Giblin and Eric Lipton, New Airport X-Rays Scan Bodies, 
Not Just Bags, New York Times, February 24, 2007.
---------------------------------------------------------------------------
    Another way of screening passengers is through terror watch lists. 
The terror watch lists are a series of lists of names of individuals 
suspected of planning or executing terrorist attacks. The master list 
is maintained by the Terrorist Screening Center (TSC) and contains more 
than one million names.\3\ Subsets of this list include the No Fly list 
(barring individuals from air travel) and the Automatic Selectee list 
(requiring a secondary screening). The names on this list and the 
criteria for placement on these lists are secret.\4\ There is no 
process allowing individuals to challenge their placement on a list or 
seek removal from a list.
---------------------------------------------------------------------------
    \3\ The Federal Bureau of Investigation's Terrorist Watchlist 
Nomination Practices, Justice Department, Office of the Inspector 
General, Audit Report 09-25, May 2009, pg. 3. http://www.justice.gov/
oig/reports/FBI/a0925/final.pdf.
    \4\ Id. at 70.
---------------------------------------------------------------------------
    Finally, individuals who were born in, are citizens of, or are 
traveling from fourteen nations will receive additional scrutiny under 
a policy announced by the U.S. Government after the attempted terror 
attack. As of January 19, 2010 these nations are Afghanistan, Algeria, 
Cuba, Iran, Lebanon, Libya, Iraq, Nigeria, Pakistan, Saudi Arabia, 
Somalia, Sudan, Syria and Yemen.
    The ACLU believes that Congress should apply the following two 
principles in evaluating any airline security measure:

  <bullet> Efficacy. New security technologies must be genuinely 
        effective, rather than creating a false sense of security. The 
        wisdom supporting this principle is obvious: funds to increase 
        aviation security are limited, and any technique or technology 
        must work and be substantially better than other alternatives 
        to deserve some of the limited funds available. It therefore 
        follows that before Congress invests in technologies or employs 
        new screening methods, it must demand evidence and testing from 
        neutral parties that these techniques have a likelihood of 
        success.

  <bullet> Impact on Civil Liberties. The degree to which a proposed 
        measure invades privacy should be weighed in the evaluation of 
        any technology. If there are multiple effective techniques for 
        safeguarding air travel, the least intrusive technology or 
        technique should always trump the more invasive technology.
II. Screening Techniques and Technologies Must Be Effective, or they 
        Should Not be Utilized or Funded
    The wider deployment of whole body imaging (WBI) devices, expanded 
use of terror watch lists and increased screening of individuals from 
fourteen so-called nations of interest each face significant questions 
regarding their efficacy in protecting air travelers and combating 
terrorism.
Whole Body Imaging
    There are no magic solutions or technologies for protecting air 
travelers. Ben Wallace, a current member of the British parliament who 
advised a research team at QinetiQ, a manufacturer of body screening 
devices, has stated that their testing demonstrated that these 
screening devices would not have discovered a bomb of the type used on 
Christmas day, as they failed to detect low density materials like 
powders, liquids and thin plastics.\5\ A current QinetiQ product 
manager admitted that even their newest body scan technology probably 
would not have detected the underwear bomb.\6\ The British press has 
also reported that the British Department for Transport (DfT) and the 
British Home Office have already tested the scanners and were not 
convinced they would work comprehensively against terrorist threats to 
aviation.\7\
---------------------------------------------------------------------------
    \5\ Jane Merrick, Are Planned Airport Scanners Just a Scam? The 
Independent, January 3, 2010.
    \6\ Id.
    \7\ Id.
---------------------------------------------------------------------------
    In addition we know that al Qaeda has already discovered a way to 
work around this technology. In September a suicide bomber stowed a 
full pound of high explosives and a detonator inside his rectum, and 
attempted to assassinate a Saudi prince by blowing himself up.\8\ While 
the attack only slightly wounded the prince, it fully defeated an array 
of security measures including metal detectors and palace security. The 
bomber spent 30 hours in the close company of the prince's own secret 
service agents--all without anyone suspecting a thing. WBI devices--
which do not penetrate the body--would not have detected this device.
---------------------------------------------------------------------------
    \8\ Sheila MacVicar , Al Qaeda Bombers Learn from Drug Smugglers, 
CBSnews.com, September 28, 2009.
---------------------------------------------------------------------------
    The practical obstacles to effective deployment of body scanners 
are also considerable. In the United States alone, 43,000 TSA officers 
staff numerous security gates at over 450 airports and over 2 million 
passengers a day.\9\ To avoid being an ineffective ``Maginot line,'' 
these $170,000 machines will need to be put in place at all gates in 
all airports; otherwise a terrorist could just use an airport gate that 
does not have them. Scanner operators struggle constantly with boredom 
and inattention when tasked with the monotonous job of scanning 
thousands of harmless individuals when day after day, year after year, 
no terrorists come through their gate. In addition to the expense of 
buying, installing and maintaining these machines, additional personnel 
will have to be hired to run them (unless they are shifted from other 
security functions, which will degrade those functions).
---------------------------------------------------------------------------
    \9\ http://www.tsa.gov/what_we_do/screening/
security_checkpoints.shtm.
---------------------------------------------------------------------------
    The efficacy of WBI devices must be weighed against not only their 
impact on civil liberties (discussed further below) but also their 
impact on the U.S. ability to implement other security measures. Every 
dollar spent on these technologies is a dollar that is not spent on 
intelligence analysis or other law enforcement activity. The President 
has already acknowledged that it was deficiencies in those areas--not 
aviation screening--that allowed Umar Farouk Abdulmutallab to board an 
airplane.
Watch Lists
    The events leading up to the attempted Christmas attack are a 
telling indictment of the entire watch list system. In spite of damning 
information, including the direct plea of Abdulmutallab's father, and 
other intelligence gathered about terrorist activity in Yemen, 
Abdulmutallab was not placed into the main Terrorist Screening 
Database. We believe that fact can be directly attributed to the 
bloated and overbroad nature of the list--now at more than a million 
names. \10\ The size of the list creates numerous false positives, 
wastes resources and hides the real threats to aviation security. As we 
discuss below it also sweeps up many innocent Americans--falsely 
labeling them terrorists and providing them with no mechanism for 
removing themselves from the list.
---------------------------------------------------------------------------
    \10\ DOJ OIG Audit Report 09-25, pg 3. http://www.justice.gov/oig/
reports/FBI/a0925/final.pdf.
---------------------------------------------------------------------------
    These problems are not hypothetical. They have real consequences 
for law enforcement and safety. An April 2009 report from the Virginia 
Fusion Center states

        According to 2008 Terrorism Screening Center ground encounter 
        data, al-Qa'ida was one of the three most frequently 
        encountered groups in Virginia. In 2007, at least 414 
        encounters between suspected al-Qa'ida members and law 
        enforcement or government officials were documented in the 
        Commonwealth. Although the vast majority of encounters involved 
        automatic database checks for air travel, a number of subjects 
        were encountered by law enforcement officers.\11\
---------------------------------------------------------------------------
    \11\ Virginia Fusion Center, 2009 Virginia Terrorism Threat 
Assessment, March 2009, pg 27.

    Every time a law enforcement officer encounters someone on the 
terrorist watch list (as determined by a check of the National Crime 
Information Center (NCIC) database) they contact the TSC. So in essence 
Virginia law enforcement is reporting that there are more than 400 al 
Qaeda terrorists in Virginia in a given year. This is difficult to 
believe.\12\ In reality most, if not all, of these stops are false 
positives, mistakes regarding individuals who should not be on the 
list. These false positives can only distract law enforcement from real 
dangers.
---------------------------------------------------------------------------
    \12\ The report does not state that any of these individuals were 
arrested.
---------------------------------------------------------------------------
    A 2009 report by the Department of Justice Inspector General found 
similarly troubling results. From the summary:

        We found that the FBI failed to nominate many subjects in the 
        terrorism investigations that we sampled, did not nominate many 
        others in a timely fashion, and did not update or remove 
        watchlist records as required. Specifically, in 32 of the 216 
        (15 percent) terrorism investigations we reviewed, 35 subjects 
        of these investigations were not nominated to the consolidated 
        terrorist watchlist, contrary to FBI policy. We also found that 
        78 percent of the initial watchlist nominations we reviewed 
        were not processed in established FBI time frames.

        Additionally, in 67 percent of the cases that we reviewed in 
        which a watchlist record modification was necessary, we 
        determined that the FBI case agent primarily assigned to the 
        case failed to modify the watchlist record when new identifying 
        information was obtained during the course of the 
        investigation, as required by FBI policy. Further, in 8 percent 
        of the closed cases we reviewed, we found that the FBI failed 
        to remove subjects from the watchlist as required by FBI 
        policy. Finally, in 72 percent of the closed cases reviewed, 
        the FBI failed to remove the subject in a timely manner.\13\
---------------------------------------------------------------------------
    \13\ DOJ OIG Audit Report 09-25, pg iv-v. http://www.justice.gov/
oig/reports/FBI/a0925/final.pdf

    This is only the latest in a long string of government reports 
describing the failure of the terror watch lists.\14\ In order to be an 
effective tool against terrorism these lists must shrink dramatically 
with names limited to only those for whom there is credible evidence of 
terrorist ties or activities.
---------------------------------------------------------------------------
    \14\ Review of the Terrorist Screening Center (Redacted for Public 
Release), Justice Department, Office of the Inspector General, Audit 
Report 05-27, June 2005; Review of the Terrorist Screening Center's 
Efforts to Support the Secure Flight Program (Redacted for Public 
Release), Justice Department, Office of the Inspector General, Audit 
Report 05-34, August 2005; Follow-Up Audit of the Terrorist Screening 
Center (Redacted for Public Release), Justice Department, Office of the 
Inspector General, Audit Report 07-41, September 2007; The Federal 
Bureau of Investigation's Terrorist Watchlist Nomination Practices, 
Justice Department, Office of the Inspector General, Audit Report 09-
25, May 2009; DHS Challenges in Consolidating Terrorist Watch List 
Information, Department of Homeland Security, Office of Inspector 
General, OIG-04-31, August 2004; Terrorist Watch Lists Should Be 
Consolidated to Promote Better Integration and Sharing, GAO Report to 
Congressional Requesters, GAO-03-322, April 2003; Congressional Memo 
Regarding Technical Flaws in the Terrorist Watch List, House Committee 
on Science and Technology, August 2008.
---------------------------------------------------------------------------
Aviation Screening on the Basis of Nationality
    Numerous security experts have already decried the use of race and 
national origin as an aviation screening technique.
    Noted security expert Bruce Schneier stated recently:

        [A]utomatic profiling based on name, nationality, method of 
        ticket purchase, and so on . . . makes us all less safe. The 
        problem with automatic profiling is that it doesn't work.

        Terrorists can figure out how to beat any profiling system.

        Terrorists don't fit a profile and cannot be plucked out of 
        crowds by computers. They're European, Asian, African, 
        Hispanic, and Middle Eastern, male and female, young and old. 
        Umar Farouk Abdul Mutallab was Nigerian. Richard Reid, the shoe 
        bomber, was British with a Jamaican father. Germaine Lindsay, 
        one of the 7/7 London bombers, was Afro-Caribbean. Dirty bomb 
        suspect Jose Padilla was Hispanic-American. The 2002 Bali 
        terrorists were Indonesian. Timothy McVeigh was a white 
        American. So was the Unabomber. The Chechen terrorists who blew 
        up two Russian planes in 2004 were female. Palestinian 
        terrorists routinely recruit ``clean'' suicide bombers, and 
        have used unsuspecting Westerners as bomb carriers.

        Without an accurate profile, the system can be statistically 
        demonstrated to be no more effective than random screening.

        And, even worse, profiling creates two paths through security: 
        one with less scrutiny and one with more. And once you do that, 
        you invite the terrorists to take the path with less scrutiny. 
        That is, a terrorist group can safely probe any profiling 
        system and figure out how to beat the profile. And once they 
        do, they're going to get through airport security with the 
        minimum level of screening every time.\15\
---------------------------------------------------------------------------
    \15\ http://roomfordebate.blogs.nytimes.com/2010/01/04/will-
profiling-make-a-difference/.

    Schneier is not alone in this assessment. Philip Baum is the 
---------------------------------------------------------------------------
managing director of an aviation security company:

        Effective profiling is based on the analysis of the appearance 
        and behavior of a passenger and an inspection of the traveler's 
        itinerary and passport; it does not and should not be based on 
        race, religion, nationality or color of skin. . . .

        Equally, the decision to focus on nationals of certain 
        countries is flawed and backward. Perhaps I, as a British 
        citizen, should be screened more intensely given that Richard 
        Reid (a.k.a. ``the Shoebomber'') was a U.K. passport holder and 
        my guess is there are plenty more radicalized Muslims carrying 
        similar passports. Has America forgotten the likes of Timothy 
        McVeigh? It only takes one bad egg and they exist in every 
        country of the world.\16\
---------------------------------------------------------------------------
    \16\ Id.

---------------------------------------------------------------------------
    Former Israeli airport security director Rafi Ron:

        My experience at Ben Gurion Airport in Tel Aviv has led me to 
        the conclusion that racial profiling is not effective. The 
        major attacks at Ben Gurion Airport were carried out by 
        Japanese terrorists in 1972 and Germans in the 1980s. [They] 
        did not belong to any expected ethnic group. Richard Reid 
        [known as the shoe bomber] did not fit a racial profile. 
        Professionally as well as legally, I oppose the idea of racial 
        profiling.\17\
---------------------------------------------------------------------------
    \17\ Katherine Walsh, Behavior Pattern Recognition and Why Racial 
Profiling Doesn't Work, CSO Online, (Feb. 1, 2006), at: http://
www.csoonline.com/article/220787/Behavior_Pattern
_Recognition_and_Why_Racial_Profiling_Doesn_t_Work.

    This should be the end of the discussions. Policies that don't work 
have no place in aviation security. When they are actively harmful--
wasting resources and making us less safe--they should be stopped as 
quickly as possible.
III. The Impact on Privacy and Civil Liberties Must be Weighed in Any 
        Assessment of Aviation Security Techniques
    Each of the three aviation security provisions discussed in these 
remarks represents a direct attack on fundamental American values. As 
such they raise serious civil liberties concerns.
Whole Body Imaging
    WBI technology involves a striking and direct invasion of privacy. 
It produces strikingly graphic images of passengers' bodies, 
essentially taking a naked picture of air passengers as they pass 
through security checkpoints. It is a virtual strip search that reveals 
not only our private body parts, but also intimate medical details like 
colostomy bags. Many people who wear adult diapers feel they will be 
humiliated. That degree of examination amounts to a significant assault 
on the essential dignity of passengers. Some people do not mind being 
viewed naked but many do and they have a right to have their integrity 
honored.
    This technology should not be used as part of a routine screening 
procedure, but only when the facts and circumstances suggest that it is 
the most effective method for a particular individual. And such 
technology may be used in place of an intrusive search, such as a strip 
search--when there is reasonable suspicion sufficient to support such a 
search.
    TSA is also touting privacy safeguards including blurring of faces, 
the non-retention of images, and the viewing of images only by 
screeners in a separate room. Scanners with such protections are 
certainly better than those without; however, we are still skeptical of 
their suggested safeguards such as obscuring faces and not retaining 
images.
    Obscuring faces is just a software fix that can be undone as easily 
as it is applied. And obscuring faces does not hide the fact that rest 
of the body will be vividly displayed. A policy of not retaining images 
is a protection that would certainly be a vital step for such a 
potentially invasive system, but it is hard to see how this would be 
achieved in practice. TSA would almost certainly have to create 
exceptions--for collecting evidence of a crime or for evaluation of the 
system (such as in the event of another attack) for example--and it is 
a short step from there to these images appearing on the Internet.
    Intrusive technologies are often introduced very gingerly with all 
manner of safeguards and protections, but once the technology is 
accepted the protections are stripped away. There are substantial 
reasons for skepticism regarding TSA promised protections for WBI 
devices. In order for these protections to be credible Congress must 
enshrine them in law.
    Finally, the TSA should invest in developing other detection 
systems that are less invasive, less costly and less damaging to 
privacy. For example, ``trace portal detection'' particle detectors 
hold the promise of detecting explosives while posing little challenge 
to flyers' privacy. A 2002 Homeland Security report urged the 
``immediate deployment'' of relatively inexpensive explosive trace 
detectors in European airports, as did a 2005 report to Congress, yet 
according to a 2006 Associated Press article, these efforts ``were 
frustrated inside Homeland Security by `bureaucratic games, a lack of 
strategic goals and months-long delays in distributing money Congress 
had already approved.'' \18\ Bureaucratic delay and mismanagement 
should not be allowed to thwart the development of more effective 
explosive detection technologies that do not have the negative privacy 
impact of WBI devices.
---------------------------------------------------------------------------
    \18\ John Solomon, Bureaucracy Impedes Bomb Detection Work, 
Washington Post, Aug. 12, 2006, at: http://www.washingtonpost.com/wp-
dyn/content/article/2006/08/12/AR2006081200
269.html.
---------------------------------------------------------------------------
Watch Lists
    The creation of terrorist watch lists--literally labeling 
individuals as a terrorist--has enormous civil liberties impact. It 
means ongoing and repetitive harassment at all airports--foreign and 
domestic, constant extra screening, searches and invasive questions. 
For the many innocent individuals on the lists this is humiliating and 
infuriating.
    For some it is worse. Individuals on the No Fly List are denied a 
fundamental right, the right to travel and move about the country 
freely. Others are threatened with the loss of their job. Erich 
Sherfen, commercial airline pilot and Gulf War veteran, has been 
threatened with termination from his job as a pilot because his name 
appears on a government watch list, which prevents him from entering 
the cockpit.\19\ Sherfen is not the only innocent person placed on a 
terror watch list. Others individual who are either on a list or 
mistaken for those on the list include a former Assistant Attorney 
General, many individuals with the name Robert Johnson, the late 
Senator Edward Kennedy and even Nelson Mandela.\20\
---------------------------------------------------------------------------
    \19\ Jeanne Meserve, Name on government watch list threatens 
pilot's career, CNN.com, August 22, 2008, http://www.cnn.com/2008/US/
08/22/pilot.watch.list/index.html?iref=newssearch.
    \20\&& For details on these individuals and many other please see: 
http://www.aclu.org/technology-and-liberty/unlikelysuspects.
---------------------------------------------------------------------------
    The most recent case--revealed just last week--is that of Mikey 
Hicks, an 8 year old boy who has been on the selectee list seemingly 
since birth. According to Hicks' family their travel tribulations that 
began when Mikey was an infant. When he was 2 years old, the kid was 
patted down at airport security. He's now, by all accounts, an 
unassuming bespectacled Boy Scout who has been stopped every time he 
flies with his family.\21\
---------------------------------------------------------------------------
    \21\ Lizette Alvarez, Meet Mikey, 8: U.S. Has Him on Watch List, 
New York Times, January 13, 2010.
---------------------------------------------------------------------------
    In addition, to stops at the airport watch list information is also 
placed in the National Criminal Information Center database. That means 
law enforcement routinely run names against the watch lists for matters 
as mundane as traffic stops. It's clear that innocent individuals may 
be harassed even if they don't attempt to fly.
    Nor is there any due process for removing individuals from the 
list--there is simply no process for challenging the government's 
contention that you are a terrorist. Even people who are mistaken for 
those on the list face challenges. A September 2009 report by the 
Inspector General of the Department of Homeland Security found that the 
process for clearing innocent travelers from the list is a complete 
mess.\22\
---------------------------------------------------------------------------
    \22\ Effectiveness of the Department of Homeland Security Traveler 
Redress Inquiry Program, Department of Homeland Security, Office of the 
Inspector General OIG 09-10, September 2009. http://www.dhs.gov/xoig/
assets/mgmtrpts/OIG-09-103r Sep09.pdf.
---------------------------------------------------------------------------
    In light of the significant and ongoing harm to innocent Americans 
as well as the harm to our national security caused by the diversion of 
security resources these watch lists must be substantial reduced in 
size and fundamental due process protections imposed. Innocent 
travelers must be able to remove themselves from the list both for 
their sake and the sake of national security.
Aviation Screening on the Basis of Nationality
    This history of the civil rights movement in the 20th and 21st 
Century is a long, compelling rejection of the idea that individuals 
should be treated differently on the basis of their race or nation of 
origin. Because of that, the administration's decision to subject the 
citizens of fourteen nations flying to the United States to intensified 
screening is deeply troubling. Longstanding constitutional principles 
require that no administrative searches, either by technique or 
technology, be applied in a discriminatory matter. The ACLU opposes the 
categorical use of profiles based on race, religion, ethnicity, or 
country of origin. This practice is nothing less than racial profiling. 
Such profiling is ineffective and counter to American values.
    But the harm that profiling on the basis of national origin does to 
civil liberties is not an abstraction--it also has direct impact on 
American security interests. These harmful policies have a direct 
impact on the Muslim and Arab communities. The Senate Homeland Security 
and Government Affairs committee has heard testimony from several 
witnesses who cited the growth of Islamophobia and the polarization of 
the Muslim community as risk factors that could raise the potential for 
extremist violence.\23\ Unfairly focusing suspicion on a vulnerable 
community tends to create the very alienation and danger that we need 
to avoid.
---------------------------------------------------------------------------
    \23\ See for example, Hearing of the Senate Homeland Security and 
Governmental Affairs Committee, Violent Islamist Extremism: The 
European Experience, (June 27, 2007), particularly the testimony of 
Lidewijde Ongering and Marc Sageman, available at: http://
hsgac.senate.gov/public/
index.cfm?FuseAction=Hearings.Hearing&Hearing_ID=9c8ef805-75c8-48c2-
810dd778af31
cca6.
---------------------------------------------------------------------------
    Indeed a recent United Kingdom analysis based on hundreds of case 
studies of individuals involved in terrorism reportedly identified 
``facing marginalization and racism'' as a key vulnerability that could 
tend to make an individual receptive to extremist ideology.\24\ The 
conclusion supporting tolerance of diversity and protection of civil 
liberties was echoed in a National Counterterrorism Center (NCTC) paper 
published in August 2008. In exploring why there was less violent 
homegrown extremism in the U.S. than the U.K., the authors cited the 
diversity of American communities and the greater protection of civil 
rights as key factors.\25\
---------------------------------------------------------------------------
    \24\ Alan Travis, ``MI5 Report Challenges Views on Terrorism in 
Britain,'' The Guardian, (August 20, 2008) at: http://
www.guardian.co.uk/uk/2008/aug/20/uksecurity.terrorism1 and; Alan 
Travis, ``The Making of an Extremist,'' The Guardian (Aug. 20, 2008) 
at: http://www.guar
dian.co.uk/uk/2008/aug/20/uksecurity.terrorism.
    \25\ National Counterterrorism Center Conference Report, Toward a 
Domestic Counterradicalization Strategy, (August 2008).
---------------------------------------------------------------------------
    At the January 7, 2009 White House briefing regarding the security 
failures surrounding the Christmas attack, DHS Secretary Janet 
Napolitano raised a question about ``counterradicalization.'' \26\ She 
asked, ``How do we communicate better American values and so forth, in 
this country but also around the globe?'' Of course the Secretary 
should know American values are communicated through U.S. Government 
policies, which is why adopting openly discriminatory policies can be 
so damaging and counterproductive to our national interests.
---------------------------------------------------------------------------
    \26\ Briefing by Homeland Security Secretary Napolitano, Assistant 
to the President for Counterterrorism and Homeland Security Brennan, 
and Press Secretary Gibbs, 1/7/10, at: http://www.whitehouse.gov/the-
pressoffice/briefing-homeland-security-secretary-napolitano-assis
tant-president-counterterroris.
---------------------------------------------------------------------------
IV. Conclusion
    Ultimately security is never absolute and never will be. It is not 
wise security policy to spend heavily to protect against one particular 
type of plot, when the number of terrorist ideas that can be hatched--
not only against airlines, but also against other targets--is 
limitless. The President has identified a failure ``connect the dots'' 
by intelligence analysts as the main reason that Umar Farouk 
Abdulmutallab was able to board a flight to the U.S.\27\ We must not 
lose sight of that reality. Limited security dollars should be invested 
where they will do the most good and have the best chance of thwarting 
attacks. That means investing them in developing competent intelligence 
and law enforcement agencies that will identify specific individuals 
who represent a danger to air travel and arrest them or deny them a 
visa.
---------------------------------------------------------------------------
    \27\ Jake Tapper and Sunlen Miller, Obama: Intelligence Community 
Failed to ``Connect the Dots'' in a ``Potentially Disastrous Way", 
ABCNews.com, January 05, 2010. http://blogs.abcnews.com/politicalpunch/
2010/01/obamaintelligence-community-failed-to-connect-the-dots-in-a-
potentially-disastrous-way.html.
---------------------------------------------------------------------------
    Invasive screening mechanisms, enlarging already bloated watch 
lists, targeting on the basis of national origin--none of these 
approaches go to the heart of what went wrong on Christmas day. Instead 
they are a dangerous sideshow--one that harms our civil liberties and 
ultimately makes us less safe.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                         Hon. Michael E. Leiter
    Question 1. I understand there is a complex system the intelligence 
services and the NCTC use to adjudicate whether or not an individual is 
placed on a watch list. Does everyone involved in the system, including 
State Consular officers in country, understand the information that 
must be supplied in order to add an individual to the No Fly list?
    [This answer has been designated ``For Official Business Only'' and 
has been provided to Senator Warner.]

    Question 2. Please describe the data mining tools available to NCTC 
analysts. What commercial search technology is being leveraged? Does 
NCTC work with companies such as Google to improve its search 
technologies and database managing?
    [This answer has been designated ``Classified'' and has been 
provided to Senator Warner.]

    Question 3. How many intelligence databases relating to terrorism 
exist in the U.S. Government? How many are fully integrated?
    [This answer has been designated ``Classified'' and has been 
provided to Senator Warner.]

    Question 4. How are critical pieces of intelligence regarding 
threats to the homeland identified? Is it solely dependent on human 
input/action?
    [This answer has been designated ``For Official Business Only'' and 
has been provided to Senator Warner.]
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Michael E. Leiter
    Question 1. The suspect in this case had a valid visa to travel the 
U.S. Why wasn't Mr. Abdulmutallab's visa revoked, and what are the 
criteria by which a visa is revoked?
    This answer was forwarded to the Department of State as requested 
by NCTC and is answered below:
    Answer from the Department of State. In accordance with procedures 
in place at the time, upon receiving the information provided, the 
consular officer forwarded a Visas Viper report to the National 
Counterterrorism Center (NCTC) for a determination regarding whether 
the information was sufficient to watchlist Mr.Abdulmutallab. At that 
point the intelligence and law enforcement communities determine if 
there is sufficient information to list him in the Terrorist Screening 
Database. That action would have triggered notification to State. The 
State Department as a matter of standard procedure would have 
prudentially revoked the visa absent any law enforcement or 
intelligence community interest in not doing so, or some other valid 
reason (such as waiver of ineligibility approved by the Department of 
Homeland Security). In this case, as NCTC did not forward 
Abdulmutallab's name and biodata to the Terrorist Screening Center, and 
as there was no indication from the information provided to the USG in 
Abuja that he posed any immediate threat to the United States, there 
was no basis for a prudential revocation of his visa.
    In this case, information in the Visas Viper report on Mr. 
Abdulmutallab did not meet the minimum derogatory standard to 
watchlist. The Department's procedures now require that Visas Viper 
cables contain information regarding an applicant's visa status, and it 
is our policy to revoke any visa held by the subject of a Visas Viper 
cable, absent any law enforcement or intelligence community interest in 
not doing so, or some other valid reason (such as waiver of 
ineligibility approved by the Department of Homeland Security).

    Question 2. What are the criteria by which a visa is revoked?
    Answer from the Department of State. Visas may be revoked by a 
consular officer abroad or by the Department. A consular officer abroad 
may revoke a visa only when he or she has made an actual finding that 
the holder is ineligible for a visa. When a consular officer abroad 
wishes to revoke a visa in a category that requires a Security Advisory 
Opinion (SAO),<SUP>*</SUP> the officer must first seek the SAO but may 
request it be expedited. The consular officer may also request that the 
Department revoke the visa.
---------------------------------------------------------------------------
    \*\ The Security Advisory Opinion is the mechanism used by the 
Department of State to provide consular officers advice and background 
information to adjudicate visa applications abroad in cases of security 
or foreign policy interest.
---------------------------------------------------------------------------
    The Department has broad discretion and may revoke a visa even if a 
ground of ineligibility is merely suspected. The normal process is for 
the case to undergo an interagency review first although the Department 
sometimes revokes visas without consulting other U.S. Government 
agencies. However, interagency coordination offers many benefits, 
including giving U.S. Government agencies with law enforcement or 
intelligence equities in the case the opportunity to provide input into 
the Department of State's decision to revoke or not.

    Question 3. Are there any information-sharing barriers that 
contributed to the failure to place Mr. Abdulmutallab on the selectee 
or No Fly watch list?
    [This answer has been designated ``For Official Business Only'' and 
has been provided to Senator Begich.]
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 
                         Hon. Michael E. Leiter
    Question 1. While the preliminary review of this incident suggests 
a failure to connect-the-dots, rather than a failure to share 
information, your analysts were apparently deprived of at least some 
information: The State Department cable--perhaps due to a simple 
misspelling--failed to indicate that this would-be terrorist held a 
U.S. visa; and press reports indicate that a contemporaneous report 
authored by the CIA was also not shared in a timely manner. The 
Washington Post reported on January 12 that ``lack of information about 
Abdulmutallab's open visa affected the NCTC's determination of the 
threat he presented and thus the list he was put on.'' Do you agree? If 
your analysts had had the visa information or the CIA report, do you 
think they would have recommended watch-listing for this subject?
    Answer. A classified response was submitted to the Senate Commerce 
Committee.

    Question 2. You testified that, in recent years, the watchlisting 
community has been pressured to shrink the size of the No Fly and 
Selectee Lists. In the Department of Homeland Security Appropriations 
Act of 2008 (Public Law 110-161, Division E, Title II), however, 
Congress expressed its concern about the fact that the full TSDB was 
not being used for airline passenger screening by requiring the 
Assistant Secretary of Homeland Security (Transportation Security 
Administration) to certify ``that no significant security risks are 
raised by screening airline passenger names only against a subset of 
the full terrorist watch list.'' Would you agree that, notwithstanding 
calls to improve the screening process to minimize false-positive 
matches, Congress has applied pressure to use the full TSDB for airline 
passenger screening?
    Answer. A classified response was submitted to the Senate Commerce 
Committee.

    Question 3. The media has reported that, on November 13, 2009, a 
Somali man was stopped in Mogadishu attempting to board a commercial 
air carrier flight while carrying powdered chemicals, liquid, and a 
syringe that could have been used as an explosive device. In addition 
to the Somali incident, news accounts state that investigators ``are 
hoping to compare the remnants of a similar explosive device used in an 
August attempt to kill a senior Saudi government official to determine 
whether it employed the same technology and possibly was constructed by 
the same bombmaker'' as Mr. Abdulmutallab's device. (See Karen DeYoung 
& Michael A. Fletcher, The Washington Post, ``Obama: Security Agencies 
Failed,'' January 6, 2010.) Moreover, on January 15, 2010, the press 
reported that Al Qaeda in the Arabian Peninsula may be currently 
planning more attacks on the U.S. (Eric Lipton, The New York Times, 
``Possibility of Plots Prompts More Checks for Explosives at 
Airports,'' January 15, 2010.) Given NCTC's role as ``the primary 
organization in the U.S. Government for analyzing and integrating all 
intelligence possessed or acquired by the USG pertaining to 
[international] terrorism and counterterrorism'' (Public Law 108-458), 
do you assess that these incidents are connected? Do you believe Mr. 
Abdulmutallab's attempted attack was part of a larger conspiracy or 
series of planned attacks?
    Answer. A classified response was submitted to the Senate Commerce 
Committee.

    Question 4. Yemeni authorities have reportedly acknowledged that 
Mr. Abdulmutallab met with radical Yemeni cleric Anwar at Awlaki last 
fall in Yemen. (See, e.g., Haley Sweetland Edwards, the Los Angeles 
Times, ``Yemen's Role Minimized,'' January 8, 2010.) At the hearing, 
you testified that intelligence about the Yemeni cleric and his 
associates had been scrubbed based on his association with Major Nidal 
M. Hasan, who is charged with killing 13 people at Fort Hood, Texas, in 
November 2009. In response to a question from Senator Ensign, however, 
you stated that no communications between the cleric and Mr. 
Abdulmutallab had been intercepted before December 25, 2009. Please 
describe, in a classified response if necessary, what, if any, 
intelligence about the connection between Mr. Abdulmutallab and Anwar 
al Awlaki was known before December 25, 2009.
    Answer. A classified response was submitted to the Senate Commerce 
Committee.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Hon. Michael E. Leiter
    Question 1. The findings of the Administration's report released 
January 7, 2010, reviewing the intelligence failures leading up to 
Christmas Day, 2009, concluded ``the information that was available to 
analysts, as is usually the case, was fragmented and embedded in a 
large volume of other data,'' and that both ``NCTC and CIA personnel 
who are responsible for watch-listing did not search all available 
databases to uncover additional derogatory information that could have 
been correlated with Mr. Abdulmutallab.'' It is my understanding that 
most intelligence analysis is currently a process of manual searches of 
various databases.
    It strikes me that this could easily reoccur, based on Director 
Leiter's testimony concerning the vast volume of data processed by the 
NCTC on a daily, if not hourly, basis. The Administration's review 
makes clear that the current intelligence-sorting processes today could 
be improved by utilizing technology that can be programmed to 
differentiate among specific types of threats, assign roles and 
responsibilities to each, and manage the response and escalation 
procedures, including the follow-up on such threats. Could this 
potential gap be remedied with automation?
    Is the Department or the NCTC actively developing, or seeking, 
technology that can process such large volumes of data effectively, not 
missing intelligence-gathering opportunities, and if so, when will such 
technology be operational?
    Answer. The NCTC submitted a classified response to the Senate 
Commerce Committee.

    Question 2. Although our security and intelligence networks 
constantly are working to keep America safe, and their efforts have 
thwarted numerous terrorist attempts, it is evident that the existing 
workforce is spread thinly in many areas, and could face an even 
greater burden if heightened security measures are put in place. While 
I believe personnel increases would go a long way toward minimizing the 
risks we now face, I believe in some cases technology could reduce 
human errors and the failure to consider pertinent and currently 
inaccessible data or pass it on to other relevant parties. Do you 
believe the Department of Homeland Security and the Counter-Terrorism 
Center has sufficient resources to secure the latest technologies that 
would allow us to close these gaps?
    Answer. Since the events of 12/25, NCTC has worked closely with the 
ODNI and the White House to address resource shortfalls related to both 
technology and personnel. Because the ODNI is seeking to determine how 
to optimize technological solutions across the IC, no final 
determination has been made as to what solution, or solutions, will be 
pursued for the Community. However, in the interim, the ODNI and White 
House have submitted, as part of the Overseas Contingency Operations 
request for FY 2010 and FY 2011, a robust program for NCTC to address 
our most pressing issues and to lay the ground work for addressing the 
findings of the ODNI directed studies. Should these studies indicate 
that additional requirements are necessary; the results will be the 
subject of further discussions with the ODNI and White House, as part 
of the FY 2012 program build.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Hon. Janet Napolitano
    Question 1. Has the Department of Homeland Security (DHS) given 
appropriate consideration to tightening the standards by which they 
certify security at foreign airports or increasing its oversight of 
security compliance at foreign airports? How often does DHS or TSA 
conduct audits of foreign airports? What is the biggest challenge that 
the U.S. security system confronts when working in the international 
environment?
    Answer. As required by 49 U.S.C.  114 (f)(14), the Transportation 
Security Administration (TSA) continues to work with the International 
Civil Aviation Organization (ICAO) and appropriate authorities of 
foreign governments to address security concerns and standards for 
passenger flights by international air carriers.
    Under 49 U.S.C.  44907, TSA is charged with assessing all foreign 
airports from which flights operate to the United States and those at 
which U.S. air carriers operate (regardless of the destination). TSA 
has a cadre of Security Specialists who visit the nearly 300 airports 
at intervals between one and 3 years. The frequency of the visits is 
based on risk analysis of current threat, documented vulnerabilities, 
and flight data. More frequent assessments are conducted if 
circumstances warrant, including previous deficiencies requiring 
follow-up visits, recent threat information, start-up service requests, 
and infrastructure changes at a particular foreign airport (e.g., Haiti 
earthquake).
    As signatories to the Convention on International Civil Aviation of 
1944 (Chicago Convention), all Contracting States are required to 
provide for the security of their airports serving international civil 
aviation and the security screening of passengers and property prior to 
boarding an aircraft engaged in international civil aviation 
operations, in accordance with the Standards of Annex 17 to the Chicago 
Convention as established by ICAO. ICAO is the United Nations' 
specialized agency that oversees international civil aviation safety 
and security matters. ICAO's Universal Security Audit Program (USAP) 
oversees and monitors each Contracting State's implementation of and 
compliance with the international security standards ICAO has 
established. Under the USAP's current framework, the audit results are 
highly confidential. TSA has been working through ICAO's Aviation 
Security Panel to enhance the USAP's effectiveness and oversight 
capabilities and to increase the transparency of the USAP audit results 
among Contracting States. TSA fully supports the ICAO USAP, and 
routinely provides technical experts to serve on USAP audit teams.
    As a result of these international obligations, nearly every 
Contracting State to ICAO has established its own national legislation 
governing civil aviation security and its airports serving 
international civil aviation in its territory and under its 
jurisdiction. Through TSA's Foreign Airport Assessment Program, TSA 
works closely with its foreign government counterparts to ensure these 
international standards are effectively implemented at all foreign 
airports with service to the United States or that are otherwise served 
by U.S. air carriers. Moreover, TSA works with these partners to ensure 
that special enhanced security measures for U.S. air carriers and all 
flights to the United States are also implemented, to the extent these 
foreign government authorities are responsible for carrying out such 
requirements and oversee air carrier security operations at their own 
airports, under their national laws. Given the different legal regimes 
within which other civil aviation authorities operate, most of TSA's 
foreign government counterparts address international aviation security 
responsibilities differently than in the United States, resulting in 
divergent authorities and shared responsibilities. As a result, 
implementation and sustainment of measures frequently proves difficult. 
TSA continues to actively engage with our international partners to 
ensure the security of flights bound for the United States and to 
enhance the overall security of international civil aviation.

    Question 2. Will smaller airports be utilized in the initial run up 
of WBI machines this year?
    Answer. Transportation Security Administration (TSA) deployment 
strategies for security technologies are based on risk, airport 
readiness, and operational suitability, as well as facility 
constraints. Many of these deployment factors make it is less likely 
that smaller airports will be slated to receive initial AIT systems. By 
the end of 2010, TSA expects to have 450 units deployed and has 
budgeted for an additional 500 units in 2011. However, TSA will 
continue to work toward full deployment of AIT systems, to include all 
category X (largest airports) through category IV airports (smallest 
airports). This would require a total of approximately 1,800 units.

    Question 3. Do you have any concerns that an inability to apply 
advance screening technologies across the entire system will leave 
vulnerabilities in the aviation security system that could be exploited 
by terrorist?
    Answer. The Transportation Security Administration employs a 
layered security approach that combines technology and process to 
address the wide variety of aviation security threats. While Advanced 
Imaging Technology (AIT) provides enhanced capabilities to detect 
person-borne threats, other technologies and screening processes, such 
as explosives trace detectors and pat-downs, are used to increase the 
probability of threat detection when an AIT is not available or 
installed at the checkpoint.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Hon. Janet Napolitano
    Question 1. TSA is reportedly not positive whether a full body 
imaging machine would have picked up on the explosives Abdulmutallab 
was carrying, but some suggest that it would have; but, if a passenger 
can elect a pat-down instead of going through an AIT machine, is TSA 
confident a pat-down would have been effective in this case?
    Answer. While no technologies or procedures will detect 100 percent 
of all threats, the pat-down is the Transportation Security 
Administration's (TSA) designated alternate screening procedure if an 
individual declines to be screened by the advanced imaging technology. 
TSA is adding procedures to increase our ability to detect explosives 
on individuals and in accessible property. TSA is also reviewing its 
pat-down procedures to improve explosive detection capabilities.

    Question 2. Are current TSA regulations for flight attendant 
counterterrorism training sufficient and effective?
    Answer. The current Transportation Security Administration (TSA) 
regulations for flight attendant security training are sufficient and 
effective. Current flight attendant security training is required by 49 
U.S.C.  44918, enacted by section 603 Vision-100 Century of Aviation 
Reauthorization Act, Public Law 108-176 (2003), and title 49, Code of 
Federal Regulations (49 CFR, Part 1544). Title 49 CFR 1544, Subpart B 
requires the aircraft operators to adopt and implement a security 
program. The specific elements of flight attendant security training 
are outlined in the Aircraft Operator Standard Security Program. 
Section 44918 requires aircraft operators to develop and submit crew 
security training to TSA for review and approval; that approval 
function is delegated to the operators' assigned TSA Principal Security 
Inspector (PSI). Each air carrier has submitted a training program that 
has been determined to be acceptable by the PSI.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Hon. Janet Napolitano
    Question 1. Without security cameras, TSA would not have been able 
to verify the security breach at Newark Airport or identify the 
suspect. Should all airports, particularly the largest and most at-
risk, have security cameras at all checkpoints and secure area exits? 
How many airports currently do not have security cameras at security 
checkpoints and exits?
    Answer. The Transportation Security Administration (TSA) encourages 
airports to have video surveillance capabilities with available and 
immediate access to views and video recordings at security checkpoints 
and secure area exits. A TSA survey of airports indicates that most 
large airports do have security cameras at checkpoints.

    Question 2. In the Newark Airport breach, the security of a busy, 
heavily traveled exit was left to just one TSA guard. The suspect was 
able to sneak in when that lone guard was distracted. What are you 
doing to fortify security at secure area exits?
    Answer. The exit lane breach at Newark Liberty International 
Airport has been discussed with every Federal Security Director (FSD) 
in the Nation, focusing on the specific exit lane failure at Newark, 
remediation measures taken there, and mitigation efforts to avoid 
similar breaches at other airports. All FSDs have been instructed in 
writing to review their local exit lane procedures with their senior 
staff and to increase the frequency of local breach drills.
    In addition, TSA will be executing an Exit Lane Breach Control 
Pilot early this summer to establish a set of initial capabilities for 
an Exit Lane Breach Control system that will deter, prevent, or render 
ineffective an attempt to use the exit lane as a means to bypass a 
security checkpoint.

    Question 3. The suspect in the Newark Airport security breach is 
being charged under New Jersey state law with ``defiant trespassing.'' 
In other cases around the country, individuals who purposely breached 
security at airport exits also walked away with a slap on the wrist. Is 
deterring and prosecuting these offenders a national security issue 
that should rest with the Federal Government, rather than individual 
states or local governments?
    Answer. A wide range of sanctions, under Federal and State law, 
should be available to law enforcement and prosecutors. Because the 
circumstances surrounding these types of violations can vary 
tremendously from unintentional breaches of security to criminal and 
willful conduct, the more varied the legal options the better equipped 
the prosecutor is to seek the appropriate sanction. Under Federal law 
there are significant penalties for those persons who knowingly and 
willfully enter an aircraft or airport area in violation of security 
requirements (49 U.S.C. 46314); for those who interfere with security 
screening personnel (49 U.S.C. 46503, which includes an enhanced 
penalty of life imprisonment if the crime involves use of a dangerous 
weapon); or those who attempt to board an aircraft with a dangerous and 
concealed weapon or explosive (49 U.S.C. 46505).

    Question 4. At a Senate Judiciary Committee hearing this past 
November, Attorney General Holder expressed his support for my 
legislation to close the Terror Gap that allows known and suspected 
terrorists to buy guns legally. Does the Department of Homeland 
Security also support closing this loophole?
    Answer. The Administration does not have a formal position on S. 
1317 at this time.

    Question 5 In the 9/11 Act, Congress required TSA to conduct a 
pilot project to test different security technologies at airport secure 
area exits. It's been over two and half years since this Act was signed 
into law, but TSA has yet to complete this pilot project. Why hasn't 
the Department completed this important project and what is the 
Administration doing to strengthen security at airport secure area 
exits?
    Answer. In June 2009, the Transportation Security Administration 
(TSA) issued a solicitation for the piloting of exit lane technology 
systems at Dallas Fort Worth International Airport and Seattle-Tacoma 
International Airport and is working closely with the airport 
authorities to implement the project. The negotiation process with the 
vendors should begin in March 2010 and take approximately 30 days to 
complete. The National Laboratories, under the Department of Energy, 
will be working with TSA and the airport authorities on the evaluation 
and demonstration effort.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                         Hon. Janet Napolitano
    Question 1. What is being done to improve the situation regarding 
our TSA workforce? TSA employee morale is very low and attrition rates 
at the agency are unusually high. I've heard from airports in my home 
state that say screening equipment is not being adequately staffed. 
What are we doing to make sure that TSA has a robust and capable staff?
    Answer. The Transportation Security Administration's (TSA) morale 
and attrition have improved over the last year. TSA's attrition for 
2009 was 10 percent. This is a 48 percent reduction from 2008, which 
had an attrition rate of 19 percent, and is less than the government-
wide rate of 11 percent as reported by the Bureau of Labor Statistics.
    Our workforce survey results have consistently shown improvements 
in our employees' job satisfaction beginning at 45 percent on the 2004 
Federal Human Capital Survey (FHCS) to TSA's most recent 2008 
Organizational Satisfaction Survey (OSS) where 64 percent of employees 
were satisfied with their job. Analysis shows that across survey 
efforts (e.g., OSS, the Department of Homeland Security All Employee 
Survey, and the FHCS) TSA's overall job satisfaction can be further 
improved by continuing to focus on the areas of improving the quality 
of leadership and continuing to involve employees in decisions that 
affect the workforce. In the 2008 FHCS, the most recent comprehensive 
survey for which data is available, there were improvements in many 
dimensions. Notable category results include: TSA's ``Employee Skills/
Mission Match'' score went up by 8 percent, ``Performance-Based 
Rewards'' score went up by 16 percent, and ``Training and Development'' 
improved by more than 12 percent. The ``Support for Diversity'' score 
increased by nearly 19 percent, ``Pay and Benefits'' went up by 8 
percent, and ``Work/Life Balance'' improved by 23 percent. TSA's 
biggest gains were in the ``Effective Leadership'' category, where the 
scores improved by 25 percent.
    TSA is committed to making the agency a collaborative and engaging 
workplace, and encourages employee involvement in meeting this goal. In 
addition, TSA provides extensive training to Transportation Security 
Officers (TSOs) to maintain a highly capable and robust staff. TSO 
training includes basic training for initial hires, on-the-job 
training, lead and supervisory technical training, recurrent training, 
advanced technical skills training, remedial training, and return-to-
duty training. TSOs were also trained on ENGAGE!, an extensive 
retraining program that brought together the latest thinking from 
intelligence, explosives detection, and inhuman factors that can affect 
security. TSA also has implemented employee development programs such 
as the Career Evolution Program and the Associates Program. The TSA 
Career Evolution Program (CEP) is a hiring initiative, for internal 
candidates only, designed to identify and maximize the incredible 
talents and experience of our diverse workforce. The program is an 
exceptional opportunity for intensive training in the stimulating 
environment of TSA Headquarters.
    The TSA Associates Program Pilot is a Career Development Program 
for our Transportation Security Officers (TSO's) to help them to 
achieve an Associate's Degree in Homeland Security with the initial 
three courses at their work place. Currently, less than 10 percent of 
TSO's have an associate's degree and higher. As this program is 
implemented in a wider scope it will allow our diverse workforce the 
opportunity to further their education, thus affording them more 
opportunities for advancement within the agency.
    Currently, all screening equipment is fully staffed. To ensure that 
the screening equipment will continue to be fully staffed, the Fiscal 
Year 2011 budget request for additional equipment also includes a 
request for TSO and support staff.

    Question 2. With all the focus on screening equipment hardware, 
there is also promising technology in the form of threat detection and 
identification software. More effective threat detection software and 
imaging analysis technology could serve as a good complement to scanner 
equipment that we are employing. What efforts have DHS and TSA taken to 
employ threat detection and identification software as part of its 
security program? Do you have standards in place for the threat 
detection software that is being used in conjunction with scanner 
equipment being used at TSA checkpoints?
    Answer. Currently, the Transportation Security Administration is 
exploring the development of Automated Targeting (ATR) software. The 
goal is to utilize ATR detection algorithms to provide comparable 
detection capabilities without the need of an image interpretation 
operator. The Department of Homeland Security Science and Technology 
Directorate is also working to develop data input and output standards 
under the Digital Imaging Communications on Systems program.

    Question 3. I am sure you recall the conversation we had last time 
you were before this committee concerning TSA's refusal to reimburse 
airports around the country that had, on good faith, installed in-line 
explosive detection equipment at the request of TSA. As we work toward 
securing our aviation system, it is important that TSA work in close 
cooperation with our airports on security initiatives. What is the TSA 
doing to include, coordinate and share information with the airport 
operators around the country who have first responder responsibilities 
for aviation security events?
    Answer. The Transportation Security Administration (TSA) has 
established many programs to coordinate and share information with the 
airport operators around the country who have first responder 
responsibilities for aviation security events, both from the local and 
the headquarters level. At many airports located around the country, 
the Federal Security Director (FSD) has an Assistant Federal Security 
Director for Law Enforcement on staff to interact with local operators 
regarding aviation security events. The FSD also has Transportation 
Security Inspectors on staff to ensure stakeholder compliance with 
Federal regulations such as those pertaining to Law Enforcement Support 
and Personnel, Recordkeeping for Law Enforcement Personnel, Contingency 
Plans (including plan review and exercise mandates), Security Directive 
Measures, and Incident Management Procedures. In addition, the TSA 
Office of Intelligence has assembled a Field Support Unit, through 
which Field Intelligence Officers located at airports around the Nation 
can work with airport operators and local law enforcement entities on 
aviation security issues.
    TSA's Office of Transportation Sector Network Management (TSNM) 
interacts with airport operators from the headquarters level by working 
with the local FSDs and the TSA Personnel Security Office to process 
security clearances for stakeholders. The SECRET level clearance 
provides a means to share pertinent security and/or threat information 
with the stakeholder and assist with understanding the need to 
implement certain security measures to mitigate threat. TSNM interacts 
directly with stakeholders on a routine basis by supporting a TSA 
secure web board and electronic information mailbox. This office also 
participates in industry workgroups and conferences in an effort to 
exchange information and identify aviation security enhancements.

    Question 4. What is the status of NSEERS (National Security Entry/
Exit Registration System) and how is it impacted by the Christmas Day 
attempted bombing?
    Answer. The NSEERS program is currently operational. DHS has not 
made any changes as a result of the failed Christmas Day bombing.
    NSEERS was originally created to record certain actions, such as 
entry and exit, of designated travelers. At the time the designations 
were established, they were geared toward providing the capability to 
conduct extra scrutiny for those categories of individuals considered 
most likely to present a national security threat, given the 
intelligence available. Since the time NSEERS was initiated, DHS has 
implemented many new capabilities that broadly address the ever-
evolving threats to the United States. The information regarding entry 
and exit recorded under NSEERS is also tracked more effectively, and 
for a much broader population, though other DHS programs. DHS is also 
able to use intelligence-driven criteria to target individuals for 
additional immigration and border screening, rather than relying on 
fixed country-based criteria. DHS is currently reviewing the future of 
the NSEERS program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Janet Napolitano
    Question 1. What steps is the Department of Homeland Security 
taking to ensure the relevant intelligence information is getting to 
the correct people to keep extremists and terrorists off of our planes 
and outside of our borders?
    Answer. On June 3, 2008, Department of Homeland Security's (DHS) 
Office of Intelligence and Analysis issued a memorandum (Subject: DHS 
Protocol for Terrorist Watchlisting) to the Heads of all DHS 
Components. This document includes the instructions, format, and points 
of contact information required to make a nomination to the Terrorist 
Screening Data base (TSDB). The TSDB is the terrorist watchlist and is 
used by all agencies (including DHS) for terrorist screening. 
Additionally, the Department is currently working with the interagency 
collection and screening communities to review the current criteria for 
possible updating and enhancement.

    Question 2. After the determination that this event was in fact a 
terrorist attack, were the flight crews on inbound flights notified? If 
so, how long did it take to notify the crews and what was the process 
and method of notification?
    Answer. On December 25, 2009, at 2:40 p.m., under the direction of 
Transportation Security Administration senior leadership, the Federal 
Aviation Administration representative initiated a communique to all 
inbound aircraft from Europe to continental United States (CONUS). A 
telecom was held with all airline carriers and air traffic control 
centers to provide incident overview and flight information relating to 
Northwest Airline 253 (i.e., origination/destination). In addition, 
airline carriers were instructed to require all passengers to remain 
seated during the final hour of flight prior to entering CONUS 
airspace. Airline carriers transmitted this information via Aircraft 
Communications Addressing and Reporting System to inbound CONUS 
aircraft.

    Question 3. Advanced Imaging Technology is currently optional for 
all passengers. Those who choose not to undergo this type of screening 
are required to use the walk-through metal detector and undergo a pat-
down procedure to ensure they receive an equivalent level of screening. 
Will this continue to be the policy of the TSA?
    Answer. Yes, individuals who choose not to undergo advanced imaging 
technology screening will continue to be required to undergo a pat down 
search and may request private screening.

    Question 4. How many different companies make Advanced Imaging 
Technology for passenger screening?
    Answer. There are a number of Advanced Imaging Technology (AIT) 
vendors. The Transportation Security Administration has operationally 
tested units from three vendors, and an additional three vendors are 
currently undergoing laboratory testing at the Transportation Security 
Laboratories under the current AIT solicitation. TSA encourages a 
competitive market, and as more vendors meet TSA's operational testing 
requirements, they will be given the opportunity to compete for TSA's 
business.

    Question 5. When will Secure Flight be fully deployed across 
airlines operating domestically? Why has implementation of Secure 
Flight fallen behind schedule?
    Answer. Secure Flight is scheduled for deployment with the domestic 
carriers by spring 2010 and the international carriers by the end of 
calendar year 2010. The delay has been caused by technological 
challenges within some of the domestic carriers. However, the 
Transportation Security Administration (TSA) and the affected carriers 
have diligently worked together to solve the challenges and minimize 
the delays. With regard to international carriers, TSA is working with 
carriers on an alternate process to meet program requirements on 
schedule.

    Question 6. How frequently does the TSA audit airport and aviation 
security in foreign countries? What recourse does TSA have if they find 
an airport does not meet U.S. security standards?
    Answer. The Transportation Security Administration (TSA) is charged 
with assessing all foreign airports from which flights operate to the 
United States and those at which U.S. air carriers operate (regardless 
of the destination). TSA has a cadre of Security Specialists who visit 
the nearly 300 airports at intervals between one and 3 years. The 
frequency of the visits is based on risk analysis of current threat, 
documented vulnerabilities, and flight data. More frequent assessments 
are conducted if circumstances warrant, including previous deficiencies 
requiring follow-up visits, recent threat information, start-up service 
requests, and infrastructure changes at a particular foreign airport 
(e.g., Haiti earthquake).
    If TSA finds that an airport does not effectively carry out 
security measures, several options are available that range from 
providing on-the-spot correction recommendations, conducting formal 
training, recommending a Public Notice that the airport does not 
implement adequate security measures, or recommending that service to/
from the United States be suspended. Recommending a Public Notice is 
ordinarily only employed when all other attempts have failed in 
assisting the airport or appropriate foreign government authorities to 
improve the security posture of the subject foreign airport, and in 
accordance with the requirements of 49 U.S.C.  44907.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Hon. Janet Napolitano
    Question 1. Public reports indicate that the No Fly and Selectee 
Lists include about 18,000 people combined. By contrast, the Terrorist 
Screening Data base (TSDB), the master watchlist, includes 
approximately 400,000 people. Thus, more than 95 percent of the known 
or suspected terrorists deemed worthy of inclusion on the consolidated 
watchlist are not required to undergo additional airport screening. In 
your opinion, is that defensible?
    Answer. The interagency established very stringent requirements 
(e.g., an operational threat to aviation) for a record to be included 
in the No Fly or Selectee lists, which are subsets of the Terrorist 
Screening Data base (TSDB). In response to the December 25 attempted 
bombing, on December 27, 2010, President Obama ordered reviews of 
airport security measures and watchlist policies to determine if there 
are specific areas that warrant change or significant modifications 
that should be made. The Department of Homeland Security (DHS) is 
working with our interagency partners to re-evaluate the criteria and 
processes used to create the consolidated terrorist watchlist, 
including evaluating the process by which identities are added to the 
No Fly and Selectee lists. As part of these reviews, DHS is taking into 
account changes in our process, such as the implementation of Secure 
Flight, so that we may identify opportunities for further enhancements 
to the watchlisting process.

    Question 2. One of the 9/11 Commission Recommendations that was not 
entirely adopted was that air passengers be screened against the full 
Terrorist Screening Data base (TSDB). Why wasn't this done? Do you now 
expect to make this change? And what are the consequences of doing so 
to the traveling public?
    Answer. For international flights, U.S. Customs and Border 
Protection (CBP) screens all passengers with reservations to fly to the 
United States against the full Terrorist Screening Data base (TSDB) 
within 72 hours of departure. Passengers are also screened against the 
TSDB prior to takeoff and upon entry to the United States. In addition, 
foreign nationals are screened against the TSDB when applying for a 
visa or obtaining Electronic System for Travel Authorization (ESTA) 
prior to flying to the United States.
    DHS is working with our interagency partners to re-evaluate the 
criteria and processes used to create the consolidated terrorist 
watchlist, including evaluating the process by which identities are 
added to the No-Fly and Selectee lists.
    The Secure Flight program currently compares passenger information 
only to the No-Fly and Selectee components of the TSDB. Secure Flight 
will become the primary mechanism to screen flights within the United 
States. In general, comparing passenger information against the No-Fly 
and Selectee components of the TSDB during normal security 
circumstances will enable the Transportation Security Administration 
(TSA) to counter the security threat to aviation. According to the 
Secure Flight Final Rule, TSA may use the larger set of TSDB records 
when warranted by security considerations.
    Matching passenger information against the full TSDB would result 
in a significant increase in the number of ``possible'' matches, 
meaning individuals whose names or other information are similar to a 
person on the larger TSDB, and potentially cause unnecessary traveler 
delays and frustration without enhancing aviation security. The 
criteria for records on the No-Fly and Selectee lists were established 
to specifically include those individuals most likely to present a 
threat, while minimizing the potential for misidentification of 
passengers. Other records don't indicate the same level of threat, or 
may not have adequate information to enable DHS to rapidly distinguish 
a positive match from misidentification. Matching against the entire 
TSDB would result in a significant increase in misidentifications.

    Question 3. In the Department of Homeland Security Appropriations 
Act of 2008 (Public Law 110-161, Division E, Title II), Congress 
expressed concern about the fact that the full TSDB was not being used 
for airline passenger screening. Specifically, the bill directed that, 
if the Assistant Secretary of Homeland Security (Transportation 
Security Administration) determines that the Secure Flight program does 
not need to check airline passenger names against the full terrorist 
watch list, then the Assistant Secretary shall certify to the 
Committees on Appropriations of the Senate and the House of 
Representatives that no significant security risks are raised by 
screening airline passenger names only against a subset of the full 
terrorist watch list. Has this required certification been made? If 
not, why not? If so, please provide a copy of the certification with 
your response.
    Answer. The Assistant Secretary of Homeland Security 
(Transportation Security Administration) transmitted to Congress on 
December 9, 2008 his determination that no significant security risks 
are raised by screening airline passenger names only against the No-Fly 
and Selectee components of the full terrorist watch list.

    Question 4. In the aftermath of the Christmas plot, do you believe, 
or can you confidently state, that our current advanced screening 
technologies would have detected the substance and/or devices on the 
Christmas Day terrorist, considering the amount of explosive material 
and the method in which it was concealed?
    Answer. The Transportation Security Administration (TSA) employs a 
layered security approach that combines technology and process to 
address the wide variety of aviation security threats. While no 
technology is a silver bullet in stopping a terrorist attack, a number 
of technologies, when employed as part of a multi-layered security 
strategy, can increase our ability to detect dangerous materials. For 
example, Advanced Imaging Technology provides enhanced capabilities to 
detect person-borne threats. Other technologies and screening processes 
are also important, such as well-trained Transportation Security 
Officers, Behavior Detection Officers, Bomb Appraisal Officers, Federal 
Air Marshals, canine teams, and an engaged traveling public.

    Question 5. Our country's experience combating drug trafficking 
demonstrates the willingness of smugglers to conceal contraband in body 
cavities. As publicly described, even our most advanced screening 
technologies do not have the capability to detect explosives or 
explosive devices concealed in body cavities. Given this known security 
weakness, do we need to further utilize explosive sniffing canines 
across our transportation system? What additional training and 
resources would be required to train canines to detect explosives on 
humans?
    Answer. The President's FY 2011 budget requests $71 million for an 
additional 275 explosives detection canine teams for Category X and I 
airports. The Transportation Security Administration's (TSA) National 
Explosives Detection Canine Team Program (NEDCTP) develops, trains, 
deploys, and certifies explosives detection canine teams to deter and 
detect the introduction of explosive detection devices into the 
transportation system.
    As a result of the December 25, 2009, attempted terrorist attack, 
TSA is accelerating its efforts to develop a program to train canines 
for the detection of Person-Born Improvised Explosive Devices (PBIED). 
This initiative, taken in cooperation with the science community, will 
include canines physically searching humans as well as utilizing a 
method known as Vapor Wake Detection. This method relies on the 
canine's ability to process air currents and recognize odors the canine 
has been specifically trained to detect, regardless of whether the 
person is moving or standing still. TSA's goal is to institute PBIED 
training in new canine training.

    Question 6. In the years following the September 11 attacks, many 
terrorist acts and attempted plots have involved so-called ``clean 
skin'' terrorists: people with spotless records whose documents would 
not arouse suspicion. How can we protect the homeland effectively from 
such perpetrators, without unduly impeding the millions of travelers 
who have no ill will toward the United States?
    Answer. The use of ``clean skins'' is a recognized threat and is a 
significant focus in the Department of Homeland Security's (DHS) 
counterterrorism strategy. No matter how good the watchlist check 
process is, the terrorists will seek ways to identify and use 
individuals who are unknown to the U.S. Government. To combat this 
threat, DHS relies on layers of defense, including the use of physical 
screening technologies, analytical targeting tools to identify unknown 
threats, canine teams, behavior detection officers, and other security 
measures. This integrated, layered approach increases our ability to 
deter, detect, and prevent someone from doing us harm.
    DHS is constantly examining potential areas of threat and is 
investing in countermeasures. For example, DHS has established a 
partnership with the Department of Energy and its National Laboratories 
to develop new and effective technologies to detect known threats, and 
to anticipate new ways by which terrorists could board an aircraft with 
weapons or other materials.
    In addition, DHS is accelerating the deployment of Advanced Imaging 
Technology (i.e., ``full body'' scanners) to provide additional 
capability to identify objects or materials hidden on a person, such as 
those used in the attempted December 25 attack. We are also encouraging 
foreign aviation security authorities to use similar technologies and 
increase their security capabilities.

    Question 7. During a December 2, 2009, hearing before this 
committee, I asked you whether Attorney General Holder had consulted 
you on the decision to move the Guantanamo Bay detainee trials to New 
York City. At that hearing you responded that you were not consulted 
but were confident U.S. soil could be protected. Given recent events 
and apparent weaknesses in our security system, evident from the 
Christmas Day plot, do you still agree with the decision to move the 
trial to New York? And do you stand by the notion that any shortcomings 
in our security system can be nullified in order to protect all U.S. 
citizens during that highly stressful time?
    Answer. The President has stated that no final decision has been 
made on whether to try the case in New York or to identify an alternate 
venue given the concerns that have recently been raised by local 
officials. The Federal courts have had a long history of successfully 
prosecuting terrorists in a secure manner that brings them to justice 
and protects sensitive information. The previous Administration 
successfully prosecuted hundreds of terrorists in Federal courts.
    I am confident we can bring the GITMO detainees to justice in a 
safe and secure manner, and I expect to be involved in security 
preparations for the trial when a final decision is made about the 
venue.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Hon. Janet Napolitano
    Question 1. The findings of the Administration's report released 
January 7, 2010, reviewing the intelligence failures leading up to 
Christmas Day, 2009, concluded ``the information that was available to 
analysts, as is usually the case, was fragmented and embedded in a 
large volume of other data,'' and that both ``NCTC and CIA personnel 
who are responsible for watch-listing did not search all available 
databases to uncover additional derogatory information that could have 
been correlated with Mr. Abdulmutallab.''
    It is my understanding that most intelligence analysis is currently 
a process of manual searches of various databases.
    It strikes me that this could easily reoccur, based on Director 
Leiter's testimony concerning the vast volume of data processed by the 
NCTC on a daily, if not hourly, basis. The Administration's review 
makes clear that the current intelligence-sorting processes today could 
be improved by utilizing technology that can be programmed to 
differentiate among specific types of threats, assign roles and 
responsibilities to each, and manage the response and escalation 
procedures, including the follow-up on such threats. Could this 
potential gap be remedied with automation? Is the Department or the 
NCTC actively developing, or seeking, technology that can process such 
large volumes of data effectively, not missing intelligence-gathering 
opportunities, and if so, when will such technology be operational?
    Answer. The Department of Homeland Security (DHS) is investigating 
ways to improve our ability to identify whether an individual has been 
previously encountered by a DHS entity by searching across the large 
number of systems in the Department. In response to the December 25, 
2009 incident, the Department established a DHS Threat Task Force 
(DTTF) that established a single operations center allowing DHS 
personnel access to 47 government information systems individually in 
order to perform name traces. While the operations center represented a 
positive step forward and yielded actionable insights, there is still a 
need for the capability to search across multiple systems, including 
the intelligence systems, and to combine the results from across the 
Department and partner agencies. A federated search tool would allow 
DHS and partner agencies to ``connect the dots'' better.
    Cross database search will enable DHS to search individual names, 
submit lists of names for search, and to set up alerts which are 
tripped when new information on individuals of interest comes in.
    While technically feasible, we must ensure that we perform searches 
across databases in a manner that protects privacy and civil rights and 
civil liberties. It requires a review of applicable System of Records 
Notices (SORN) and Privacy Impact Assessments (PIA) to ensure that we 
use the databases in a manner consistent with what we have publicly 
stated about them. The Department will continue to work through these 
issues to make available for search the kinds of sensitive U.S. Persons 
data that are currently not easily shared with the Intelligence 
Community in a manner that protects civil rights and civil liberties, 
and ensuring DHS can achieve its mission to detect threats to the 
homeland.

    Question 2. The findings of the Administration's report released 
January 7, 2010, reviewing the intelligence failures leading up to 
Christmas Day, 2009, concluded ``the information that was available to 
analysts, as is usually the case, was fragmented and embedded in a 
large volume of other data,'' and that both ``NCTC and CIA personnel 
who are responsible for watch-listing did not search all available 
databases to uncover additional derogatory information that could have 
been correlated with Mr. Abdulmutallab.''
    It is my understanding that most intelligence analysis is currently 
a process of manual searches of various databases.
    Although our security and intelligence networks constantly are 
working to keep America safe, and their efforts have thwarted numerous 
terrorist attempts, it is evident that the existing workforce is spread 
thinly in many areas, and could face an even greater burden if 
heightened security measures are put in place. While I believe 
personnel increases would go a long way toward minimizing the risks we 
now face, I believe in some cases technology could reduce human errors 
and the failure to consider pertinent and currently inaccessible data 
or pass it on to other relevant parties. Do you believe the Department 
of Homeland Security and the Counter-Terrorism Center has sufficient 
resources to secure the latest technologies that would allow us to 
close these gaps?
    Answer. The Department of Homeland Security's (DHS) Office of 
Intelligence and Analysis (I&A) believes that if DHS were able to 
perform integrated queries against a variety of databases within the 
Department and Intelligence Community (IC) reporting data bases, the 
Department would be in a better position to connect individuals like 
Abdulmutallab to certain types of derogatory data and prevent the next 
terrorist attack.
    Records on Abdulmutallab existed in DHS's TECS database and the 
Department of State's Consolidated Consular Database (CCD). If IC 
reporting on Abdulmutallab had been more accessible and of sufficient 
depth, there is a greater likelihood that a link would have been found 
that could have provided warning about this individual. DHS is piloting 
technology that can enhance information sharing and analysis. The pilot 
is adapting technology that the Federal Bureau of Investigation has 
successfully used in counterterrorism financing cases. I&A is 
interested in the possibility of applying the technology to the work of 
the DHS Threat Task Force, the Intelligence Watch and Warning Branch, 
and the Immigration and Travel Security branch, where it has the 
potential to provide major analytic ``lift.'' The pilot has made over 
10 billion records available for search, but much more engineering 
rigor, and the time associated with employing that rigor, is needed to 
make it a fully operational system. If the pilots are successful and 
the technology found to be suitable to the envisioned applications, DHS 
will review what additional resources are required and incorporate 
appropriate requests through the budget planning process.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                         Hon. Janet Napolitano
    Question 1. Madam Secretary, almost 2 million people board aircraft 
in, or bound for, the United States every day. Odds are that a bottle 
of water or tube of hair gel in the hands of the vast majority of these 
individuals is not a threat. As we know the real aim of terrorists is 
to disrupt our way of life and provoke responses that are, often times, 
large-scale, ineffective, inefficient, counterproductive, and 
expensive.
    Instead of these overreactions, and inconveniencing the vast 
majority of the 2 million travelers mentioned above, shouldn't we have 
a more robust watch list that is available to all relevant agencies of 
government and the airlines?
    Wouldn't this help us isolate the small percentage of these average 
2 million fliers each day who are suspicious and allow us to pay extra 
attention to them, instead of focusing on the young family, elderly 
grandmother, or soldier in uniform? Of course these groups should have 
to go through some form of security, but aren't our resources better 
spent focusing on the bad guys?
    Answer. This issue is one that we face everyday at the Department 
of Homeland Security (DHS). It is embedded in the Department's mission 
to protect the homeland while facilitating legitimate trade and travel. 
We strive to create a balance between security and the personal 
freedoms individuals have come to associate with the United States. One 
of the primary goals of the Nation's counterterrorism efforts is to 
identify known or suspected terrorists in order to prevent them from 
harming U.S. citizens, both at home and abroad.
    In response to the December 25 attempted bombing, on December 27, 
2010, President Obama ordered reviews of airport security measures and 
watchlist policies to determine if there are specific areas that 
warrant change or significant modifications that should be made. DHS is 
working with our interagency partners to re-evaluate the criteria and 
processes used to create the consolidated terrorist watchlist, 
including evaluating the process by which identities are added to the 
No Fly and Selectee lists and how the lists are operationally managed 
by Federal agencies involved in the watchlisting process.
    In addition, we must also work to enhance aviation security in 
other ways--including enhancing our physical screening capabilities. 
The terrorist use of ``clean skins'' (i.e., persons with no previous 
records connecting them to a terrorist threat) as agents is a 
recognized threat and is a significant focus in DHS' counterterrorism 
strategy. It is important to remember that no matter how good our 
watchlist is, the terrorists will seek ways to identify and use 
individuals who are unknown to us. To combat the various types of 
threats, we rely on layers of defense, including use of algorithms to 
identify unknown threats, use of canine teams, behavior detection 
officers, and also improvements to our physical screening capabilities 
in addition to our use of the watchlist. This integrated, layered 
approach increases our ability to deter, detect, and prevent someone 
from doing us harm.
    In an effort to better focus security efforts in accordance with 
potential risk, DHS is exploring the incorporation of new technology 
solutions and practices in the security process. For example, DHS has 
established a partnership with the Department of Energy and its 
National Laboratories to develop new and effective technologies to 
detect known threats, and to anticipate new ways by which terrorists 
could board an aircraft with weapons or harmful materials. The 
Transportation Security Administration also uses highly trained 
Behavior Detection Officers as a security layer to identify potential 
threats.
    In addition, DHS is accelerating the deployment of additional 
Advanced Imaging Technology (i.e., full body scanners) to provide 
additional capability to identify materials such as those used in the 
attempted December 25 attack. We are also encouraging foreign aviation 
security authorities to use similar technologies and increase their 
security capabilities.

    Question 2. Madam Secretary, please update us, in a classified 
manner if need be, on the deployment of TSA's Behavior Detection 
Officer (BDO) program? How many airports is that program in now? How 
many officers are participating? Is this program in place at 
Hartsfield-Jackson airport?
    Answer. The Transportation Security Administration (TSA) has 
completed deployment of Behavior Detection Officers (BDOs) at currently 
funded levels. The pending Fiscal Year (FY) 2011 President's Budget 
includes a request for an additional 350 BDOs. Screening of Passengers 
by Observation Techniques (SPOT) programs are operational full-time at 
161 of the Nation's airports. There are approximately 3,000 BDOs 
deployed at these airports. The specific locations where the SPOT 
program has been deployed is Sensitive Security Information. The 
Transportation Security Administration can provide this information to 
the Committee at your convenience in a non-public setting.

    Question 3. Madam Secretary, my understanding is that the airlines 
incur the cost of returning passengers who are denied entry into the 
United States because of visa revocations, even though they boarded 
these passengers without the knowledge that these passengers have visas 
that have been revoked.
    I know it wouldn't have been helpful in the Abdulmutallab case 
since the signs were missed and Abdulmutallab wasn't on the revocation 
list, but rather than have these airlines board these passengers only 
to have to return them, why doesn't DHS or CBP make the visa revocation 
list known to airlines via APIS Quick Query so they can deny boarding 
at the point of embarkation?
    Instead of stopping these individuals at the point of entry at the 
airport, wouldn't you agree that denying these individuals the ability 
to board the aircraft in a foreign country is a more efficient, and in 
some instances safer, method? Is this something DHS is planning on 
doing? If not, why not?
    Answer. The Department of Homeland Security (DHS) agrees that it is 
preferable to prevent the travel of an individual who will clearly be 
found inadmissible on entry, such as a traveler whose visa has been 
revoked.
    Since December 25, 2009, CBP has implemented a manual process to 
notify carriers and advise them not to board an individual whose visa 
has been revoked or for other appropriate reasons. Further, CBP is in 
the process of developing an automated solution.

    Question 4. Madam Secretary, it would seem that passengers who are 
willing to submit to background checks should be allowed to pass 
through an expedited screening. Can you update us on DHS and TSA's 
plans, if any, for a registered traveler program?
    Answer. The Transportation Security Administration (TSA) concluded 
a two-year Registered Traveler (RT) pilot at 19 airports on July 30, 
2008. As announced in the Federal Register--73 Fed. Reg. 44275 et. seq. 
(July 30, 2008), the TSA no longer regulates the RT business model and 
has completed a formal transition of RT to a fully private-sector 
model. The value of a trusted passenger program remains a worthwhile 
concept. The Department of Homeland Security continues to encourage 
interested vendors to work directly with airports and airlines on 
developing options for RT. TSA remains open to considering proposals 
that could provide a security benefit to the traveling public.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. David Vitter to 
                         Hon. Janet Napolitano
    Question 1. Would you agree that the Christmas Day plot could well 
have been launched from a domestic airport? Given that the threat isn't 
the Secure Flight program which flags suspicious travelers on domestic 
flights for additional screening or ensure individuals on the No-Fly 
List don't get on a domestic flight vitally important? Has Congress 
done everything it can do to make sure this program is successful?
    Answer. Secure Flight is indeed vital to enhancing the security of 
domestic and international flights in the United States. The Federal 
Government's assumption of responsibility for watchlist matching was a 
key recommendation of the 9/11 Commission and is mandated by the 
Intelligence Reform and Terrorism Prevention Act of 2004. The program 
serves to: (1) identify known and suspected terrorists, (2) prevent 
individuals on the No-Fly list from boarding and aircraft, (3) require 
individuals on the Selectee list to go through enhanced screening at 
the checkpoint, (4) facilitate passenger air travel with less 
confusion, and (5) protect individuals' privacy. Secure Flight provides 
a fair, equitable, and consistent matching process across all airlines; 
reduces instances of misidentified individuals; and offers consistent 
application of an integrated redress process for misidentified 
individuals through the Department of Homeland Security Travel Redress 
Inquiry Program (DHS TRIP). Congress has been very supportive of the 
Secure Flight program and the Transportation Security Administration's 
efforts to ensure passenger security. Continued Congressional support 
is vital as the Secure Flight program implements the program 
incrementally over the course of 2010. Secure Flight is on schedule to 
assume watchlist matching responsibilities from all domestic airlines 
by spring 2010 and international airlines by the end of 2010.

    Question 2. If such a plot were launched from a domestic airport 
would a program like REAL ID have helped identify a terrorist who used 
a fraudulent driver's license as proof of identity to board a plane? A 
program like REAL ID was one of the top recommendations of the 9/11 
Commission. Does TSA support moving forward with REAL ID as quickly as 
possible?
    Answer. The REAL ID Act was established to increase the security in 
driver's licenses to reduce the threat of these documents being used to 
establish a fraudulent identity for official purposes, such as boarding 
a commercial aircraft--and thereby increasing aviation security. REAL 
ID was intended to establish minimum standards for the issuance of 
secure state issued driver licenses and identification cards to ensure 
that the individual who is applying for a secure document is who they 
say they are and is in lawful status in the U.S.
    Unfortunately, as DHS had warned earlier in the year, 46 of the 56 
states and territories were unable to meet the objectives for material 
compliance with REAL ID this past December. If we establish 
requirements that only a few states can meet, we can't achieve our 
security objectives. Over the last year, DHS has worked diligently with 
Congress to pass the widely-supported PASS ID bill--breaking the 
impasse and putting us on a path to the security enhancements we all 
support. Unfortunately, Congress has not enacted PASS ID.
    In going forward, DHS plans to work with all the states to create a 
path that allows for the majority of states to rejoin our collaborative 
efforts to enhance security.

    Question 3. From the TSA perspective can you explain the White 
House Vision for Aviation Security? In the aftermath of the Christmas 
Day plot, the Obama Administration's first response was to put in place 
a plethora of feel-good but meaningless initiatives aimed at the 
Transportation Security Administration (TSA) screening process. For 
instance, the TSA announced it would single out travelers from 14 
countries for additional screening. This move made little sense. 
Terrorists, including al-Qaeda operatives, have long understood the 
need to route their attacks through countries that are not the most 
suspicious.
    Answer. DHS has a multi-faceted approach to enhancing aviation 
security capabilities both at home and abroad following the December 
25th attack. DHS has the lead for the Federal Government in three areas 
in the President's overall plan for corrective action:

  <bullet> Aggressively pursuing enhanced screening technology, 
        protocols, and procedures, especially in regard to aviation and 
        other transportation sectors, consistent with privacy rights 
        and civil liberties;

  <bullet> Strengthening international partnerships and coordination on 
        aviation security issues; and

  <bullet> Developing recommendations on long-term law enforcement 
        requirements for aviation security in coordination with the 
        Department of Justice.

    In addition, DHS provides a significant supporting role in re-
evaluating and modifying the criteria and processes used to create 
watch lists.
    As our overall aviation security posture is strengthened with the 
deployment of the capabilities and programs discussed in this report, 
DHS will review whether and how the enhanced security requirements for 
travelers originating from specified countries can be reduced or 
eliminated. This review will result in a balanced and sustainable 
approach to aviation security over the long term.
    As DHS continues to explore avenues for strengthening aviation 
security, we will do so in a manner consistent with our civil rights, 
civil liberties and privacy responsibilities. Specifically, DHS will 
work to:

  <bullet> Improve the processes available for identifying errors in 
        U.S. Government data bases and making corrections to reduce the 
        number of false-positives and misidentifications in the 
        screening process;

  <bullet> Ensure a more effective redress process is available for 
        individuals who have inquiries or seek resolution of 
        difficulties they experienced during their travel screening;

  <bullet> Ensure that new technologies and techniques avoid or 
        minimize the impact on civil liberties and privacy; and

  <bullet> Continue our engagement with key ethnic and religious 
        communities and other groups so that they understand aviation 
        security policies and procedures, as well continuing to be able 
        to express concerns to and seek information from Department 
        officials.

    Question 4. From the TSA perspective can you explain why was the 
Government able to foil a Similar 2006 Liquid Explosives Plot when it 
was unable to do so on Christmas Day? In 2006, the U.S. was able to 
work effectively with its U.K. security counterparts to foil plans for 
a simultaneous attack on 10 airliners headed toward the U.S. This 
success was the result of information sharing, good intelligence 
gathering, and ``connecting the dots.'' Clearly, there is a system in 
place that can work effectively to stop acts of terrorism against 
Americans.
    Answer. In response to the December 25 attempted bombing, on 
December 27, 2010, President Obama ordered reviews of airport security 
measures and watchlist policies to determine if there are specific 
areas that warrant change or significant modifications that should be 
made. DHS is working with our interagency partners to re-evaluate the 
criteria and processes used to create the consolidated terrorist 
watchlist, including evaluating the process by which identities are 
added to the No Fly and Selectee lists and how the lists are 
operationally managed by Federal agencies involved in the watchlisting 
process.
    DHS maintains a close relationship with the United Kingdom and 
other international partners to strengthen international security 
measures and standards for aviation security. Secretary Napolitano is 
fully committed to making whatever changes are necessary to protect the 
safety of the traveling public. Following the Christmas attack, senior 
DHS officials traveled to Europe and other locations where they met 
with officials and discussed the primary findings of President Obama's 
aviation security review. Rather than a failure to collect and share 
information, it was a failure to connect and understand the 
intelligence that we already had.
    DHS continues to work with global leaders on ways to collectively 
bolster tactics for defeating terrorists wherever they may seek to 
launch an attack. DHS is reviewing security procedures and technology 
being used to screen passengers on U.S.-bound flights from airports in 
Africa, Asia, Europe, the Middle East and South America. DHS is also 
joining our international counterparts in a series of global meetings 
intended to bring about broad consensus on new international aviation 
security standards and procedures.

    Question 5. How can TSA work better with the Department of State 
and with International Partners to improve security practices overseas? 
The relationship between DHS and the Department of State is weak and 
needs to be vastly improved. Specifically, the two agencies fail to 
coordinate on visa security matters. Abdulmutallab's visa was not 
revoked on December 25, 2009, despite information to warrant this type 
of action, nor was this information communicated to the National 
Counterterrorism Center.
    Answer. In light of the attempted attack on December 25, 2009, as 
part of the Presidentially-mandated review, Department of Homeland 
Security (DHS) is working via the interagency process to examine 
methods to enhance security.
    DHS and the Department of State (DOS) have a strong relationship 
and coordinate closely on national security as well as on a variety of 
other issues. Secretary Napolitano and Secretary of State Hillary 
Clinton meet regularly, as do officials at every level in offices and 
components from their respective departments, including the 
Transportation Security Administration (TSA). Interaction is frequent 
and both formal and informal. In March 2009, Secretaries Clinton and 
Napolitano established a Deputy Assistant Secretary-level forum that 
meets regularly to further improve coordination. Regular coordination 
also occurs through existing forums such as the Deputies Committee and 
Sub Interagency Policy Council.
    DHS and DOS regularly share information on all visa applicants. 
This cooperation ensures that U.S. Customs and Border Protection (CBP) 
can act appropriately when encountering a visa holder. Additionally DHS 
makes its encounter records--including biometric and biographic 
records--available to DOS for their use.
    The two departments also collaborate via the Visa Security Program 
(VSP), which has enabled significant improvements in information 
sharing and visa security mechanisms and through which DOS and DHS 
continue to evaluate areas for further cooperation. Pursuant to Section 
428 of the Homeland Security Act (HSA), U.S. Immigration and Customs 
Enforcement's (ICE) VSP works cooperatively with DOS and other partners 
to protect U.S. national security. ICE is currently conducting VSP 
operations at 14 posts in 12 countries, offering a DHS law enforcement 
capability and providing an important complement to DOS efforts in the 
consular visa process. The VSP seeks to uncover ineligible applicants 
previously unknown to the U.S. Government, deny them access to visas 
and generate additional outcomes beyond the visa denial. These outcomes 
include creating new watch list records, updating existing records with 
new information, identifying trends, uncovering and halting fraud 
schemes which may be exploited by applicants with ties to terrorism, 
investigating criminals, supporting ongoing domestic criminal 
investigations, and generating intelligence products. ICE Special 
Agents accomplish this by working in a collaborative process at post 
with consular officials.
    In May 2007, Congress passed H.R. 2206, mandating the creation of a 
Security Advisory Opinion Unit (SAOU) within VSP. VSP's SAOU is 
currently operating a pilot program at the Human Smuggling and 
Trafficking Center (HSTC) that screens one SAO category (the Condor 
category) and communicates any potential admissibility concerns to DOS. 
The SAOU has access to sensitive information and is available to assist 
Visa Security Units (VSUs) overseas as needed. VSP also has a presence 
at the National Targeting Center-Passenger and will deploy 
representatives to the National Counterterrorism Center this month.

    Question 6. If an alert Federal Air Marshal was on that flight he 
might have spotted and prevented the intended attack. The 
Administration plans to expand the FAM program. Can you tell me what 
efforts are underway to work with other countries to convince them to 
adopt similar programs or start them?
    Answer. The Transportation Security Administration (TSA) encourages 
other governments to develop and implement their own In Flight Security 
Officer (IFSO) Programs. TSA coordinates the approval process for 
foreign armed air marshals on foreign air carrier flights to and from 
the U.S. through bilateral agreements and facilitates movement/entry of 
foreign air marshals through U.S. airports. TSA provides an 
International Air Marshal Training Program, a Training Needs Assessment 
and a Trainer Exchange Program for countries interested in implementing 
IFSO programs. Since 2004, the Federal Air Marshal Service (FAMS) has 
provided training to 10 countries to promote IFSO programs, 16 tours 
were provided to international partners that expressed an interest, and 
11 international site visits, instructor exchanges, or aviation 
conferences were attended.
    TSA participates in the annual International Air Marshal Conference 
(IAMC). The IAMC provides a unique platform to exchange views and share 
best practices with air marshal programs from around the world.

    Question 7. Most people don't realize that under the criteria 
required of new countries that enter the Visa Waiver Program, the U.S. 
is able to obtain more information, in a more timely manner, that would 
make it easier to identify a potential malicious traveler than an 
individual flying from a country where all they had to do was get a 
travel visa to the United States? Would it not be in the interest of 
TSA if the Congress allowed the U.S. Government more flexibility to 
bring countries into the program--authorities that Congress had allowed 
under the Bush Administration? This would not only strengthen travel 
security with friendly allies, it would allow the State Department to 
concentrate more of its counselor resources on countries of concern. 
Wouldn't the TSA support that?
    Answer. Visa Waiver Program (VWP) countries are among our closest 
international partners. Countries participating in the VWP are required 
to meet strict security standards. These standards include information 
sharing agreements with the U.S. Government regarding known or 
suspected terrorists and perpetrators of other serious crimes, the 
sharing of lost and stolen passport information with INTERPOL, as well 
as standards for transportation security, border security, and document 
integrity. In addition, VWP travelers are subject to more stringent 
passport security standards and information disclosure procedures than 
other international travelers. The prospect of VWP membership 
accordingly is a superb tool for incentivizing security enhancements by 
foreign countries, upgrading the U.S. Government's screening capacity, 
and furthering partnerships with foreign governments.
    DHS--in cooperation with other departments and agencies--conduct 
intense reviews of any prospective VWP country before the country can 
be admitted. The 35 current members of the program must meet and 
maintain the same standards, including information-sharing and 
transportation, border, and document standards, and they are subject to 
in-country biennial security reviews led by DHS. As a result, no other 
mechanism provides DHS with the opportunity to conduct as broad and 
consequential inspections of foreign security standards as does the 
VWP.
    DHS and the Department of State continue to consult with valued 
allies to determine whether VWP designation is possible. For example, 
the respective U.S. embassies hold regular working groups to discuss 
VWP-related issues and DHS frequently hosts visiting delegations of 
foreign officials to discuss the statutory requirements of the VWP.
    It is important to note that individuals applying for a visa to 
enter the United States go through extensive checks conducted by the 
Department of State at application, as well as a personal interview. 
Additionally, before flying to the United States, airlines provide U.S. 
Customs and Border Protection (CBP) with information from passenger 
reservations as well as manifest information so that CBP can conduct 
appropriate security checks.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                  Hon. Lee Hamilton and Hon. Tom Kean
    Question 1. The suspect in the Newark Airport security breach is 
being charged under New Jersey state law with ``defiant trespassing.'' 
In other cases around the country, individuals who purposely breached 
security at airport exits also walked away with a slap on the wrist. Is 
deterring and prosecuting these offenders a national security issue 
that should rest with the Federal Government, rather than individual 
states or local governments?
    Answer. Deterring and prosecuting airport security offenders 
strikes us as an important part of a multi-layered aviation security 
program. However, our National Security Preparedness Group has not 
studied the specific issue of Federal versus state prosecution. We 
would welcome the opportunity to discuss this issue with you further.

    Question 2. The Christmas Day attack and the security breach at 
Newark airport highlighted glaring gaps in our aviation security, but 
the 9/11 Commission report noted that, ``opportunities to do harm are 
as great or greater in maritime and surface transportation.'' What 
should the Federal Government be doing to improve our rail and port 
security?
    Answer. The Executive Branch and the Congress have made tremendous 
strides on maritime and surface transportation since the publication of 
the 9/11 Commission report. Part of the mandate of the NSPG is to 
continue to study the implementation of our recommendations, including 
the effectiveness of the actions the Congress and the President have 
taken on these issues. We would welcome the opportunity to discuss 
these issues further with you and work together to ensure we are doing 
all we can.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                  Hon. Lee Hamilton and Hon. Tom Kean
    Question. In your testimony and in your recent op-ed in USA Today, 
you mention that it should be a priority of the DNI (Director of 
National Intelligence) to break down the wall between foreign and 
domestic intelligence and to create an architecture that would enable 
such sharing. How would you rate our progress thus far in that regard? 
What specific steps must be taken to improve this situation?
    Answer. We have asked this very question throughout our work at the 
Bipartisan Policy Center. It is our sense that the DNI made a 
substantial step forward with the promulgation of Intelligence 
Community directive 501 entitled ``Discovery and Dissemination or 
Retrieval of Information within the Intelligence Community.'' But now 
the issue is implementation. The Congress can play a very important 
role in ensuring effective implementation through its oversight 
function. As you are aware, the failure to share information was among 
the most serious problems evident on 9/11 and it is incumbent upon us 
to monitor these issues carefully to help ensure continued progress.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                  Hon. Lee Hamilton and Hon. Tom Kean
    Question 1. What lessons from 9/11 have we failed to take 
appropriate action on?
    Answer. It is our sense that we as a country have not solved the 
issues of interoperable communications nor establishing effective 
command and control at incident sites. Certainly these topics require 
more attention and cooperation among state, local, and Federal 
authorities.
    Two other prominent items of unfinished business from the 9/11 
Commission pertain to civil liberties and Congressional oversight. We 
recommended the creation of a Civil Liberties Board. It was stood up in 
Bush Administration but later lapsed after Congress enacted changes to 
its mandate. We have publicly urged President Obama to swiftly appoint 
members and send them to the Senate for confirmation.
    With regard to Congressional oversight, we recommended two options 
to increase the authority of the permanent select Committees on 
Intelligence. Congress did not adopt either recommendation. We remain 
seriously concerned regarding Congressional oversight over the 
intelligence community and are open to ideas outside of the ones we 
recommended. Finally, we recommended consolidating jurisdiction over 
the Department of Homeland Security. We are increasingly concerned that 
DHS has too many masters in the Congress, which inhibits quality 
oversight. Throughout the years we have repeatedly urged the leadership 
to make progress on this issue and will continue to look for 
opportunities to press this important piece of unfinished business.

    Question 2. Your joint testimony cites the vast amount of incoming 
information counterterrorist analysts are inundated with. What steps do 
we need to take to make sure the relevant data and information 
collected by the intelligence community is being analyzed properly and 
that the dots are being connected before incidents like the Christmas 
Day attack occur?
    Answer. We believe the answer to this question lies with utilizing 
new technology and ensuring that we recruit and retain the best people 
for the job. We're gratified that apparently there was not a failure to 
share information in the Christmas attack. The problem was a failure of 
analysis, and we're fortunate to be able to use this episode to 
underscore the importance of this issue in stopping future attacks.

    Question 3. What are the remaining recommendations of the 9/11 
Commission that have not either been introduced as legislation or 
signed into law?
    Answer. See response to Question #1.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                  Hon. Lee Hamilton and Hon. Tom Kean
    Question 1. After Vietnam and the failed attempt to rescue American 
Hostages in Iran, the Congress took it upon itself to fix some of 
problems and tensions that existed between the military services. The 
concept of ``jointness'' or of having the different military services 
increase cooperation has served our Nation well. In order for officers 
to be promoted to the Flag or General Officer rank, they have to 
complete at least one joint duty assignment and their joint 
professional military education. This ``sharing'' of personnel with the 
Joint Staff and other military services, along with this formalized 
course work, has forced the different services to interact and has led 
to greater efficiency and communication between them. Does the IC have 
any program such as this where individuals in one IC agency can spend 
time working for another?
    Answer. Yes, The Director of National Intelligence, pursuant to the 
Intelligence Reform and Terrorism Prevention Act of 2004, on May 16, 
2006, promulgated Intelligence Community Policy Guidance 601.01, an 
Intelligence Community Civilian Joint Duty Program. The directive 
provides that joint duty certification is a mandatory qualification 
requirement for promotion.

    Question 2. If so, is spending time with another IC agency a 
prerequisite for promotion within the community?
    Answer. Yes, the directive provides that joint duty certification 
is a mandatory qualification requirement for promotion.

    Question 3. If not, is this something that you have looked at? Do 
you believe the IC needs some sort of joint billeting requirement? 
Should this IC billeting requirement be a prerequisite for promotion to 
a certain level?
    Answer. The 9/11 Commission studied this issue closely and 
concluded that the intelligence community needed to act more like a 
joint enterprise and less like a series of specialized intelligence 
agencies. One way to achieve this was a joint duty system and we 
recommended that the Defense Department's Goldwater-Nichols Reforms be 
a model for the intelligence community. We have not conducted an 
exhaustive study of the IC's Joint Duty program but our understanding 
is that it is working well and we look forward to studying this issue 
further.

                                  <all>

</pre></body></html>
